<html>
<title> - 21ST CENTURY WATER PLANNING: THE IMPORTANCE OF A COORDINATED FEDERAL APPROACH</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      21ST CENTURY WATER PLANNING:
                          THE IMPORTANCE OF A
                      COORDINATED FEDERAL APPROACH

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2009

                               __________

                            Serial No. 111-6

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
47-553                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                            C O N T E N T S

                             March 4, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chair, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     8

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Adrian Smith, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

                               Witnesses:

Dr. Henry Vaux, Jr., Professor Emeritus, University of 
  California, Berkeley; Associate Vice President Emeritus, 
  University of California System
    Oral Statement...............................................    13
    Written Statement............................................    14
    Biography....................................................    18

Dr. Peter H. Gleick, Co-Founder and President, The Pacific 
  Institute for Studies in Development, Environment, and 
  Security, Oakland, California
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    24

Mr. F. Mark Modzelewski, Executive Director, Water Innovations 
  Alliance
    Oral Statement...............................................    25
    Written Statement............................................    26
    Biography....................................................    28

Ms. Nancy K. Stoner, Co-Director, Water Program, Natural 
  Resources Defense Council (NRDC)
    Oral Statement...............................................    29
    Written Statement............................................    30
    Biography....................................................    36

Ms. Christine Furstoss, General Manager of Technology, GE Water 
  and Process Technologies, General Electric Company
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    39

Discussion.......................................................    40

             Appendix 1: Answers to Post-Hearing Questions

Dr. Henry Vaux, Jr., Professor Emeritus, University of 
  California, Berkeley; Associate Vice President Emeritus, 
  University of California System................................    56

Dr. Peter H. Gleick, Co-Founder and President, The Pacific 
  Institute for Studies in Development, Environment, and 
  Security, Oakland, California..................................    58

Mr. F. Mark Modzelewski, Executive Director, Water Innovations 
  Alliance.......................................................    61

Ms. Nancy K. Stoner, Co-Director, Water Program, Natural 
  Resources Defense Council (NRDC)...............................    65

Ms. Christine Furstoss, General Manager of Technology, GE Water 
  and Process Technologies, General Electric Company.............    70

             Appendix 2: Additional Material for the Record

H.R. 1145, To implement a National Water Research and Development 
  Initiative, and for other purposes ............................    74

Section-by-Section Analysis of H.R. 1145.........................    82

Statement of Martin A. Apple, President, Council of Scientific 
  Society Presidents (CSSP), dated March 3, 2009.................    83

Letter to Chair Bart Gordon from Gordon W. Day, IEEE-USA 
  President, dated March 25, 2009................................    87

Letter to Representative Ralph M. Hall from Gordon W. Day, IEEE-
  USA President, dated March 25, 2009............................    88

Letter to Chair Bart Gordon from Richard McIntyre, Water Program 
  Director, Food & Water Watch, dated March 17, 2009.............    89

Letter to Chair Bart Gordon and Ranking Member Ralph M. Hall from 
  Dan Keppen, Executive Director, Family Farm Alliance, dated 
  March 16, 2009.................................................    90

Letter to Chair Bart Gordon from Nancy Stoner, Co-Director, Water 
  Program, Natural Resources Defense Council (NRDC), dated March 
  16, 2009.......................................................    97

Letter to Chair Bart Gordon from Glenn English, Chief Executive 
  Officer, National Rural Electric Cooperative Association 
  (NRECA), dated March 24, 2009..................................    98

Statement from Glenn Reinhardt, Executive Director, Water 
  Environment Research Foundation (WERF), dated March 4, 2009....    99

Letter to Chair Bart Gordon from F. Mark Modzelewski, Executive 
  Director, Water Innovations Alliance (WIA), dated March 10, 
  2009...........................................................   102


 21ST CENTURY WATER PLANNING: THE IMPORTANCE OF A COORDINATED FEDERAL 
                                APPROACH

                              ----------                              


                        WEDNESDAY, MARCH 4, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:30 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chair of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      21st Century Water Planning:

                          The Importance of a

                      Coordinated Federal Approach

                        wednesday, march 4, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 4th, the Committee on Science and Technology 
will hold a hearing entitled ``21st Century Water Planning: The 
Importance of a Coordinated Federal Approach'' at 10:00 a.m. in Room 
2318 of the Rayburn House Office Building. The purpose of the hearing 
is to receive testimony on the National Water Research and Development 
Initiative Act and examine the opportunities for the Federal Government 
to better coordinate and support research and technological innovation.
    The witnesses will provide testimony on the research needed to 
address the challenges of managing water supplies to meet social, 
economic and environmental needs in the United States to accommodate 
population growth, climatic variation, and other factors. In addition, 
they will discuss their views on the need for federal research and 
development in the areas of water supply, water conservation, and water 
management. The witnesses will offer their perspectives on the National 
Water Research and Development Initiative Act and discuss its 
relationship to other federal policies and legislative proposals.

WITNESSES

        <bullet>  Dr. Henry Vaux, Jr., Professor Emeritus, University 
        of California, Berkeley. From 1994 to 2001, Dr. Vaux served as 
        Chair of the Committee of the Water Science and Technology 
        Board which prepared a report in 2004 on federal research and 
        development to address water resource issues. Dr. Vaux will 
        testify on his work chairing the Committee and how the National 
        Water Research and Development Initiative Act addresses the 
        recommendations of the 2004 NRC report.

        <bullet>  Dr. Peter Gleick, President of the Pacific Institute 
        for Studies in Development, Environment, and Security. The 
        Pacific Institute is a research institute dedicated to 
        addressing the connections between water and human health, the 
        hydrologic impacts of climate change, sustainable water use, 
        privatization and globalization, and international conflicts 
        over water resources. Dr. Gleick will discuss his research and 
        provide his perspective on the National Water Research and 
        Development Initiative Act and its relationship to other 
        federal programs and proposals.

        <bullet>  Mr. Mark Modzelewski, Co-founder Water Innovations 
        Alliance. Created in 2008, the Alliance serves as an industry 
        association working towards increasing water research funding, 
        strengthening federal research and development, and improving 
        education and outreach for water industry professionals. Mr. 
        Modzelewski will offer an industry perspective to the need for 
        increased federal research and development related to water.

        <bullet>  Ms. Nancy Stoner, Co-Director of the Water Program at 
        the Natural Resources Defense Council (NRDC). NRDC is a 
        national, nonprofit organization of scientists, lawyers and 
        environmental specialists with a long history of working to 
        protect the Nation's waters. Ms. Stoner will offer an 
        environmental perspective on the importance of additional 
        federal efforts to ensure clean water supplies, her 
        perspectives on the National Water Research and Development 
        Initiative, and the legislation's relationship to other federal 
        programs and proposals.

        <bullet>  Ms. Christine Furstoss, General Manager of 
        Technology, General Electric (GE) Water and Process 
        Technologies. At GE, Ms. Furstoss leads approximately 350 
        technologists working on critical chemical, membrane, device 
        and processing technologies aimed at providing water treatment, 
        water re-use and efficient process system solutions. Ms. 
        Furstoss will testify about her work in water technology 
        development and the role of private industry in water science 
        research.

BACKGROUND

    The Nation's water policy remains essentially unchanged despite a 
myriad of reports recommending broad changes to address dwindling water 
supplies. Multi-year droughts continue to plague regions and states 
around the country, including the Southeast, Texas, and California. For 
many municipalities, intense competition for water and diminished 
supplies will force local water agencies to make tough decisions on 
water allocations including implementation of restrictions to protect 
essential ecosystem services.
    Droughts, changing patterns of precipitation and snowmelt, and 
increased water loss due to evaporation as a result of warmer air 
temperatures are indicators that climate variability and climate change 
have impacts that are being felt across the United States.\1\ The 
Intergovernmental Panel on Climate Change's (IPCC) latest report 
projects that water supplies stored in glaciers and snow cover will 
decline in the course of the century, thus reducing water availability 
in regions supplied by melt water from major mountain ranges.\2\
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency. 2008. Water Impacts of 
Climate Change. Office of Water. EPA 800-R-08-001. www.epa.gov/water/
climatechange. Accessed February 26, 2009.
    \2\ Bates, B.C., Z.W. Kundzewicz, S. Wu and J.P. Palutikof, Eds., 
2008: Climate Change and Water. Technical Paper of the 
Intergovernmental Panel on Climate Change, IPCC Secretariat, Geneva.
---------------------------------------------------------------------------
    January 2009, the driest month in California history, has left 
California's reservoirs and rivers operating at near record lows. On 
February 20, the Bureau of Reclamation announced that a large 
percentage of agricultural contractors in the State are expected to 
receive no water deliveries this year due to California's extreme 
drought and municipal contractors should count on receiving a 50 
percent of their normal supply. The Bureau prepared two forecasts: a 
conservative forecast with a 90 percent chance of having runoff greater 
than forecasted and a median forecast with a 50 percent chance of 
having runoff greater than forecasted.

Figure 1: California Water Allocation by Forecast\3\
---------------------------------------------------------------------------

    \3\ Mid-Pacific Region Office, 2009. Reclamation Announces Initial 
2009 Central Valley Project Water Supply Allocation. U.S. Bureau of 
Reclamation. http://www.usbr.gov/newsroom/newsrelease/
detail.cfm?RecordID=26721. Accessed February 26, 2009.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Recommendations for the Obama Administration

    Last fall, the Pacific Institute's Dr. Peter Gleick provided water 
policy recommendations to the next Administration. Dr. Gleick's 
priorities include developing a comprehensive national water policy, 
spotlighting national security issues related to water, expanding the 
role of the U.S. in addressing global water problems, and integrating 
climate change into all federal water planning and activity.\4\
---------------------------------------------------------------------------
    \4\ Gleick, Peter, 2008: Water Threats and Opportunities: 
Recommendations for the Next President, Peter Gleick. Pacific 
Institute. 3 pp. http://www.pacinst.org/publications/
essays<INF>-</INF>and<INF>-</INF>opinion/
presidential<INF>-</INF>recommendations/background.pdf. Accessed 
February 26, 2009.
---------------------------------------------------------------------------
    The United State's fresh water resources are used ineffectively 
due, in part, to a lack of a national water policy. Dr. Gleick argues, 
``If inefficient use and water contamination continue unabated, they 
will impoverish this and future generations, destroy the limited 
remaining aquatic ecosystems, and threaten our future food supply.'' 
\5\
---------------------------------------------------------------------------
    \5\ Ibid, p. 1.
---------------------------------------------------------------------------
    In developing a 21st Century National Water Policy, the Pacific 
Institute recommends a reorganization of the diverse and uncoordinated 
federal water responsibilities and expanding the collection of water-
use and water-quality data. In addition, the Institute calls for the 
re-establishment of a new national, bipartisan Water Commission for the 
21st Century to evaluate and recommend changes to national water 
policy.

H.R. 1145: National Water Research and Development Initiative Act

    The Committee held two hearings in the 110th Congress--on May 14, 
2008 and July 23, 2008--on water supply research and development. At 
the hearings, witnesses' discussed the need for better coordination of 
federal efforts on water, increased funding for research on the effects 
of climate change on groundwater, and improved consideration of 
efficient water use in energy systems. They also recommended that 
additional money be spent on public education programs.\6\
---------------------------------------------------------------------------
    \6\ For more information on these hearings, visit the House Science 
Committee website at http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2187
---------------------------------------------------------------------------
    Despite an interagency research budget of approximately $700 
million, an increase in the number of water shortages and emerging 
conflicts over water supplies suggest that we are inadequately prepared 
to address the Nation's water management issues. The 2004 report by the 
National Research Council entitled Confronting the Nation's Water 
Problems: The Role of Federal Research,\7\ advocates for a clear 
national water strategy to coordinate the 20 plus federal agencies 
responsible for conducting and funding research in order to avoid 
duplication and to tackle the looming challenges of maintaining 
adequate water supplies.
---------------------------------------------------------------------------
    \7\ National Research Council. 2004. Confronting the Nation's Water 
Problems: The Role of Research. Water Science and Technology Board. 
Committee on Assessment of Water Resources Research. National Academies 
Press, Washington, D.C., p. 324.
---------------------------------------------------------------------------
    Chairman Gordon introduced the National Water Research and 
Development Initiative Act on September 23, 2008 following the 
Committee hearings (H.R. 6997) and in response to the recommendations 
in the Academy's 2004 report.
    Chairman Gordon reintroduced the legislation on February 24, 2009. 
H.R. 1145 coordinates federal research water efforts to ensure we have 
the best tools and information to maintain adequate supplies of water 
for Americans in the coming decades. The bill seeks to improve the 
Federal Government's efforts in water research, development, 
demonstration, education, and technology transfer activities to address 
changes in water use, supply, and demand in the United States.
    The bill codifies the Interagency Committee created in 2003, the 
Subcommittee on Water Availability and Quality (SWAQ) of the National 
Science and Technology Council's Committee on Environment and Natural 
Resources. SWAQ was created to identify science and technology needs to 
address the growing issues related to freshwater supplies, develop a 
coordinated a multi-year plan to improve research on water supply and 
water quality, and to enhance the collection and availability of data 
needed to ensure an adequate water supply for the Nation. H.R. 1145 
incorporates suggestions in the National Academies' 2004 report that 
are intended to strengthen the Committee. By strengthening the SWAQ and 
providing it explicit Congressional authorization, the recommendations 
of the 2007 SWAQ report\8\ will receive due consideration and form the 
start of a national strategy to ensure we have a sustainable water 
supply.
---------------------------------------------------------------------------
    \8\ National Science and Technology Council, Committee on 
Environment and Natural Resources, Subcommittee on Water Availability 
and Quality. 2007. A Strategy for Federal Science and Technology to 
Support Water Availability and Quality in the United States. 
Washington, D.C., p. 35.
---------------------------------------------------------------------------
    Information and recommendations from witnesses obtained through the 
two hearings in the 110th Congress and from other water experts were 
incorporated into the bill introduced in the 111th Congress. Specific 
recommendations that have been included in the current legislation 
include: an expanded list of research outcomes, specific mechanisms to 
increase public input and involvement in shaping and evaluating the 
Initiative, and provisions to facilitate communication and outreach 
opportunities with non-governmental organizations.

Additional Water Legislative Proposals

    As Congress seeks to address future water supply challenges, it is 
important to consider how the National Water Research and Development 
Initiative Act relates to other federal policies and legislative 
proposals. Two bills that also address federal water policy are: H.R. 
135, the 21st Century Water Commission Act and S. 22, the Omnibus 
Public Land Management Act of 2009.

H.R. 135: 21st Century Water Commission Act of 2009

    H.R. 135 was introduced by Rep. John Linder (R-GA). This 
legislation would establish a Commission to provide for water 
assessments to project future water supply and demand, review current 
water management programs at all levels of government, and develop 
recommendations for a comprehensive water strategy. Modeled after the 
1968 National Water Commission Act, H.R. 135 creates a commission 
consisting of non-federal experts appointed by the President, the 
Speaker of the House, and the Majority Leader of the Senate.
    H.R. 135 requires the Commission to investigate a number of 
solutions to avert future water shortages including: aqueducts and 
pipelines, aquifer recharge, repairing aging infrastructure, building 
dams and reservoirs, desalination, the capture and storage of 
rainwater, recycled wastewater, conservation, and wetlands creation.
    H.R. 135 complements the National Water Research and Development 
Initiative Act. The Commission's recommendations would be carried out 
by the 20-plus agencies overseeing federal water policy. In order to 
effectively implement these recommendations, the Federal Government 
must have a coordinated structure in place.

S. 22: Omnibus Public Land Management Act of 2009

    S. 22, the Omnibus Public Land Management Act of 2009, authorizes 
many programs and activities in the Department of the Interior and the 
Department of Agriculture related to public lands.
    Title IX, Subtitle F of this legislation directs the Secretary of 
Interior to conduct a variety of activities related to water management 
on federal lands. The Secretary is required to establish a climate 
change adaptation program to address water management in watersheds 
containing federally authorized reclamation projects. The bill also 
directs the Secretary of Energy to conduct an assessment of potential 
climate change impacts on hydropower projects under the authority of 
the Federal Power Marketing Administration. In addition, S. 22 directs 
the Secretary of Interior to establish an interagency committee on 
water and climate change to review the impacts of climate change on 
freshwater resources in the U.S., to develop strategies to improve 
observations and expand data collection needed to assess climate 
impacts. The bill also provides an increased authorization for the U.S. 
Geological Service (USGS) for the National Streamflow Information 
Program and for expanded monitoring of groundwater resources.
    H.R. 1145 ensures coordination of the research, development and 
demonstration activities of all federal agencies with expertise in 
water that will be required to develop the required assessments and the 
adaptive management strategies for water resources. Participation of 
the key federal agencies with expertise and authorities over water 
resources in the interagency committees authorized under these two 
bills will facilitate a transfer of coordinated research into 
coordinated water management policy.
    Chair Gordon. This hearing will come to order, and good 
morning, and welcome to today's hearing on the 21st Century 
Water Planning. I thank our witnesses for accommodating our 
change of schedule. I thank my partner, Mr. Hall, for, on short 
notice, allowing us to change the schedule. The reason being 
Prime Minister Gordon Browning will be speaking to a joint 
session later today. We are not allowed, and we should not be 
meeting during that time. We do not want to hold witnesses up 
by having to wait for that uncertain time to be over with, and 
it does mean that this is a little bit of sync, and so our 
Members may be coming and going. I thank Ms. Johnson and Mr. 
Rohrabacher for being here this morning. But the most important 
thing is we are going to get your testimony on record, and that 
will help us move forward with our legislation.
    Now, the most recent outlook issued by NOAA's National 
Center for the Environmental Prediction indicates that drought 
conditions will continue to plague a number of states and 
regions throughout the United States. California, the Central 
Plains, Texas, and Oklahoma and the southeastern states of 
Georgia, South Carolina, and Florida are all likely to 
experience drought conditions in the coming months. We need to 
take decisive action to ensure that the United States can meet 
the water challenges of 2009, and beyond.
    Last Congress this committee brought attention to the water 
supply challenges by holding hearings and introducing 
legislation to address technological and strategic deficiencies 
at the federal level.
    Economic recovery legislation recently signed by President 
Obama included significant and long overdue funds for states 
and localities to improve water infrastructure. Upgrading and 
repair of the water delivery and treatment systems will 
conserve water, improve public health, and create jobs.
    This is a good start, but we must do more. We need new 
tools to evaluate the status of our water infrastructure and 
our water supplies. We need effective and efficient 
technologies and management practices to improve water quality, 
and we must learn to use water more efficiently.
    We need a national water policy, and research and 
development must be an integral part of that policy. Research 
and development are key ingredients to sound water resource 
management.
    At the end of the last Congress I introduced legislation to 
establish a National Water Research and Development Initiative, 
and I reintroduced this legislation last week. H.R. 1145 
incorporates recommendations from a 2004 report by the National 
Academies of Science and from witnesses who appeared before our 
committee in the last Congress. This legislation will ensure 
that the 20 federal agencies, that is 20 federal agencies, that 
are conducting and funding research and development activities 
on water will coordinate their efforts to achieve the goal of 
managing our water resources for the benefit of our nation.
    I think one way that we get more money into research is by 
using the money that we have more efficiently and through that 
coordination.
    We have an excellent panel of witnesses with us this 
morning who will share their views on what we need to do as a 
nation to manage our water resources effectively and 
efficiently, and I want to thank you all for being with us. I 
look forward to your suggestions for addressing the challenges 
of water management through federal legislation and leadership.
    [The prepared statement of Chair Gordon follows:]
                Prepared Statement of Chair Bart Gordon
    Good morning and welcome to today's hearing on 21st Century Water 
Planning.
    The most recent outlook issued by NOAA's National Center for 
Environmental Prediction indicates that drought conditions will 
continue to plague a number of states and regions throughout the United 
States. California, the central plains of Texas and Oklahoma, and the 
southeastern states of Georgia, South Carolina and Florida are all 
likely to experience drought conditions in the coming months.
    Constraints on water supplies are taking a toll on society, our 
economy, and the environment. Water is too valuable a resource for us 
to manage in a crisis-by-crisis fashion.
    Recent reports of California's water shortages carry dire 
predictions. This year's drought is projected to be one of the most 
severe in California's recorded history. On February 20th, the Bureau 
of Reclamation announced further cut backs in water supplied to 
municipalities and agriculture for the state.
    Differing forecast scenarios predict a substantial impact to 
California's agricultural economy and indicating that some areas will 
receive no water this year. As a result, agriculture losses could reach 
$3 billion in 2009 and water delivery reductions could result in a loss 
of 80,000 jobs.
    We need to take decisive action to ensure that the United States 
can meet the water challenges of 2009 and beyond.
    Last Congress, this committee brought attention to water supply 
challenges by holding hearings and introducing legislation to address 
technological and strategic deficiencies at the federal level.
    Economic recovery legislation, recently signed by President Obama, 
included significant and long-overdue funds for states and localities 
to improve water infrastructure. Upgrading and repair of water delivery 
and treatment systems will conserve water, improve public health, and 
create jobs.
    This is a good start, but we must do more. We need new tools to 
evaluate the status of our water infrastructure and our water supplies. 
We need efficient and effective technologies and management practices 
to improve water quality. And we must learn to use water efficiently. 
We need a national water policy, and research and development must be 
an integral part of that policy. Research and development are key 
ingredients to sound water resource management.
    At the end of the last Congress I introduced legislation to 
establish a National Water Research and Development Initiative. I 
reintroduced this legislation last week.
    H.R. 1145 incorporates recommendations from a 2004 report by the 
National Academy of Sciences and from witnesses who appeared before our 
committee in the last Congress.
    This legislation will ensure that the 20 federal agencies that are 
conducting and funding research and development activities on water 
will coordinate their efforts to achieve the goal of managing our water 
resources for the benefit of our nation.
    We have an excellent panel of witnesses with us this morning who 
will share their views on what we need to do as a nation to manage our 
water resources effectively and efficiently. I thank you all for being 
with us here today, and I look forward to your suggestions for 
addressing the challenges of water management through federal 
legislation and leadership.

    Chair Gordon. I now recognize our distinguished Ranking 
Member and my good friend, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chair, and you are correct. As a 
matter of fact, this is the fourth hearing we are holding on 
water issues in the last year and a half, and I think it is the 
second at the Full Committee level.
    There is not one district I am aware of that has not had to 
deal with a water problem in the last few years, whether it is 
because there is too much of it or not enough, and I have had 
both. You know, I introduced a bill several years ago, and you 
helped pass it through to address the drought over in east 
Texas and then south Tennessee. And as you could guess, at 
Paris, Texas, an old man said after I had introduced it and 
told him about it, he said, ``Congressman, can you make it 
rain?'' I said, ``Yes, sir,'' and about two and a half years 
later we had a five-inch rain. I called him, got him out of bed 
about three o'clock in the morning, and I said, ``Mr. Roscoe, 
you know, I keep my word.'' You have to remind them, you know.
    But I am pleased that the Committee's taking such an 
interest in such a very important topic, and I really commend 
you for continuing the work started some time ago. Three years 
ago we passed and the President signed a National Integrated 
Drought Information System Act of 2006; legislation that we 
introduced to help our constituents and many others deal with 
the devastating effects of prolonged drought.
    In the 110th Congress and again at the beginning of this 
Congress this committee moved two water bills: my Produced 
Water Utilization Act and Mr. Matheson's Water Use Efficiency 
and Conservation Research Act, and the Full House agreed to 
send these bills to the Senate on a voice vote last July. 
Energy and Environment Subcommittee has received testimony on 
draft legislative that is now the Chair's National Water 
Research and Development Initiative Act, the bill we are here 
to discuss today.
    The amount of legislation, including this very important 
legislation, that our committee has moved on water issues in 
the past few years demonstrates our awareness of the need to 
address the critical issues our Nation faces with regard to 
water quality, supply, and availability. I have heard it said 
that when one bottle of water like this costs as much as a good 
bottle of beer, well, we got to get pretty doggone serious 
about it.
    The House is not alone in recognizing the problems we face 
with water. Senate bill S. 22, the Omnibus Lands Bill, that 
includes the Secure Water Act, another piece of legislation 
that attempts to address shortcomings in our National Water 
Research Strategy.
    Considering the Chair's bill we are discussing here today, 
I hope we have an opportunity to collaborate with the Senate to 
create a truly comprehensive and rational approach to water 
research. The testimony we will hear today from our very 
qualified panelists will help us better understand what 
opportunities exist for the coordinated federal research. It 
may also be wise to hear from the agencies that are most 
involved in federal water research. With the new Administration 
in place I think we would benefit from learning how they intend 
to approach water research and what kind of legislation would 
help, best help them implement a coordinated federal strategy. 
Comments from the Office of Science and Technology policy, as 
well as the other agencies, might help in our authorization 
process.
    And I thank you, Mr. Chair, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. This is the fourth hearing we are holding 
on water issues in the last year and a half, the second at the Full 
Committee level. There is not one district I am aware of that has not 
had to deal with water problems in the last few years, whether it's 
because there is too much of it or not enough of it. I am pleased that 
the Committee is taking such an interest in such a vital and important 
topic.
    Three years ago, we passed, and the President signed, the National 
Integrated Drought Information System Act of 2006, legislation I 
introduced to help my constituents and many others deal with the 
devastating effects of prolonged drought. In the 110th Congress and 
again at the beginning of this Congress, this committee moved two water 
bills, my Produced Water Utilization Act and Mr. Matheson's Water Use 
Efficiency and Conservation Research Act and the Full House agreed to 
send these bills to the Senate on a voice vote. Last July, the Energy 
and Environment Subcommittee received testimony on draft legislation 
that is now the Chairman's National Water Research and Development 
Initiative Act, the bill we are here to discuss today. The amount of 
legislation our committee has moved on water issues in the last few 
years demonstrates our awareness of the need to address the critical 
issues our nation faces with regards to water quality, supply and 
availability.
    The House is not alone in recognizing the problems we face with 
water. The Senate has sent S. 22, an omnibus lands bill that includes 
the SECURE Water Act, a piece of legislation that attempts to address 
shortcomings in our national water research strategy. Considering the 
Chairman's bill we are discussing here today, I hope we have an 
opportunity to collaborate with the Senate to create a truly 
comprehensive and rational approach to water research.
    The testimony we will hear today from our very qualified panelists 
will help us better understand what opportunities exist for coordinated 
federal research. It may also be wise to hear from the agencies that 
are most involved in federal water research. With a new administration 
in place, I think we would benefit from learning how they intend to 
approach water research, and what kind of legislation would best help 
them implement a coordinated federal strategy. Comments from the Office 
of Science and Technology Policy as well as other agencies might help 
in our authorization process.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Chair Gordon. Thank you, Mr. Hall, and you are absolutely 
right. We do need to get information from those sources so we 
can have the best bill possible.
    Members may submit additional statements, and they will be 
included in the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman, for holding this hearing today, as this is 
an important opportunity to plan for the future and conserve our 
recourses appropriately. It's a matter of common sense that we must 
better coordinate research and technological innovation to enhance 
water supplies and water quality on a national level.
    We know from the droughts over the past years and the rising 
concern surrounding global warming that water resource problems are 
growing both in number and in intensity. Over twenty federal agencies 
carry-out research and development on some aspect of water supply, and 
as recent reports have indicated, we must do more to better-coordinate 
these efforts and together work towards solutions.
    In the past, the Committee has held hearings on this issue during 
which we have heard from private industry about steps which the 
commercial sector is taking to conserve water resources. Fourtune 
Brands, an Illinois-based company, has taken a leading role to promote 
smart technology and conservation practices, and with companies like 
Anheuser-Busch have formed a coalition to come together to share 
industry-wide best practices to reduce the use of water and conserve a 
valued natural resource.
    I look forward to our testimony today, and I believe the proposed 
legislation is an important step in planning for our nation's future. I 
hope that during this Congress we are able to pass H.R. 1145, the 
National Water Research and Development Initiative Act, and enact some 
of the reforms that the Intergovernmental Panel on Climate Change 
report recommended. Thank you Mr. Chairman for your leadership of this 
subcommittee; and I look forward to hearing from our witnesses.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman and Ranking Member.
    As you know, the State of Texas has suffered a terrible drought in 
recent years. It has had large impacts on agriculture and on ranching.
    Our nation's water supply is an indispensable commodity. Access to 
water has never been more important for our citizens, plants and 
animals.
    It is also important for so many other things, such as industry, 
research, even leisure and sporting activities.
    Scientists who serve on the Intergovernmental Panel on Climate 
Change's (IPCC) have reported that water supplies stored in glaciers 
and snow cover will decline in the course of the century.
    The result will be a reduction in water availability in regions 
supplied by melting water from major mountain ranges.
    Melting polar ice caps could also cause the rise in sea levels; the 
impact on coastal states like Texas and Florida will be tremendous.
    Never before has it been more important to establish a national 
plan on water research and conservation.
    The Science Committee has held hearings in 2008--in May and in 
July--on water supply and development.
    Witnesses recommended better coordination of federal efforts on 
water.
    They also recommended increased funding for research on the effects 
of climate change on groundwater, and improved consideration of 
efficient water use in energy systems.
    In addition, they also recommended that additional money be spent 
on public education programs.
    Mr. Chairman, I will be interested to hear stakeholder feedback on 
H.R. 1145, the National Water Research and Development Initiative Act.
    The bill would establish an Interagency Committee to coordinate 
water research, development, data collection, education and tech 
transfer. The Office of Science and Technology Policy will chair this 
committee.
    Today's panel of witnesses brings a variety of perspectives.
    The breadth of experience will provide Committee Members with the 
kind of feedback needed to devise and refine policy.
    For years, I have been involved in this issue as a Member of the 
Transportation Committee's Subcommittee on Water Resources and 
Environment.
    Because I chair that subcommittee, I am in a position to help guide 
and facilitate this bill through the legislative process.
    Chairman Gordon, I thank you for your interest in this issue and 
look forward to working with you on it, going forward.
    Thank you, and I yield back the remainder of my time.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this important hearing on 21st 
century water planning. Population growth, variation in our climate and 
degradation of water quality all complicate current water supply 
management and coordination in our nation.
    As we see increasing competition for a limited water supply, the 
importance of a coordinated federal approach can provide an effective 
framework to address these water resource challenges. Through efficient 
communication, duplicative and conflicting actions by different 
agencies can be reduced, as well as ensuring the collection of 
comprehensive data to make water management decisions.
    Additionally, at the federal level, interagency action and 
cooperation are essential for looking at comprehensive water concerns 
rather than agencies just focusing on their core missions. States must 
think of the larger watershed rather than just the part of the 
watershed that touches each individual state, because the management of 
a watershed in one state has an effect on the larger watershed.
    I am encouraged by the proposed legislation before us today. This 
is an important step at finally encouraging cooperation among federal 
agencies with respect to water-related research and avoiding 
duplication of efforts to ensure optimal use of resources and 
expertise.
    To the witnesses before us today, I want to thank you for taking 
the time out of your busy schedules to appear before us. I look forward 
to hearing your testimonies and of ways in which we might improve our 
efforts on these matters.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Today we will discuss the research need to address the challenges 
of managing water supplies to meet social, economic, and environmental 
needs in the United States to accommodate population growth, climatic 
change, and other factors.
    Arizona is no stranger to the pressures of rising population and 
prolonged drought.
    We are one of the fastest growing states, and many portions of our 
state are still well into a second decade of drought.
    I believe that it is absolutely critical that we address the 
growing shortage of our nation's water supply and work to establish 
progressive and cost-effective water resource management policies.
    I look forward to hearing more from our witnesses on Chairman 
Gordon's proposed legislation, the National Water Research and 
Development Initiative Act, H.R. 1145.
    I yield back.

    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    As our country tackles issues related to water consumption and 
conservation practices, research and development will continue to play 
an important role in decisions made at all levels of government. 
Increasing demands on water supplies have resulted in conflicts 
throughout the Nation. Droughts, coupled with new laws and regulations 
to protect endangered species, as well as reduce or eliminate 
pollution, continue to add even more stress to our developed water and 
power supplies.
    Representing a predominantly rural, agricultural-based district in 
which surface water and groundwater issues are at the forefront of many 
decisions and debates, my principal goals are to create policies which 
will strengthen rural America and provide long-term stability for our 
nation's producers. Ensuring the sustainability of our country's water 
supply through increased coordination, research, and development is of 
utmost importance to the economic and social well-being of our nation 
and its citizens.
    Enhanced coordination at not only the federal level, but also State 
and local levels, is necessary to ensure a sustainable future for one 
of our most essential natural resources.
    Chairman Gordon's legislation, H.R. 1145, the National Water 
Research and Development Initiative Act of 2009, takes a positive step 
in seeking to improve the Federal Government's efforts in water 
research, development, and technology transfer. By adequately studying 
and addressing water use, as well as supply and demand issues, we can 
ensure our country's access to this important resource.
    I appreciate the Committee holding this hearing to explore the 
opportunities for the Federal Government to better coordinate and 
support research and technological innovation. I look forward to 
discussing and exploring this important issue further through the 
Science and Technology Committee.

    Chair Gordon. Our first panel and our only panel here 
today, I will now introduce our witnesses. First, Dr. Henry 
Vaux is Professor Emeritus at the University of California, 
Berkley, Dr. Peter Gleick is President of the Pacific Institute 
for Studies in Development, Environment, and Security, and Dr. 
Mark Modzelewski is the Co-founder of the Water Innovations 
Alliance. And now for the ladies' side of the table. Ms. Nancy 
Stoner is the Coordinator of the Water Program at the Natural 
Resources Defense Council, and Ms. Christine Furstoss is the 
General Manager of Technology at the General Electric Water and 
Process Technologies.
    As I pointed out earlier, this was not a planned effort to 
segregate you, and we are glad you are here. As you know, we 
try to limit our witnesses' oral statement to about five 
minutes, and all your record--written statement will be a part 
of the testimony. And when you complete your testimony, we will 
begin the questions. So each Member will have five minutes to 
question the panel.
    And we will start with Dr. Vaux.

     STATEMENT OF DR. HENRY VAUX, JR., PROFESSOR EMERITUS, 
 UNIVERSITY OF CALIFORNIA, BERKELEY; ASSOCIATE VICE PRESIDENT 
           EMERITUS, UNIVERSITY OF CALIFORNIA SYSTEM

    Dr. Vaux. Thank you for introducing me, Mr. Chair, and 
thank you for the opportunity to appear before your committee 
this morning.
    At the outset I should state that I was the chair of the 
two National Academy of Science committees whose reports are 
referred to in Section 2 of the bill, and although I do not 
formally speak for the National Academy of Sciences or the 
National Research Council, my testimony is based upon the 
analysis and recommendations contained in those reports.
    We face many difficult challenges in this first decade or 
at the end of this first decade of the 21st century, but the 
challenge of husbanding and managing our water resources is a 
longer-term challenge than many of the others and will remain 
with us throughout the remainder of the century.
    The ease or difficulty with which we adapt to this growing 
and intensifying water scarcity will depend critically upon our 
willingness to invest in additional science. The Federal Water 
Research Portfolio today suffers from a variety of ills. Too 
heavy an emphasis on short-term research and operationally-
oriented research, it is a portfolio that is out of balance 
with current water realities, and the research across the board 
suffers from the absence of any agreed-upon agenda and set of 
priorities for water research.
    The major explanation for the state of our water research 
is as you said, Mr. Chair, not so much a lack of money as a 
lack of coordination and a lack of communication. The proposed 
legislation would, if enacted in its present form, create a 
strong and appropriate basis for addressing the problems that 
currently characterize our national water research efforts.
    I have detailed the significant strengths of that 
legislation in my written testimony. Let me turn in the time 
that remains to four suggestions for ways in which the Act 
might be further strengthened.
    First of all, a funding suggestion. The provision or 
authorization of additional funds both for research and to 
defray the costs of implementing the Act, and so many agencies 
I think it is more likely that we would get a productive 
response to the Act if there were money involved and if that 
money, the availability of it, was made contingent upon 
progress in meeting the goals and objectives of the Act. So 
additional funding is one suggestion.
    Additional research outcome, Subsection 2C2 is reasonably 
comprehensive, but a ninth category is needed, focusing on the 
social sciences, research in the social sciences needed to 
facilitate the development of innovative water management 
institutions. And a tenth category is also needed. That 
category focused on understanding the hydrologic and water use 
implications of climate change.
    Let me also urge that you add a subsection emphasizing 
modern research themes in an effort to encourage the agencies 
to depart from the reductionist approach to research that has 
characterized the last century. Those modern research themes 
require an inner-disciplinary approach to research, require a 
research framework, which is cast in a broad-systems context, 
requires the specific acknowledgement and characterization of 
the uncertainty associated with the research results, and also 
acknowledges the importance of being adaptive.
    A final suggestion for improvement in the legislation is 
based upon the need to involve academic researchers in the 
efforts called for in the bill, because academic researchers 
are well equipped to undertake the longer-term research. And 
the most straightforward way in which this could be done would 
be by including directly a role for the Water Resources 
Research Institutes, which reach out to all institutions of 
higher education, colleges and universities in all of the 
states and trust territories. The Institutes were most recently 
authorized, reauthorized in Public Law 109-471.
    I urge also that you consider making one or more institute 
directors a member of the interagency committee, either ex 
officio or as regular members. This addition would be 
especially important since it takes advantage of established 
relationships between the Federal Government and the academic 
water resources, research community.
    Mr. Chair, thank you again for the opportunity to appear 
before your committee.
    [The prepared statement of Dr. Vaux follows:]
                 Prepared Statement of Henry Vaux, Jr.
    Mr. Chairman, my name is Henry Vaux, Jr. and I am Professor 
Emeritus of Resource Economics at the University of California, 
Berkeley. I am also Associate Vice President, Emeritus of the 
University of California System. I wish to thank you for the 
opportunity to appear before your committee this morning at this 
hearing on the proposed National Water Research and Development 
Initiative Act.
    At the outset, I should state that I was the Chair of the National 
Academy Committees which created two of the reports referred to in 
Section 2 of the proposed Act. These reports were entitled: Envisioning 
the Agenda for Water Resources Research in the 21st Century and 
Confronting the Nation's Water Problems: The Role of Research. Although 
I do not formally speak for the National Research Council, most of my 
testimony is based on those analyses and on the recommendations 
contained in the second of these reports (hereinafter identified as 
``NRC Committee Report'').

The Need for New Water Science

    Although our nation faces many difficult challenges in this first 
decade of the 21st century, the challenge of husbanding and managing 
our water resources is a long-term challenge that will be with us over 
the remainder of this century. Water scarcity will continue to 
intensify. Our water supplies are basically finite although their 
occurrence varies over time. Long-term observations of precipitation 
and run-off suggest that hardly any year is an average year. The 
extremes of flood and drought recur periodically and there is evidence 
to suggest that these extremes will become more frequent. There is also 
evidence to suggest that for many regions of the United States, the 
advent of climate change may entail some general decline and changing 
in the timing of precipitation and run-off. Continuing deterioration of 
water quality will also mean less water available for many important 
and valuable uses. Reversing the trends of water quality declines and 
enhancing the aggregate level of water quality in the U.S. will be 
necessary to avoid further erosion in the quantities of available 
supply. The general water supply picture that emerges for the future 
suggests water supplies will be less available then they were in the 
past. There is less likelihood that they would remain stable and 
virtually no possibility that they could be made to grow.
    Arrayed against such declining (or static) future levels of water 
supply are a number of factors which suggest that the demand for water 
may grow. These include:

        <bullet>  Population Growth--Some estimates suggest that U.S. 
        population may grow by as much as 50 percent between now and 
        2050. Taken alone, a population increase of such magnitude will 
        cause significant increases in the demand for water.

        <bullet>  Expansion of Irrigated Agriculture--The need to feed 
        an increased domestic population as well as a global population 
        that is projected to be three billion larger by the end of the 
        century will be translated into growing demands for 
        agricultural water everywhere. Though rain fed agriculture will 
        play a very important role, there will be pressure to expand 
        irrigated agriculture because it is more productive. In the 
        U.S., for example, about one-third of the farm land is 
        irrigated and that one-third accounts for 45 percent of the 
        total production.

        <bullet>  Protecting the Environment--Past water development 
        practices have entailed the transfer of water from 
        environmental uses to municipal, industrial and agricultural 
        uses. It is unlikely that this practice can continue for long 
        without incur major and highly costly damages in the form of 
        lost environmental services and reduced environmental 
        amenities. There is some evidence to suggest that we may have 
        to allocate more water to environmental purposes--not less--if 
        we are to protect environmental services and amenities.

    The trends of growing demands and static or declining supplies of 
water mean that water scarcity will intensify over the coming decades. 
As a consequence, competition of limited supplies of water will 
intensify and conflicts over the allocation of available supplies will 
also increase. Professor William Jury and I have recently completed 
work concluding that the ease or difficulty with which we adapt to this 
intensifying water scarcity will depend critically upon our willingness 
to invest in additional science. Properly focused, such an investment 
will considerably help identify ways to ameliorate water scarcity and 
reduce conflict over water allocation and use.

The State of Federally Funded Water Research

    Today, the annual federal investment in water resources research is 
approximately $700 million in constant 2000 dollars. This figure is the 
same in real terms as the annual federal investment in water research 
in FY 1975. Thus, we face an intensifying water scarcity in 
circumstances in which there has been little change in the magnitude of 
federal water research funding over the past 35 years. In other words, 
support for water science has not kept pace with population growth, 
growth in gross domestic product, or growth in federal budget outlays 
for at least the last four decades. This has occurred despite the fact 
that the productivity and value of water has increased even while the 
challenges of managing limited waters effectively and efficiently have 
grown.
    The topical balance of the federal water research portfolio has 
changed significantly since the period 1965-1975 in ways that make it 
inconsistent with today's water research priorities. Specifically, 
research on water demand, water law and other institutional topics and 
research on water supply augmentation and conservation currently 
receive a smaller proportion of total water research funding then they 
did 30 years ago. The NRC Committee concluded that these topics 
currently appear to be underfunded. In addition, the current water 
portfolio is heavily weighted toward short-term research. Longer-term 
research, necessary to help address the water problems of the future 
and to help support the applied research that will need to be done a 
decade hence, is significantly under-emphasized in agency water 
research budgets. For all of these reasons the NRC Committee concluded 
that we are obtaining less for the annual $700 million in federal water 
research than we should.
    The major explanation for this state of water research is not 
necessarily that the funding is inadequate. The explanation lies more 
importantly with the fact that federal research is largely 
uncoordinated. This means that the President and Congress lack 
information about:

        <bullet>  The size and shape of the entire federal water 
        research portfolio;

        <bullet>  Measures of magnitude and effectiveness of individual 
        elements in the portfolio;

        <bullet>  Any sense of national priorities of water research;

        <bullet>  Guidance about what might be an appropriate balance 
        among research elements.

    The proposed legislation from the National Water Research and 
Development Initiative would, if enacted in its present form, create a 
strong and appropriate basis for addressing the problems that currently 
characterize the Nation's water research efforts. It accurately 
captures a number of important recommendations found in the report of 
the NRC Committee. Thus, for example, the legislation would:

        <bullet>  Require the establishment of a unified national water 
        research agenda;

        <bullet>  Require coordination of water federal research, 
        development, data collection, and information dissemination 
        activities;

        <bullet>  Encourage cooperation among federal agencies engaged 
        in water research and technology development;

        <bullet>  Require technology transfer, communication and 
        information exchange with State and local governments, industry 
        and other stakeholders;

        <bullet>  Establishes an appropriate institutional arrangement, 
        including a requirement for budget coordination in the 
        Executive branch, for accomplishing these four tasks.

    A further strength of the proposed legislation, as written, lies 
with the emphasis on the collection, management and exchange of data on 
water resources. The last two decades have been characterized 
significant disinvestment in the acquisition of water and water related 
data. We have fewer stream gauges now than we did 20 years ago; our 
monitoring and measuring of water quality is less adequate now than it 
was 20 years ago even though the threats to water quality have grown; 
and we are unable to measure water use adequately over time. There has 
been a notable failure to take full advantage of modern remote sensing 
technology to acquire water resources data. In addition, there has been 
little coordination or standardization of existing data gathering 
efforts with the result that we are getting less from those efforts 
than we could be getting. Without more coordination and investment in 
gathering, managing, and interpreting water resource data, both 
management efforts and needed research will be less effective than they 
might be.

Recommendations for Improvement

    While the legislation as written has significant strengths, there 
are a number of ways in which it might be further strengthened:

        <bullet>  Additional Funding: First, there are a large number 
        of federal agencies that undertake water resources research. 
        Those agencies are more likely to behave productively in 
        pursuing the objectives of the legislation if additional 
        research funding were to be authorized and the availability of 
        that funding made contingent upon the various requirements 
        contained in the Act.

           The concern here arises because the Interagency Committee 
        authorized by the Act is not dissimilar from the Water 
        Resources Council authorized by the Water Resources Planning 
        Act of 1965. As the record shows, the Water Resources Council 
        was largely ineffective as the member agencies focused on 
        protecting their own turf and on little else.

           The NRC Committee suggested that existing levels of federal 
        investment in research might be adequate if the research 
        portfolio were altered to place more emphasis on topics such as 
        conservation, water supply augmentation and the development of 
        institutions for managing water resources. Alternatively, the 
        Committee suggested that additional funding on the order of $70 
        million might be made available for the purposes of rebalancing 
        the research portfolio. Those funds could also defray the 
        operational costs of the Interagency Committee and provide 
        incentives for productive interaction and coordination among 
        the agencies that conduct water resources research.

        <bullet>  Additional Research Outcomes: The list of Water 
        Research Outcomes in Subsection 2(c)(2) is reasonably 
        comprehensive. However, a ninth category needs to be added that 
        emphasizes the need for research on the development of water 
        management institutions. This is critically important research 
        area that has the potential to develop institutions which will 
        facilitate the management of scarce water resources more 
        efficiently and effectively in the future. This area has been 
        identified as underfunded. Indeed, in recent years the level of 
        federal funding for the social sciences needed to aid in the 
        development of improved water institutions has not been 
        significantly different from zero. The legislation would be 
        considerably strengthened by acknowledging the importance of 
        social science and institutional research. A tenth category 
        focused on understanding the hydrologic and water use 
        implications of climate change should also be added.

        <bullet>  Emphasize Modern Research Themes: Just as it is 
        important that all significant outcomes are included, it will 
        also be important to acknowledge in the body of the bill, the 
        importance of new modes of research. The report of the NRC 
        Committee on the role of research emphasized that future water 
        research should be carried out of necessity in modes different 
        from the traditional reductionist mode which typifies most 
        research over the last century. The Committee identified four 
        modern research themes: 1) an interdisciplinary approach; 2) a 
        broad systems perspective in the conduct of the research; 3) 
        acknowledging and characterizing uncertainty; and 4) the 
        importance of being adaptive. These should be acknowledged in 
        the bill.

        <bullet>  Interdisciplinary: The need for interdisciplinary 
        research has been widely recognized in the scientific 
        literature. Indeed, it appears unlikely that an adequate 
        understanding of the environmental importance of water can be 
        developed in the absence of involvement of scientists from a 
        number of disciplines. Thus, for example, research on aquatic 
        ecosystems must be based on ecological and biological 
        principles as well as the science of hydrology and an 
        understanding of how human use transforms the quantity and 
        quality of water.

        <bullet>  Broad Systems Context: A systems approach requires 
        not only that the variables which contribute to a problem be 
        identified and understood and that the linkages between these 
        variables must be understood as well. Indeed, understanding the 
        linkages between causal variables are now thought to be just as 
        important as understanding the variables themselves.

        <bullet>  Uncertainty: Scientific information and the results 
        of scientific investigation can rarely be expressed with 
        complete certainty. Virtually every data point and virtually 
        every finding is characterized by some degree of uncertainty. 
        In the future, it will be incumbent upon researchers to 
        acknowledge the existence of uncertainty and, where possible, 
        characterize the extent of it quantitatively.

        <bullet>  Adaptation: Adaptation can be conceived as a 
        combination of flexibility in solving problems and a 
        willingness to shift norms and standards in response to novel 
        circumstances and situations. Adaptation will be critical for 
        both water researchers and managers in the coming decades as we 
        confront water problems for which there has been no historical 
        experience.

    The proposed legislation could be strengthened by acknowledging the 
importance of these four themes in the framing and conduct of research. 
Their use cannot be mandated but agencies will need every encouragement 
to abandon traditional approaches to research and emphasize more modern 
approaches that are likely to be more acceptable.

Involve the Academic Community

    A final suggestion for improvement in the legislation is based upon 
the need to involve academic researchers in the efforts called for in 
the bill. The academic community has played a large role in water 
research and will continue to do so in the future. Moreover, there is 
need to expand the proportion of long-term and investigator-initiated 
research in the national portfolio. The academic community is better 
situated to perform longer-term research since it is not tied to the 
operational missions of the agencies which tend to result in research 
agendas focused on more immediate short-term problems. There are 
several ways in which the academic community might be involved. Perhaps 
the most straightforward way would be by including the broad array of 
water resource research activities at the Nation's land grant 
Universities directly by identifying a role for the Water Resources 
Research Institutes, most recently reauthorized in the Water Resources 
Research Act Amendments of 2006 (P.L. 109-471). One or more Water 
Institute Director representatives should be authorized to serve on the 
Interagency Committee created in Section 2(b) either ex officio or as 
regular members. This addition would be especially important since it 
takes advantage of established relationships between the Federal 
Government and the academic water research community. In this way all 
of the major actors in the water research community would be directly 
involved in the activities of the Water Research and Development 
Initiative Activities that would be authorized by this legislation.
    In summary, then, I believe the proposed legislation to be a 
significant step forward. It would address the need for new and 
productive water research. It would provide a mechanism for 
establishing priorities and ensuring the results and data are fully 
shared and disseminated. The legislation could be strengthened by: 1) 
authorizing new funding to support the coordination and agenda setting 
activities as well as new research; 2) including the social sciences 
and the development of institutions as well as climate change in the 
research outcomes; 3) specifically acknowledging four modern water 
research themes in the legislation; and 4) including academic 
researchers and the academic community in the research and development 
initiative.
    Mr. Chairman, I wish to thank you again for the opportunity to 
appear this morning and to state my views on National Water Research 
and Development legislation.

                     Biography for Henry Vaux, Jr.
    Dr. Henry Vaux, Jr. is Professor Emeritus of Resource Economics at 
the University of California, Berkeley and the University of 
California, Riverside. Prior to his retirement in 2004, he served for 
11 years as Associate Vice President for Agriculture and Natural 
Resources of the University of California System. In this capacity he 
was the chief operating officer for all University of California 
programs in agriculture and natural resources. He had previously served 
as Director of the UC Center for Water Resources. Dr. Vaux has authored 
over 90 publications on the economics of water resources and is 
considered an expert on the economics of irrigated agriculture and 
water marketing. He was a member of the Water Science and Technology 
Board of the National Research Council for seven years and served as 
Chair of the Board for four years. He is also President, Emeritus, of 
the California-based Water Education Foundation. In 2001, Dr. Vaux was 
designated as a National Associate of the U.S. National Academy of 
Sciences and he is the recipient of the 2005 Warren A. Hall Medal, 
given by the Universities Council on Water Research for significant 
accomplishments in water resources research. He remains active in 
international water affairs and has been an invited speaker and 
participant in symposia and conferences around the world. He is also 
Chair of the Rosenberg International Forum on Water Policy. The Forum 
promotes an ongoing global dialogue to enhance economic growth and the 
maintenance of environmental amenities through the reduction of water 
related conflicts and improvements in water policy. Prior to joining 
the faculty of the University of California in 1970, he served on the 
staff of the National Water Commission and as a water resources 
specialist in the Office of Management and Budget. He received his 
education at the University of California (B.A.) and the University of 
Michigan (M.S.; M.A.; Ph.D.).

    Chair Gordon. Thank you for those very good ideas. I am 
glad you read the bill.
    And Dr. Peter Gleick, you are now recognized.

STATEMENT OF DR. PETER H. GLEICK, CO-FOUNDER AND PRESIDENT, THE 
PACIFIC INSTITUTE FOR STUDIES IN DEVELOPMENT, ENVIRONMENT, AND 
                 SECURITY, OAKLAND, CALIFORNIA

    Dr. Gleick. Mr. Chair, Members of the Committee, thank you 
for having me testify today. I hope at least those of us at the 
table have read the bill. I would like to thank the Committee 
for inviting me to offer comments on the bill. I also would 
like to note at the outset I spent some of my early time doing 
research at the Oakridge National Laboratory. I remember my 
time in Tennessee very fondly.
    The water crisis around the Nation is growing. The need for 
better and more-coordinated responses is urgent, and I think we 
all understand that. We have long known that more coordination 
among federal agencies is going to be critical for dealing with 
water issues, but that coordination remains an elusive goal.
    And new challenges face us. Climate change, new pollutants 
decaying infrastructure around the Nation. My written testimony 
addresses these issues. I am not going to repeat it here this 
morning. What I would like to do is highlight a few points.
    In particular, let me start by saying that many of our 
water problems are local and have to be addressed at the local 
issue, at the local level. But we do have a responsibility to 
develop appropriate national policies as well, and at the 
moment these responsibilities as you note are split among at 
least 25 separate federal agencies, and they don't speak well 
to each other, they don't speak often to each other, and the 
goal of this bill to improve that coordination, to develop a 
consistent research agenda, to use our limited resources 
efficiently is an excellent one.
    As the bill notes, some effort in this area has been made 
by the SWAQ Committee, the Subcommittee on Water Availability 
and Quality under OSTP. I think the research results, the 
research recommendations produced by SWAQ in September, 2007, 
are an excellent step forward in setting a national agenda, and 
I think they have been complemented by reports from the 
National Research Council that Dr. Vaux talked about and from 
the General Accountability Office. I think those altogether 
provide a superb starting point for moving water research 
forward.
    It is not clear to me that a new subcommittee or new 
interagency committee is necessary if the idea is to strengthen 
SWAQ, and I think that might be an appropriate way to move 
forward. But whatever approach is taken, I would urge that this 
committee, this organizing group have a separate research 
budget of its own, either to give out in a competitive grants 
situation or to manage itself.
    Second, I think this group should include outside experts 
from either other federal agencies or from non-federal agencies 
as well, something that SWAQ has not done at the moment. The 
National Research Council previously concluded in its 2004, 
report that such outside advice would be enormously valuable.
    Third, the bill calls for an interagency committee to 
``establish the priorities for federal water research.'' I 
actually believe those priorities are fairly well established 
already from SWAQ's previous work, from the NRC, from the 
Government Accountability Office. We know what needs to be 
done. What we need is the funding to go ahead and do it. And so 
I don't think we necessarily need to call for a new assessment. 
I think we should instead focus on the sections of this bill, 
C2C in particular, that calls for, ``a strategy and timeline to 
achieve the desired outcomes.''
    Fourth, the explicit outcomes in the bill I would argue are 
unnecessary if we adopt the recommendations of SWAQ and the 
National Research Council. Conversely, if we are going to 
include specific research outcomes in this bill, I would offer 
four explicit recommendations for additions.
    The first is that the call for a national water census is a 
great idea, but it needs to include a census of water use 
nationwide, not just the water resources of the Nation, but 
actually how we use our water resources. That was recommended 
by SWAQ. It didn't make it into this bill, and I think it would 
be easy to add.
    Second, the national census is urgently needed, but I would 
recommend that it explicitly be called for as a census, that is 
every 10 years or so, and an explicit budget be provided to do 
the national census.
    Third, missing from the water research outcomes but 
included in every recent call for research around the Nation is 
an assessment of the implications of climate change on the 
Nation's water resources. And I think it would be easy to add 
that outcome as well.
    Fourth, Section D4 calls for development of innovative 
technologies and tools to enhance water use efficiency. That is 
a great idea but it should also call for an expansion of 
existing tools in the water efficiency area.
    Let me close by simply saying we also need, in addition to 
better coordination on research, we need some things not 
addressed by this legislation, such as a National Water 
Commission. H.R. 135 has been submitted at various times in the 
House. It has passed the House. I urge a National Water 
Commission be resubmitted and redeveloped as a way to move 
forward on things not going to be covered by the current 
legislation.
    Thank you very much.
    [The prepared statement of Dr. Gleick follows:]
                Prepared Statement of Peter H. Gleick\1\
---------------------------------------------------------------------------
    \1\ Dr. Gleick is President and co-founder of the Pacific 
Institute, Oakland, California and a member of the U.S. National 
Academy of Science. His comments reflect his own opinion and the 
recommended position of the Pacific Institute, Oakland, California.
---------------------------------------------------------------------------
    Mr. Chairman, Representatives: I would like to thank the Committee 
for inviting me to offer comments on the critical issue of 21st century 
water planning in the United States. The water crisis around the Nation 
is growing and the need for better and more coordinated responses is 
urgent. We have long known that we need coordinated federal planning 
for water; but such coordination remains an elusive goal. And new water 
challenges such as climate change, new pollutants, and decaying 
infrastructure face the Nation.
    My written testimony will address three issues:

        1.  The kinds of water challenges we face the national level 
        and the kinds of responses we need,

        2.  Some specific thoughts about the proposed legislation 
        sponsored by Congressman Gordon of Tennessee (H.R. 1145, 
        entitled the ``National Water Research and Development 
        Initiative Act of 2009.''), and

        3.  The need for additional federal policies and legislation 
        not directly addressed by this legislation.

Global and National Water Challenges

    Globally, the realization is growing that the failure to meet basic 
human and environmental needs for water is the greatest development 
disaster of the 20th century. Millions of people, mostly young 
children, still die annually--and unnecessarily--from preventable 
water-related diseases. Climate change is increasingly threatening 
water systems and water resources everywhere. Controversy is developing 
over the proper role of expensive dams and infrastructure, private 
corporations, and local communities in managing water. And 
international and sub-national threats to security as a result of water 
quality and quantity disputes have ramifications for U.S. military and 
diplomatic policy.
    Here at home, freshwater challenges in the United States are also 
growing rapidly. These challenges include growing scarcity, disputes 
over allocations and use of water, unresolved problems of contamination 
from known sources and new pollutants, a clear and present danger 
associated with the impacts of climate change, a decaying 
infrastructure and data collection system, and threats to our own 
security at the national and international level associated with these 
problems in other countries.
    Municipalities are faced with billions of dollars of infrastructure 
needs and growing disputes over the role of public and private water 
management. Arguments among western states over allocations of shared 
rivers remain unresolved, and similar arguments have now appeared in 
the southeastern U.S. and other regions previously thought to have 
adequate water resources. Tensions between cities and farmers over 
water rights are rising. The U.S. and Mexico have unresolved 
disagreements over the Colorado and Rio Grande/Rio Bravo rivers, and 
our Canadian neighbors remain worried about how best to jointly manage 
the shared Great Lakes. Communities are facing new challenges in 
meeting water-quality standards and ensuring that safe drinking water 
is available for all.

Addressing our National Water Problems

    Many of our water problems are local, and must be resolved at the 
local and regional level. But we have a responsibility to develop and 
implement appropriate national policies as well. These responsibilities 
are not being adequately fulfilled by the diverse federal agencies 
responsible for them. Part of the problem is confusion over authority. 
Part of the problem is the failure of the Executive Branch in recent 
years to request sufficient funds to protect and manage our water 
resources, and of the legislative branch to appropriate and allocate 
those funds. Part of the problem is old water legislation that has not 
been updated to account for the realities of the 21st century and for 
recent advances in our scientific and technical understanding of both 
water problems and solutions.
    Responsibility for water is spread out over many federal agencies 
and departments, operating with little overall coordination. In order 
to address this issue, the President's Office of Science and Technology 
Policy (OSTP), through the National Science and Technology Council's 
Committee on Environment and Natural Resources, reconstituted in 2003 a 
Subcommittee on Water Availability and Quality (SWAQ). Members of that 
subcommittee come from the departments of Interior, Agricultural, 
Defense, State, Energy, Health and Human Services, EPA, Commerce, NASA, 
the National Science Foundation, the Tennessee Valley Authority--
altogether 25 federal agencies that are responsible for all aspects of 
federal water research and/or water resource management.
    In September 2007, that Subcommittee released a report with 
detailed recommendations and priorities for improving coordination and 
water research in the U.S. These recommendations, combined with 
additional detailed suggestions from the 2004 report of the Committee 
on Assessment of Water Resources Research of the National Research 
Council (NRC) and reports on water from the Government Accountability 
Office (GAO) offer a superb starting point for moving water research 
forward.
    I support the important ideas behind Congressman Gordon's newly 
submitted bill, H.R. 1145, which clearly draws on these previous 
recommendations, and I commend him for tackling the urgent challenges 
of water. It is time to move from recommendation to action, and the 
Nation needs some kind of group to define research, monitor action, 
coordinate diverse federal efforts, and bring outside ideas to the 
attention of agencies and policy-makers. I also support the idea of 
putting (or keeping) that agency under the guidance of the President's 
OSTP, because of the vital need for independent, high-quality science.
    I would also like to offer some specific suggestions for 
strengthening the proposed bill.
    First, it is not clear to me that a completely new interagency 
committee is necessary, as opposed to expanding and improving the 
efforts of the existing Subcommittee on Water Availability and Quality 
within the National Science and Technology Council and other 
collaborative efforts underway between different agencies. Whatever 
approach is taken, however, a coordinating body for national water 
research will need an explicit budget of its own, with new money. 
Agency budgets are already grossly underfunded for water research and 
they are likely to chafe at having to divert funds to a separate 
independent body. This group should also include water experts from 
outside of the federal agencies themselves--something SWAQ has not 
done. The National Research Council previously concluded (in its 2004 
report ``Confronting the Nation's Water Problems'') that:

         ``If the coordinating body is made up only of agency 
        representatives, the overarching national perspective will 
        likely devolve to the sum of agency wish lists. However, 
        independence from agency agendas needs to be balanced by close 
        interaction with agency leaders who have unique and valuable 
        perspectives on national needs.''

    Second, the Bill calls for the interagency committee to ``establish 
the priorities for federal water research.'' I believe that such 
priorities are clearly, and comprehensively, laid out in the NRC, SWAQ, 
and OMB reports already available. We know what we need to do; what is 
needed is the funding and effort to do it. As a result, we should not 
be calling for a new assessment of need, but should focus on the 
activities in Section (c)(2)(C) to set forth ``a strategy and timeline 
to achieve the'' desired outcomes.
    Third, the explicit outcomes (Section (d) ) described in the 
proposed Bill are unnecessary, if existing recommendations from the 
SWAQ and NRC reports are to be adopted. Conversely, if this Bill is to 
include specific Water Research Outcomes, I offer here some explicit 
recommendations for modest changes: some key outcomes are missing and 
should be added, others need to be strengthened. In particular, while I 
strongly support the call for a National Water Census, that Census must 
also include comprehensive information on water use--as recommended by 
SWAQ--and a requirement that the Census be made easily available and 
widely disseminated. Thus, section (d)(1) should read:

         ``(1) Implementation of a National Water Census, which shall 
        include the collection and dissemination of data on national 
        water resources and all forms of water use, to create a 
        comprehensive database that includes information on the 
        quantity, availability, quality, and use of ground water and 
        surface water resources.''

    This National Census is urgently needed, and I further urge this 
bill, or supplemental legislation, include a clear call for this work 
to be done by the U.S. Geological Survey, which has the experience and 
expertise to do the science properly, an explicit recommendation that 
such as Census be done every 10 years, and a clear new budget of at 
least $25 million for each Census. Spread over 10 years this is a tiny 
sum of money with potentially vast returns for the Nation.
    Also missing from the Water Research Outcomes, but included in 
every recent call for water research, is the need to evaluate both the 
implications of climate change for the Nation's water resources and 
appropriate technologies and water management strategies for coping 
with unavoidable impacts of climate change. An additional ``outcome'' 
should therefore be added to section (d) that reads:

         ``Improvement of the understanding of the impacts of climate 
        change for the Nation's water resources and appropriate 
        strategies for adapting to those climate impacts that may be 
        unavoidable.''

    Section (d)(4) calls for development of innovative technologies and 
tools to enhance water-use efficiency. I fully support this effort, but 
this outcome should be expanded to include technologies and tools that 
already exist but have yet to be widely implemented. Wording for this 
section should be:

         (4) Expansion of efforts to enhance the efficiency of water 
        use throughout the Nation using existing technologies and tools 
        and through the development and adoption of innovative new 
        technologies and tools.''

    Let me also offer some comments and thoughts about funding, 
supporting my conclusion that some new, independent funding is required 
to make this effort work. Federal agency research budgets are typically 
developed starting with a ``base'' of activities that change little 
from year to year, and adding ``above base'' initiatives. In the 
context of developing comprehensive and effective national water 
research, agencies are unlikely to give up any of their base, even to 
address higher water priorities. Furthermore, the congressional 
appropriations process makes it difficult to shift funds from one 
agency to another when these agencies are funded through different 
spending bills. Table 1 shows just a sampling of the different 
appropriations subcommittees that are responsible for some of the 
federal agencies that fund water. This difficulty suggests that 
separate funds must be appropriated for whatever body is set up to 
coordinate federal water policy and research. I also urge that the 
coordinating body's efforts be synchronized with the schedule of 
federal budgeting and appropriations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Additional Needs for Water Legislation, Policy, and Action

    Finally, while implementing a new and better coordinated national 
research agenda is critical, there are additional needs not addressed 
by this legislation. The United States has not had a comprehensive 
water commission in place for 30 years, since the 1968 National Water 
Commission reported to the President and Congress in 1973. Moreover, we 
have never had a water commission with the authority and responsibility 
to review and recommend on the role of the U.S. in addressing 
international water issues. Nor has such a commission ever addressed 
the new challenges of climate change. Such a commission, perhaps in the 
form of a ``National Water Board'' could be very valuable. A version of 
such a Board for water-related research was proposed by the National 
Research Council in their 2004 report ``Confronting the Nation's Water 
Problems.'' Indeed, it may be possible and appropriate to combine the 
idea of an ``interagency committee'' in this bill with a broader Board.
    The Pacific Institute has long supported such an idea. A National 
Water Commission or Board would be authorized by Congress, be composed 
of both federal agency representatives and non-governmental water 
experts from across the many disciplines affected, including the 
sciences, economics, public policy, law, governments, public interest 
groups, and appropriate private sectors, would have a fixed term and 
specific mandate, and would serve as a neutral third party to:

        1.  Provide guidance and direction on the appropriate role of 
        the United States in addressing both national and international 
        water issues.

        2.  Prepare a regular survey of water research activities and 
        priorities.

        3.  Advise Congress and OMB on the recommended focus of a long-
        term research agenda and on key water budget decisions.

        4.  Report to OMB, OSTP, and the Congress in a timely manner 
        compatible with the budget and appropriations process.

    The NRC concluded that such a Board could offer both Congress and 
OMB credible advice on improving the efficiency with which federal 
agencies fund and conduct water research and priorities.
    Moreover such a Board could re-assess:

        <bullet>  Efforts to expand supply with new thinking on water 
        re-use, desalination, conjunctive use, and other non-
        traditional supply options. In most regions, even regions with 
        growing scarcity, increasing supplies through traditional 
        infrastructure does not appear to be the most efficient, cost-
        effective, and timely response. In contrast, non-traditional 
        sources of supply appear to offer enormous potential.

        <bullet>  Efforts to improve the efficiency of water use in 
        both the urban and agricultural sectors. One of the greatest 
        opportunities for addressing water scarcity and quality 
        problems is by increasing the efficiency of water use and 
        reducing waste. Great advances have been made, and total water 
        use in the United States has actually decreased in the past 20 
        years, reducing pressure on overall supply. Much more can be 
        done.

        <bullet>  National water science and policy and offer guidance 
        on integrating efforts now scattered among disparate and 
        uncoordinated federal agencies and departments. National budget 
        priorities should also be re-evaluated and re-structured to 
        ensure that the national objectives are more clearly supported.

        <bullet>  Revisions or better enforcement of national laws 
        related to water, including laws governing water quality (the 
        Clean Water Act and the Safe Drinking Water Act), the 
        protection of aquatic ecosystems, the financing of water 
        infrastructure, and national standards for improving water-use 
        efficiency and conservation.

        <bullet>  Recommendations for flood and drought management, 
        including implementing overdue changes proposed by previous 
        reviews.

        <bullet>  The physical security of the Nation's water, by 
        highlighting necessary steps that could be taken to reduce 
        overlap and streamline responsibilities of the multiple federal 
        agencies working on water issues.

        <bullet>  Recommendations for the U.S. role in identifying and 
        addressing global water problems, including how to 
        significantly accelerate efforts to meet the large and 
        devastating unmet basic human needs for water in poorer 
        countries. These recommendations should address how best to 
        apply the vast financial, educational, technological, and 
        institutional expertise of the United States to these problems.

        <bullet>  How to prepare the Nation's water resources systems 
        for the risks of climatic changes.

        <bullet>  Recommendations for reducing the risks of 
        international tensions over shared water resources, including 
        how to resolve concerns with our own neighbors, Mexico and 
        Canada, over shared water systems. These recommendations would 
        be valuable in other international river basins where our 
        experience, international stature, and expertise can be 
        effective.

The Need for U.S. Leadership

    The time is ripe for an integrated and comprehensive national water 
strategy. While many water issues will remain local, to be resolved by 
community efforts, our national government can no longer ignore the 
positive and effective role it can play both here and abroad. The 
United States is well positioned to be a world leader in addressing 
water problems, yet the U.S. regularly fails to present the world 
community with a comprehensive, integrated, and informed set of 
positions necessary to play a leadership role.
    I congratulate you for considering this vital issue and for helping 
to raise national attention on the need to re-evaluate and re-focus 
efforts on sustainably managing the Nation's precious freshwater 
resources.
    Thank you for your attention.

                     Biography for Peter H. Gleick
    Dr. Peter H. Gleick is co-founder and President of the Pacific 
Institute in Oakland, California. The Institute is one of the world's 
leading non-partisan policy research groups addressing global 
environment and development problems, especially in the area of 
freshwater resources. Dr. Gleick was described by the San Francisco 
Chronicle in 2009 as ``arguably the world's leading expert on water.'' 
His research and writing address the hydrologic impacts of climate 
change, sustainable water use, water privatization, and international 
conflicts over water resources. His work on sustainable management and 
use of water led to him being named by the BBC as a ``visionary on the 
environment'' in its Essential Guide to the 21st Century. In 2008, 
Wired Magazine called him ``one of 15 People the Next President Should 
Listen To.''
    Dr. Peter H. Gleick produced some of the first research on the 
implications of climate change for water resources. He has also played 
a leading role in highlighting the risks to national and international 
security from conflicts over shared water resources. He produced some 
of the earliest assessments of the connections between water and 
political disputes and has briefed major international policy-makers 
ranging from the Vice President and Secretary of State of the United 
States to the Prime Minister of Jordan on these issues. He also has 
testified regularly for the U.S. Senate, House of Representatives, and 
State legislatures, and briefed international governments and policy-
makers.
    Dr. Gleick received a B.S. from Yale University and an M.S. and 
Ph.D. from the University of California, Berkeley. In 2003 he received 
a MacArthur Foundation Fellowship for his work on global freshwater 
issues. In 2006 he was elected to the U.S. National Academy of 
Sciences, Washington, D.C. and his public service includes work with a 
wide range of science advisory boards, editorial boards, and other 
organizations. Gleick is the author of more than 80 peer-reviewed 
papers and book chapters, and seven books, including the biennial water 
report The World's Water published by Island Press (Washington, D.C.).

    Chair Gordon. Thank you. And Mr. Modzelewski, you are 
recognized for five minutes.

STATEMENT OF MR. F. MARK MODZELEWSKI, EXECUTIVE DIRECTOR, WATER 
                      INNOVATIONS ALLIANCE

    Mr. Modzelewski. Thank you very much, Mr. Chair, and again, 
I thank Mr. Chair and the Members of the Committee. I am 
honored to have this opportunity to appear before you today as 
Executive Director of the Water Innovations Alliance. The 
alliance is the policy voice of the world's water researchers, 
technologists, and innovators, and our members are looking to 
move forward to address many of the problems that we have here 
today.
    I would like to actually skip over the statistics which I 
think we all know so well and really get to the point that in 
order to advocate and address the problems that exist in the 
developing world and our significant infrastructure needs and 
needs with water, we must either spend hundreds of billions of 
dollars, some people putting the number at trillions of 
dollars, in order to fix it and modernize the system, or for a 
fraction of that we can invest in funding that will advance 
water technology and innovations and spend the money smartly, 
which is something we all need to focus on.
    Unfortunately, despite many of these maxims that water is 
the next oil, that water equals life, nobody ever seems to put 
their money where their mouth is in the water sector and 
actually spend the funding along these lines. Corporate and 
government R&D spending in water compared to other industries 
is quite low, and I could speak to one area that I am very 
familiar with for formerly running the Nano-Business Alliance.
    In nanotechnology every year the Federal Government spends 
in excess of a billion and a half dollars, corporations putting 
significant amounts along those lines. If you look at that in 
water, you really don't see those kind of funding levels hit, 
and you also see the funding, again, speaking with what Dr. 
Vaux said earlier, really puts near-term problems. You don't 
see a lot of mid and long-term research developed along those 
lines.
    And in fact, we are still really treating water not that 
differently than we could have a couple hundred years ago where 
we actually put chemicals or poisons in the water, or we tried 
to force things through small holes. And we really haven't 
looked to address water in a more modern way, with more modern 
techniques. And the lack of funding and the lack of a funding 
portfolio that is spread and diverse in this effect has surely 
caused that and is clearly a hindrance to us being able to deal 
with things along those lines.
    We strongly agree with the Chair's call for interagency 
collaboration and coordination as well as increased evaluation 
and funding. We strongly support the proposals here under 
consideration, but we do have actually a few areas that we 
would like to make suggestions for development in the bill and 
some potential changes in the bill.
    One of which would be assessment. To date there have been 
several efforts to evaluate the state of water infrastructure 
and research spending in America, including the work of the 
National Academies and several private organizations. None has 
been thorough enough to create a clear picture and to develop a 
comprehensive response. At this time the essence we believe 
that it is necessary to get the tests done quickly, thoroughly, 
and accurately.
    We suggest a natural water census which Dr. Gleick had 
touched upon earlier, but we would certainly agree with him 
that usage and regularity should be a point of development as 
far as that census goes. We should look at the availability of 
quantity, quality, consumption, recharge capacity, and threats 
to ground water and surface water resources as well.
    Another area which we think is deeply in need of 
investigation is the information technology area of water. One 
key area where there has been a lack of innovation of water is 
information technology. Little has been done to create a common 
system in measurement, evaluation, and reporting. Common 
standards do not exist. Even with the current infrastructure 
filtration and treatment technology, overlaying an effective IT 
infrastructure and management system whereby we could actually 
evaluate what is being done and what is being used and have a 
common language of reporting and sharing that information by 
some estimates could lead to savings of 30 to 50 percent, even 
with the current infrastructure issues that we have.
    A national smart water grid, if you will, would be an 
incredible way of better developing water, understanding our 
water use, and being able to understand what is working and 
what is not working as far as our new innovations and 
technologies that are applied.
    Another area I would like to point to is NSF Centers. This 
is something that has been touched on before as far as research 
centers, and these certainly could be done in conjuncture with 
the current university centers or a build-out of the centers, 
but right now we have one at the University of Illinois, which 
I believe sunsets in the next three years. Having nationally-
backed, long-term funding structures for the research and 
innovations of water would be an incredible development that we 
could move forward on.
    The government in Switzerland, for instance, a country that 
is actually quite water rich and much smaller than ours, spends 
100 million a year in these type of government centers and 
would be a model to look at for developing out our own system.
    And lastly, a national water pilot testing facility. One 
issue that we seem to have right now is that regulation gets in 
the way of a lot of innovation being out there, and too often 
the innovation is occurring at the bench top in laboratories, 
rather than understanding how it would work in a larger system. 
So the development of such a water pilot testing facility would 
be integral to actually getting new innovation available and in 
the market.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Modzelewski follows:]
               Prepared Statement of F. Mark Modzelewski
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
I am pleased and honored to have this opportunity to appear before you 
today as the Executive Director of the Water Innovations Alliance. The 
Alliance is the public policy voice of the world's water researchers, 
technologists and innovators. Our role is to advocate policies that 
promote the aggressive development of water technologies and 
innovations across all sectors and users of water by creating new 
market opportunities, increasing funding, strengthening research and 
development programs, removing regulatory and market barriers, and 
improving education, communication and outreach efforts.
    Our membership, which includes a broad spectrum of business, 
academic institutions, health and development activists, believes 
strongly in the tremendous importance of securing safe and affordable 
access to water resources as a cornerstone of our nation's physical 
health, economic prosperity, and general welfare. We share this 
committee's belief that federal investment in water technology R&D is 
essential for our nation's future--and the world's.
    We are all familiar with the statistics: in 2002, 1.1 billion 
people lacked access to a reliable water supply, and 2.6 billion people 
lacked access to adequate sanitation. By 2025, over half the world's 
population will live in water-stressed or water-scarce countries. 
Twenty-five percent of global freshwater use exceeds local long-term 
accessible supplies. Agricultural uses are the biggest concern, with an 
estimated 15 to 35 percent of irrigation withdrawals in excess of 
sustainable limits. Industrial withdrawals of water are expected to 
rise by 55 percent out to the year 2025. In addition, within the U.S., 
population has been migrating from the water-rich North to the water-
depleted sunbelt. Crumbling infrastructure means that cities such as 
Chicago lose upwards of 60 percent of their water in transit from 
treatment facilities to faucets. Over the past five years, municipal 
water rates have increased 27 percent throughout the United States.
    In order to address the problems of access in the developing world 
and our own significant infrastructure needs, we must either spend 
hundreds of billions of dollars on current technology or invest a 
fraction of that funding in advancing water technology. Unfortunately, 
despite the maxims that ``water is the next oil,'' and that ``water 
equals life,'' nobody ever seems to put their money where their mouth 
is in the water sector--corporate and government R&D investment has 
historically been far below the level we see in less important 
industries. The proposed legislation is a major step toward reversing 
this trend. It will help develop and bring to market new technologies 
that allow for greater efficiencies, the ability to re-use this 
precious resource, and new capabilities to tap new water sources.
    We strongly agree with the Chairman's calls for interagency 
collaboration and coordination, as well as increased evaluation and 
funding for water technology. Before founding the Water Innovations 
Alliance, I founded the NanoBusiness Alliance, where I worked 
extensively on the 21st Century Nanotechnology Research and Development 
Act. I believe that it can serve as a great model for interagency 
coordination and public-private collaboration on key issues surrounding 
water technology.

General Comments on the Proposal

    While the Water Innovations Alliance strongly supports the 
Chairman's proposal, we do have a few suggestion for the Committee's 
consideration. In general, we would encourage the Committee to take an 
aggressive approach to water innovation that ensures speed, quality and 
accountability. We also urge that the Committee encourage new voices to 
come to the table and create opportunities for interdisciplinary 
research. We still deal with water technology with brute force methods 
that use hazardous chemicals, heat and pressure. Nearly all research 
has been focused on little tweaks to make these processes marginally 
cleaner or more energy efficient, rather than exploring game-changing 
new approaches. Finding and implementing these new approaches will 
require outside-the-box thinking and longer-term vision. In addition, 
we need to find ways to spur innovation among small businesses in the 
water sector, where innovation has the greatest chance of taking root.

Specific Suggestions for the Proposal

Assessment: To date, there have been several efforts to evaluate the 
state of water infrastructure and research spending in America, 
including work at the National Academies and several private 
organizations. None has been thorough enough to create a clear picture 
and a develop a comprehensive response. As time is of the essence, we 
believe it is necessary to get the task done quickly, thoroughly, and 
accurately. We suggest a National Water Census, the collection of water 
data to create a comprehensive database of information on available 
quantity, quality, consumption, recharge capacity and threats to ground 
water and surface water resources. To maintain this information 
resource, we recommend the development of a new generation of water 
monitoring techniques and technologies.

Information Technology (IT): One key area where there is a lack of 
innovation in water is in information technologies. Little has been 
done to create a common system for measurement, evaluation and 
reporting. Common standards do not exist. Even with current 
infrastructure, filtration, and treatment technology, the overlaying of 
an effective IT management system could result in annual savings of 30-
50 percent. It is vital that an effort be made to create and fund a 
water information technology initiative through partnership with the IT 
industry to develop and deploy a common platform--a national ``smart 
water grid,'' if you will--within the water sector. A coordinated 
effort could result in a system being in place in just a few years that 
would save money and provide data to support bolder moves to conserve 
and manage water.

NSF Centers: The lack of water R&D progress indicates a need for 
federal research centers for water technology and innovation. There are 
15 NSF nanotechnology centers as well as additional ones from other 
federal agencies including centers at a number of the DOE labs. Yet 
only one center exists for water R&D. That center, at the University of 
Illinois, is set to sunset in three years. To create new national 
research centers, additional long-term funding will be needed. Other 
nations establishing such centers commit funding for ten years at a 
time, with similar investments by the private sector. Switzerland, a 
country that is water rich and a fraction of our size, is spending 
approximately $100 million per year to develop new technologies to 
reduce domestic water usage, particularly in its energy sector. It is 
likely that a greater level of funding will be needed in the U.S. to 
solve the larger problems the we face over several major sectors and 
across disparate geographic regions. The Alliance strongly urges the 
creation of a minimum of five new NSF water centers, each tasked with a 
specific focus area (e.g., IT, desalination, purification) to begin to 
address the multitude of pressing needs in the water technology field.

National Water Pilot Testing Facility: In water R&D, one of the largest 
hurdles beyond funding has been the gap between bench-top research and 
real-world conditions. There are few opportunities for researchers to 
test their new developments under real-world conditions due to 
regulatory hurdles that deter experimentation and the absence of a 
pilot testing facility for water. The Alliance strongly encourages the 
Committee to consider creating a national water pilot testing facility 
to be housed at a national laboratory or a university. In addition, we 
encourage the Committee to examine the regulatory barriers that hinder 
innovation and testing of new beneficial solutions for the water 
industry.
    Thank you, Chairman Gordon, Ranking Member Hall, and Members of the 
Committee for the opportunity to provide this testimony. I would be 
happy to answer any questions you may have.

                   Biography for F. Mark Modzelewski
    F. Mark Modzelewski is a technology entrepreneur, investor and 
pundit born in Naugatuck, Connecticut. He recently founded the Water 
Innovations Alliance, an industry association focused on developing new 
funding, reducing regulatory barriers, increasing collaboration and 
raising awareness for cutting-edge water technologies and the problems 
they solve. The Alliance serves the entire spectrum of the water 
sector: corporations, investors, engineering firms, startups, NGOs, 
research centers, municipalities, and others in the field. The Alliance 
is located in Washington, DC and Cambridge, MA.
    Modzelewski is involved in co-founding and developing new 
technology companies. He recently launched 349Q Water Solutions, a 
post-industrial water purification company; and helped to found a 
microbial fuel cell company, Trophos Energy, a Harvard University spin-
out. He is the former Managing Director and Co-Founder of Bang 
Ventures, an investment firm based in New York with offices in 
Cambridge focused on technology investments including Web 2.0, new 
energy innovations and medical devices. The firm was best known for 
launching the ``You Be the VC'' entrepreneurial competition.
    Modzelewski co-founded New Europe Ventures, a Polish-based venture 
capital firm, as well as the Benet Group, Leonardo BioSystems, Lux 
Research (developed water technology division concept)and the 
NanoBusiness Alliance. He has served as a senior executive at 
NanoDynamics (where he launched a joint venture firm with Shell and 
headed water technology efforts), Opion, GolinHarris and NRW. In 
addition, he has consulted for companies including NanoSys, Engelhard, 
MasterCard, Yahoo!, eSpeed, Vivendi Water, Pixar, and DaimlerChrysler. 
He also taught Technology Entrepreneurship at RPI's Lally School of 
Business.
    Before entering the private sector, Modzelewski was an appointee in 
the Clinton Administration developing policy, legal and communication 
strategy efforts on a range of issues including rural water and 
utilities and economic development as Special Assistant to Secretary 
Henry Cisneros of the U.S. Department of Housing and Urban Development 
(HUD) and Secretary Daniel Glickman of the U.S. Department of 
Agriculture (USDA).
    Modzelewski earned an B.F.A. from Boston University and a J.D. from 
University of Denver College of Law where he concentrated on water law.

    Chair Gordon. Thank you. And now Ms. Stoner, you are 
recognized for five minutes.

 STATEMENT OF MS. NANCY K. STONER, CO-DIRECTOR, WATER PROGRAM, 
            NATURAL RESOURCES DEFENSE COUNCIL (NRDC)

    Ms. Stoner. Thank you. Good morning, Mr. Chair, Ranking 
Member Hall, and Members----
    Chair Gordon. I believe you need to put your microphone on 
there. There we go.
    Ms. Stoner. Very good. Thank you. I appreciate the 
opportunity to appear before you today on behalf of the Natural 
Resources Defense Council to discuss the changes facing U.S. 
water resources today and the role of scientific research in 
addressing those challenges. I will provide a brief summary of 
the issues presented in more depth in my written statement.
    First, water resources in the U.S. are stressed. Population 
growth, urbanization, and agricultural runoff continue to 
pollute rivers, lakes, and coastal waters and deplete surface 
and ground water resources that provide safe, sufficient water 
for human and ecosystem needs.
    There are also new stressors as my colleagues have 
mentioned such as climate change, which affects water first and 
foremost among all natural resources with increasing droughts, 
sea level rise, extreme storm events, and increased stream 
temperatures. We can't continue to use the strategies of the 
past and hope to overcome these and other emerging challenges. 
New strategies, new technologies, and even new ways of thinking 
are needed. That is what scientific research is all about.
    Second, water is valuable. It is essential to life, to our 
very existence, and the foundation of every civilization. It is 
easily worth billions, if not trillions of dollars each year to 
the U.S. economy. One study by a team of economists estimates 
the economic value of the decline in water quality in the U.S. 
from 1994, to 2000, is $20 billion. With the economic crisis 
that the U.S. is facing, we can't afford to throw away valuable 
natural resources like clean water.
    Third, research and development creates jobs, jobs for 
scientists, lab technicians, manufacturing jobs, labor jobs, 
jobs that feed families and contribute to the long-term health 
and well-being of the Nation.
    The global water and waste water infrastructure market is 
estimated at $3 trillion. The U.S. needs to invest in research 
and development, not only to protect our own natural resources 
but also to bolster that sector of our economy. We are 
currently losing jobs to companies overseas because we are not 
developing and marketing state-of-the-art water and waste water 
infrastructure technologies. This is a market in which the U.S. 
can and should lead the world.
    With respect to the legislation, H.R. 1145, the National 
Water Research and Development Initiative Act, it would step up 
and coordinate science-based research in water. It would ensure 
that federal dollars are spent more effectively and would 
identify specific water research outcomes.
    I want to add to those voices of my colleagues in 
suggesting a couple of additional outcomes. Several have 
mentioned already climate change water interactions. I think 
that is very important for a research outcome. Another that 
hasn't been mentioned this morning I think is advanced 
treatment technologies and pollution prevention strategies. 
Treatment may be old-school, but sometimes it is helpful, and 
we need new treatment technologies, particularly ones that use 
less energy and produce better results. That is a good area for 
the research agenda as well. I think it is an excellent start, 
though, on a holistic cross-cutting water research agenda.
    I also want to second the comment made by my colleague, Dr. 
Gleick, about having the census address water use. Often in the 
U.S. we don't have information about how much ground water in 
particular is being used. That information is necessary in 
order to ensure that we have sustainable water resources for 
the future.
    So I commend you, Mr. Chair, on this legislation, and I 
welcome your questions.
    [The prepared statement of Ms. Stoner follows:]
                 Prepared Statement of Nancy K. Stoner
    Good morning, Mr. Chairman, and Members of the Committee. I 
appreciate the opportunity to appear before you today to discuss the 
challenges facing U.S. water resources today and the role of scientific 
research in addressing those challenges. I will also specifically 
address the legislative proposals under consideration by this committee 
to enhance water research in the U.S.

Water Resource Challenges in the U.S. in the 21st Century

    Earlier this year, EPA released its 2004 National Water Quality 
Inventory Report to Congress. Unfortunately, it demonstrates that very 
high percentage of our nation's surface waters continue to be unsafe 
for swimming, drinking, fishing, or other human uses.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2006, U.S. EPA released its first Wadeable Streams Assessment of 
the biological integrity of 1,392 perennial streams across the U.S. 
using direct measures of aquatic life. It found 41.9 percent of streams 
in poor condition, 24.9 percent in fair condition, and only 28.2 
percent in good condition.\2\
---------------------------------------------------------------------------
    \2\ http://www.epa.gov/owow/streamsurvey/
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    These reports focus primarily on water quality. However, our 
natural water systems and services are also deteriorating. Signs of 
stress are seen in falling groundwater levels and decreasing stream 
flows, degradation of aquifer water quality, disappearance of wetlands, 
dead zones in coastal areas such as the Gulf of Mexico, and other 
changes in hydrologic function.
    Many of these negative changes are a result of ill-conceived 
agricultural, land development, and energy practices--and are symptoms 
of man's overuse and contamination of water. Destruction of natural 
ecosystems such as wetlands, forests, and prairies to make way for 
sprawling cities that pave over the landscape destroying natural 
hydrology, and monoculture farming that requires excessive quantities 
of water and fertilizer have led to drying land masses and reduced 
evapotranspiration, as well as increases in polluted runoff. In order 
to assure secure and clean water supplies and healthy ecosystems, it 
will be necessary to redesign the Nation's infrastructure around 
significantly more efficient and sustainable practices.
    Climate change is exacerbating stresses on water resources. From 
urban and agricultural water supplies to flood management and 
protecting aquatic ecosystems, all aspects of water resource management 
are being affected by climate change. Rising temperatures, loss of 
snowpack, escalating size and frequency of flood events, increasingly 
frequent droughts, and sea level rise are just some of the impacts of 
climate change that have broad implications to the management of water 
resources. Many water supply sources (rivers, lakes, groundwater 
basins, etc.) are already over-allocated, suffer from degraded water 
quality and are often not in sufficient condition to support endangered 
species. The past is no longer a tool for predicting future 
precipitation patterns. While droughts are nothing new, climate change 
is not only predicted to increase the frequency and intensity of 
droughts but will also effectively create ongoing drought-like 
conditions in parts of the U.S.\3\ In response to a U.S. General 
Accounting Office survey in 2003, 36 states indicated that they 
anticipate local, regional, or statewide water shortages by 2013.\4\
---------------------------------------------------------------------------
    \3\ NRDC 2008. Hotter and Drier: The West's Changed Climate; http:/
/www.nrdc.org/globalWarming/west/contents.asp
    \4\ http://www.gao.gov/new.items/d03514.pdf
---------------------------------------------------------------------------
    By elevating temperatures, increasing evaporation rates and 
extending dry seasons, even existing rainfall patterns will yield less 
in terms of real water supplies. Ironically, global warming is also 
predicted to increase the frequency and intensity of storm events, 
which will in some cases provide more overall rainfall. However, 
intense rain events often deliver too much water at once causing it to 
runoff instead of soaking into the ground, making it harder to store in 
reservoirs. Some areas, particularly in the West and Southeast, are 
predicted to get less precipitation. These climate change related 
effects, likely in combination, will decrease water supplies both 
locally and regionally throughout the country.\5\
---------------------------------------------------------------------------
    \5\ U.S. Climate Change Science Program, http://
www.climatescience.gov/
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There is also emerging research suggesting that the drying out of 
land and air may also have a direct effect on the rate of climate 
change.\6\ Additional research on this topic could revolutionize the 
drivers for water resource management internationally. Reducing 
greenhouse gas emissions is essential, and the water sector can be part 
of any solution by reducing energy use through water conservation and 
efficiency, rainwater harvesting, and groundwater recharge through 
practices such as low impact development. Greenhouse gas emissions can 
also be used through practices, such as reduced fertilizer use, that 
also reduce nutrient pollution. However, reducing greenhouse gas 
emissions will take time and there is a need to address today's 
challenges. Implementing actions now to improve water quality and 
supplies, protect aquatic ecosystems and improve flood management not 
only make sense, but early action will also help reduce future impacts 
related to climate change.\7\ Adaptation is not a solution to climate 
change but given the importance of our water resources, immediate 
action is needed to avert significant societal impacts. Research into 
the tools that communities need to anticipate impacts of climate change 
to their water resources and the best set of adaptation strategies to 
prepare for those impacts is an immediate need.
---------------------------------------------------------------------------
    \6\ http://www.ludiaavoda.sk/dokumenty/
WATER<INF>-</INF>INTOLERANCY<INF>-</INF>KRAVCIK<INF>-</INF>DEF<INF>-</INF>
FEB2007.pdf
    \7\ http://www.nrdc.org/globalwarming/hotwater/contents.asp
---------------------------------------------------------------------------
    Our nation's water infrastructure was built around the goal of 
public health protection through long-distance transport of clean water 
into cities and of wastewater away from cities. These systems were 
extremely successful in improving public health in the U.S., 
particularly during the first half of the 20th century. Now, however, 
these same systems are increasingly seen as out-of-date and 
insufficient to meet water resource and public health goals. Scarce 
water resources are wasted through designs that transport water and 
wastewater long distances for filtration and treatment and by once-and-
done treatment processes that discharge treated waters into streams to 
be carried out to sea instead of using it for landscape irrigation, 
toilet flushing, cooling water, and other non-potable needs.
    The National Academy of Engineering has recently listed three of 
the new Century's ``Grand Challenges for Engineering'' as related to 
water: restoring and improving urban infrastructure; providing access 
to clean water; and managing the nitrogen cycle (including nitrogen in 
wastewater).\8\ The Academy recognized that an integrated approach 
combining energy, water, and wastes (liquid and solid) into 
``neighborhood systems'' needs consideration. These systems will rely 
on telemetry and information networks, and will incorporate aesthetic 
designs. As the Academy suggests, ``proper engineering approaches can 
achieve multiple goals, such as better storm drainage and cleaner 
water, while also enhancing the appearance of the landscape, improving 
the habitat for wildlife, and offering recreational spaces for 
people.''
---------------------------------------------------------------------------
    \8\ http://www.engineeringchallenges.org/cms/8996/9221.aspx
---------------------------------------------------------------------------
    The value of designing buildings and subdivisions with both energy 
and water considerations in mind is becoming more clear among green 
building practitioners. Water management, for example, is included in 
the recent Net Zero Energy Building report prepared by an interagency 
task force called the National Science and Technology Council.\9\ 
Wastewater has heat that can be captured, and biogas can be generated 
at a local scale from sewage, along with food waste and landscaping 
materials. Energy costs for water line and sewer pumping stations can 
be avoided if water is captured, recycled and re-used within its 
natural or originating basin. It only makes sense, then, to provide tax 
incentives, public building retrofit requirements, and loan guarantees 
for both energy and water technology advancements within a single 
program. Other ``market transformational'' approaches, such as labeling 
and standards development for energy-efficient appliances and for solar 
and wind technologies, could also be adopted. EPA's WaterSense program 
provides data for consumers to choose water-efficient appliances and 
landscape irrigation services.\10\ The success of this program suggests 
that some similar guidelines for water and wastewater re-use and 
stormwater management should also be developed.
---------------------------------------------------------------------------
    \9\ http://www.bfrl.nist.gov/buildingtechnology/documents/
FederalRDAgendaforNetZeroEnergyHighPerformanceGreenBuildings.pdf
    \10\ http://www.epa.gov/watersense/
---------------------------------------------------------------------------
    Treatment approaches typically used are also insufficient to 
address the broad range of contaminants found in sewage, including 
excessive nutrients, microbials, such as cryptosporidium and giardia, 
and pharmaceuticals and personal care products (PPCPs) that are 
contaminating our waterways and have the potential to threaten public 
health. The problem of unintended movement of toxic and endocrine-
disrupting chemicals and compounds from pharmaceuticals and personal 
care products to wastewater effluents and drinking water sources is 
neither new nor unique to the U.S. It is an international problem that 
has been documented and publicly reported by government experts and 
academic researchers for over two decades.\11\ It is complicated by the 
fact that the contaminants come from many sources (medical waste, 
consumer waste, agriculture and industrial uses, etc.), have diverse 
toxicology profiles and biological activity, may be present in low or 
trace amounts (parts per trillion), and are likely to have complex and 
poorly understood toxic interactions (antagonistic, synergistic, 
additive, etc.). However, these contaminants share one very disturbing 
characteristic: in general, they are not effectively controlled under 
U.S. environmental statutes, and are usually not even subject to 
monitoring. Research into green chemistry, wastestream minimization, 
and other ways to minimize the risk to people and ecosystems from these 
substances must become a priority.
---------------------------------------------------------------------------
    \11\ Kolpin, D.W.; Furlong, E.T.; Meyer, M.T.; Thurman, E.M.; 
Zaugg, S.D.; Barber, L.B.; Buston, H.T. Pharmaceuticals, hormones, and 
other organic wastewater contaminants in U.S. streams, 1999-2000: A 
national reconnaissance. Environ. Sci. Technol. 2002, 36, 1202-1211.

Economic benefits of clean, safe water resources

    Abundant, safe water resources are essential to a healthy U.S. 
economy as well as to human and ecosystem health. For example, a new 
report by scientists working with Restore America's Estuaries found 
that beach going in the U.S. contributes up to $30 billion annually to 
the U.S. economy and recreational fishing contributes between $10 and 
$26 billion.\12\ On the flipside, economists from Vanderbilt and Duke 
Universities estimate the annual economic value of the decline in 
inland U.S. water quality from 1994 to 2000 to be more than $20 
billion.\13\ With the economic crisis that the U.S. is facing, we 
cannot afford to be throwing away valuable natural resources like clean 
water.
---------------------------------------------------------------------------
    \12\ http://www.estuaries.org
    \13\ http://papers.ssrn.com/sol3/
papers.cfm?abstract<INF>-</INF>id=1084077
---------------------------------------------------------------------------
    Directing federal research funding towards addressing the 
challenges facing U.S. water resources will make the U.S. stronger, our 
families healthier, our wildlife more abundant, and our communities 
safer and more resilient to future water and climate disturbances. 
Those research dollars will also provide immediate employment to 
scientists, technicians, equipment manufacturers, laborers, and other a 
whole host of other Americans who can feed their families today and 
contribute to the long-term health and well being of the Nation.

Investment in research and development and demonstration projects in 
                    21st Century water infrastructure

    The U.S. has experienced a dramatic reduction in water-related 
research funding in the Federal Government, as has been noted by both 
the National Academy of Sciences and the Office of Science and 
Technology Policy. The 1972 Clean Water Act authorized $100 million in 
research, which would be worth over $500 million per year in current 
dollars. However, starting in the 1980s, water infrastructure-related 
research budgets were systematically reduced, and private sector 
research spending declined as well.
    Because of these continuing reductions in water-related research in 
the U.S., academic institutions, research institutes, and consulting 
firms have been reducing employment as well. Dramatic signs of this 
under-employment include the relocation of Massachusetts Institute of 
Technology water researchers to Singapore, where $300 million is being 
invested by that government in innovative technology development in 
water infrastructure, which will allow them to take a leadership role 
in capturing the estimated $3 trillion dollar water and wastewater 
infrastructure market.\14\ Graduate students, for lack of funding in 
the U.S., are accepting fellowships overseas. Science departments are 
being shut down, hiring freezes and layoffs are occurring at campuses 
across the U.S. Consulting research firms have also shed numerous 
workers in recent months.
---------------------------------------------------------------------------
    \14\ http://web.mit.edu/smart/
---------------------------------------------------------------------------
    By a host of measures, it would be appropriate to build research 
and development (R&D) funding in the water infrastructure field over a 
period of years to a $500 million per year level. Any healthy 
industrial sector should be reinvesting one to two percent in science 
and new product development. One percent of the Nation's current 
estimated $50 billion water and wastewater sector expenditures would be 
$500 million per year, while one percent of the approximately $100 
billion per year that the water and wastewater sectors should be 
spending on traditional and green infrastructure approaches to meet 
current needs would be $1 billion per year.
    To begin returning water infrastructure-related research to an 
appropriate level of funding, at least $100 million should be 
appropriated for EPA to stimulate both R&D and demonstration projects 
in 21st Century approaches, including water conservation, rainwater 
harvesting, green infrastructure, groundwater remediation, graywater 
re-use, optimizing energy use and water quality, monitoring for and 
treating emerging contaminants, and decentralized wastewater treatment 
and re-use. A second $100 million should be employed for innovative 
water management research in the Departments of Agriculture, Commerce, 
Defense, Energy, Health and Human Services, Housing and Urban 
Development, Interior, and Transportation to look at a host of water-
related issues such as ensuring safe water supply, protection of 
aquatic habitat, sustainable water and wastewater infrastructure in the 
built environment, protection of U.S. fisheries, protection of and 
stewardship of America's farmlands, pasturelands, and forests, 
protection of endangered species, and, of course, monitoring our 
progress in achieving water resource goals. A commitment to rigorous 
long-term monitoring of our nation's water ways is absolutely essential 
for identifying contaminants, characterizing and localizing 
contamination patterns, identifying sources of contamination where 
possible, and measuring the effectiveness of mitigation measures. In 
summary, high quality monitoring programs are required for Congress and 
regulatory agencies to allocate resources wisely and effectively.
    The U.S. Geological Survey (USGS) is responsible for the two main 
water-quality monitoring programs for the Nation's waterways. These are 
the National Water Quality Assessment Program (NAWQA) and the Toxic 
Substances Hydrology Program. These two programs are crucial to 
understand water quality. Without a long-term commitment to monitoring, 
the Nation will lose its ability to assess tends in water quality, 
impacts of climate change, impacts of new and under-studied 
contaminants, and efficacy of policy-decisions that impact water 
quality. The NAWQA is the larger of the two USGS water-quality 
monitoring programs, and looks at environmental contaminants using 
established measurement methodologies for measuring (pesticides, VOCs, 
metals, etc.). Budget constraints over the last eight years has forced 
the program to cut back from 496 surface-water fixed station water-
quality monitoring sites in 2000, to only 113 sites in 2008.\15\ NRDC 
supports reinvestment in that program.
---------------------------------------------------------------------------
    \15\ USGS fact sheet: Impacts of proposed FY09 budget cuts on 
National Water-Quality Assessment (NAWQA) program. Provided by Judy 
Campbell Bird. April, 2008.
---------------------------------------------------------------------------
    The Toxic Substances Hydrology (aka Toxics Program) is the smaller 
of the two programs. It is a water quality research and methods 
development program that looks at new and understudied environmental 
contaminants, like new pesticides, hormones, pharmaceuticals, personal 
care products, etc. The program develops new capabilities, new 
methodologies, and new information that enable the cooperative water 
quality programs across states and the NAWQA address new issues in an 
effective manner.\16\ A new water research initiative should invest in 
both of these programs, which have been devastated by budget cuts in 
recent years.
---------------------------------------------------------------------------
    \16\ Data provided to J. Sass as personal communication with Donna 
N. Myers, U.S. Geological Survey, Chief, National Water-Quality 
Assessment Program. April, 2008.
---------------------------------------------------------------------------
    In addition to governmental funding, cooperative efforts with 
utilities, research associations, and other non-governmental entities 
should be part of the research agenda, including such programs as the 
National Decentralized Water Resources Capacity Development Project at 
the Water Environment Research Foundation, the National Environmental 
Services Center at West Virginia University, and academic workshop and 
conference funding.

The National Water Research and Development Initiative Act of 2009

    The National Water Research and Development Initiative Act (NWRDIA) 
of 2009 would coordinate such a research initiative and develop a plan 
for identifying and prioritizing future research needs. Efforts to 
define research needs and projects related to 21st Century water 
infrastructure are already being conducted at the federal level. The 
U.S. EPA has directed a wide-ranging series of working groups to 
identify critical research needs in water infrastructure, and topics 
for priority research projects have been identified. Research agendas 
have been developed for ``sustainable infrastructure,'' water and 
climate change, and green building and green infrastructure related to 
water systems. EPA has initiatives in related Smart Growth, source 
water protection, and ecological services program areas. This committee 
has identified research areas for water-efficiency and conservation 
measures in H.R. 3957. The Office of Science and Technology Policy has 
identified key research areas which would be developed in a revitalized 
water research program. The NWRDIA would be helpful in coordinating 
these and other agenda-setting exercises into a cross-agency, cross-
media, cross-sectorial strategy that gets past the historic siloed and 
disintegrated approaches that are currently failing to provide holistic 
solutions to our water and integrated resource needs.
    It is vital for the U.S. to return to earlier patterns of 
investment in water infrastructure-related research. Our nation is 
clearly falling behind in the efficiency and effectiveness of its 
approaches relative to those of other countries. Research investments 
will be paid back in many ways, including reductions in costs of safe 
and clean water systems, revitalized local economies and community 
development, and in new economic opportunities for American businesses 
in designing and manufacturing solutions for emerging markets in Asia 
and elsewhere.

Conclusion

    Throughout the second half of the 20th century the U.S. led the 
world in developing and implementing revolutionary water management 
systems. This occurred because of national need but was enabled by 
consistent federal funding for research that built the strongest 
network of researchers and educators in the world. Observing the 
success of this approach, other countries such as Japan, the UK, and 
France emulated this approach in the latter portion of the 20th 
century, with great success. This approach continues today, especially 
in a variety of Asian countries which have the same compelling national 
need as us and who see that federal investments in water R&D are a 
great public investment which returns itself many times over by both 
meeting critical national needs but also be creating profitable 
national and export businesses.
    The question before is us whether the U.S. is going to give up its 
leadership in this critical area and fail to live up to its potential 
to dramatically improve the quality of life in the U.S. and around the 
world. This is the path that we are on, but it can be reversed with a 
fairly modest set of actions by the Federal Government, including a 
substantial investment in R&D, that would be facilitated by this 
legislation.

                     Biography for Nancy K. Stoner
    Nancy K. Stoner is a senior attorney and the Co-Director of the 
Natural Resources Defense Council's Water Program. She has more than 
twenty years of experience using the Clean Water Act to protect rivers, 
lakes, and coastal waters from contaminated stormwater, sewer 
overflows, factory farms, and other sources of water pollution. Nancy 
is a national expert in U.S. water resource issues and is also working 
to clean up the Anacostia River in Washington, D.C.
    Ms. Stoner has been with NRDC since October 1999. From 1997-99, 
Nancy was the Director of the Office of Planning and Policy Analysis in 
U.S. EPA's Office of Enforcement and Compliance Assurance. She was a 
trial attorney at the U.S. Department of Justice's Environment & 
Natural Resources Division before that.
    She earned her J.D. from Yale University Law School in 1986 and her 
B.A. in 1982 from the University of Virginia. She is admitted to the 
bars of the District of Columbia and Maryland.

    Chair Gordon. Thank you very much, and Ms. Furstoss, you 
are recognized for five minutes.

    STATEMENT OF MS. CHRISTINE FURSTOSS, GENERAL MANAGER OF 
TECHNOLOGY, GE WATER AND PROCESS TECHNOLOGIES, GENERAL ELECTRIC 
                            COMPANY

    Ms. Furstoss. Thank you. Chair Gordon, Mr. Hall, Members of 
the Committee, it is a privilege to share with you GE's 
thoughts on the National Water Research and Development 
Initiative Act of 2009. I feel that this Act would represent a 
very positive step forward in strengthening the planning and 
implementation of water research and development across the 
Nation. The Federal Government's role in providing structure 
and oversight will help accelerate new developments in a more 
coordinated way.
    If we truly want to change how our nation thinks about 
water, Chair Gordon, as you so eloquently put it, sound 
resource water management, it is going to take a community. 
This is a community of government, National labs, academia, 
institutes, and industry working together in unison with 
prioritization, with common goals, with the ability to 
determine which technologies will be able to be implemented, 
what will be supported, and if can we work together.
    Companies like GE are investing in technology development 
for water re-use, water conservation, and water purification. 
But when you have a community that is both strong in 
cultivating and developing new ideas, and equally effective in 
achieving the end result, success is sure, is bound to be a 
sure thing.
    Giving industry the opportunity to work with academia, to 
work with institutes in a coordinated way will surely further 
this initiative. I was very excited when I read in the bill 
some of the prioritization areas, including the water census, 
including very importantly standards and methods of measuring 
water purification, an area which I feel has been ignored as we 
continue to legislate, as we continue to drive more and more 
companies, rightfully so, to re-use water, to cleanse water. It 
is very important that we understand how to measure, how to 
achieve the levels that we are asking for.
    GE is currently working on a number of different areas. For 
examples, our scientists and engineers are partnered with the 
Department of Energy to develop new technology for the 
treatment of impaired waters for industrial cooling 
applications, thus being able to use more waters in a sound 
way. The goal is to minimize water discharge and enhance water 
re-use.
    We are also working with the Department of Energy to 
optimize a system for waste water treatment, which would help 
to reduce the cost of energy for systems run by municipalities 
and industries.
    Ultimately, it is going to come down to how these 
technologies are deployed. Are they meeting the proper 
regulatory requirements? Do they measure impurities in a way 
that ensures water is safe? Are they minimizing energy usage so 
that industry can deploy these technologies in a cost-
effective, environmentally-friendly way?
    This last question is especially important. One of the 
biggest impediments to deploying new clean water technologies 
is the high cost of energy. This bill will go a tremendous way 
in helping to focus the community on those sorts of questions 
and answers.
    In closing, it makes sense to have a fully-coordinated 
strategy for addressing our nation's clean water needs, and 
this will require more direct involvement from the government 
as well as industries such as GE and our competitors. There are 
robust R&D pipelines, but there can be more. There is not a 
lack of ideas for cleaning water. It is helping to prioritize 
them and determine how can we help the universities, the small 
companies, or the large companies like mine to get them into 
the marketplace in a way that is reliable and sustainable.
    Working together with the government and other key 
stakeholders we will have the community we need to successfully 
carry out a National Clean Water Research and Development 
Initiative.
    Chair Gordon, Mr. Hall, Members of the Committee, thank you 
for the time and the opportunity to provide our comments.
    [The prepared statement of Ms. Furstoss follows:]
                Prepared Statement of Christine Furstoss

Introduction

    Chairman Gordon and Ranking Member Hall and Members of the 
Committee, it is privilege to share with you GE's thoughts on the 
``National Water Research and Development Initiative Act of 2009.''

Background

    GE is a diversified global infrastructure, finance and media 
company that provides a wide array of products to meet the world's 
essential needs. From energy, water, and transportation to health care 
and security, we deliver advanced technology solutions through a broad 
business portfolio to promote cleaner, more efficient energy 
alternatives, increase the availability of clean, safe water, improve 
access to quality health care and enhance the safety and security of 
the public at-large.
    As General Manager of Technology for GE Water & Process 
Technologies in Trevose, Pennsylvania, and as a former senior 
technology leader at GE's Global Research Center in Upstate New York, I 
know first-hand the considerable stake and investment that GE has in 
clean water research and development.
    GE Water and Process Technologies is a leading global supplier of 
water treatment, wastewater treatment and process systems solutions. 
Our treatment systems provide clean, safe drinking water to millions of 
people in water-scarce regions around the world. They also are a 
critical resource for helping industries minimize water usage in 
support of their operations.
    GE's Global Research Center, located outside of Albany, is one of 
the world's largest and most diversified industrial research labs and 
the first to be established in the U.S.
    From the light bulb, medical x-ray and the first U.S. jet engine to 
more recent product breakthroughs such as digital x-ray, the GE-90 and 
GEnx aircraft engines and the best in-class Evolution Locomotive, the 
Center has a long and proud heritage of developing the breakthrough 
technologies that enabled these revolutionary products to be introduced 
into the marketplace.
    Today, the Center has a world-class team of scientists and 
engineers working on the next generation of technology solutions to 
make water more accessible and more affordable. From reducing the cost 
of desalinated water to tap abundant saltwater resources to maximizing 
our ability to treat and re-use wastewater, we believe that technology 
holds the key to successfully addressing an increasing water scarcity 
epidemic.
    Congressman Gordon, we applaud your efforts to establish a national 
initiative focused on clean water and research development. It could 
not come at a more critical time for our nation and for the world. 
According the United Nations, 2.8 billion people around the world 
already live in water stressed regions. By 2025, this number is 
expected to nearly double to 5.3 billion--more than two-thirds of what 
the forecasted population will be at that time.
    With shifts in population and our existing water resources being 
constrained, the U.S. is feeling this impact as well. In the southwest 
U.S., freshwater aquifers have been depleting at a time when population 
in the region has been growing. In New England, groundwater 
contamination is a growing issue. At the Colorado River Basin, 
competition for water access has become a real source of political and 
economic tensions. Also, Washington D.C.'s drinking water supplies 
continue to be threatened by lead and other contaminants.

Comments and Recommendations

    ``The National Water Research and Development Initiative Act of 
2009'' would represent a positive step forward to strengthen the 
planning and implementation of water research and development across 
the Nation. The Federal Government's role in providing structure and 
oversight will help accelerate new developments in a more coordinated 
way. But beyond structure, we believe the bill should be more inclusive 
to ensure that industry has an equal seat at the table with the other 
key stakeholders.
    If we want to truly change how our nation thinks about water, it is 
going to take a community of government, the National labs, academia 
and industry working together in unison.
    Companies like GE are on the front lines of the water scarcity 
epidemic. We have a keen understanding of where the water stressed 
areas are located and the unique challenges each faces. Most 
importantly, we have product solutions in the market today and advanced 
technologies in the pipeline for tomorrow to address our nation's water 
problems.
    We understand how to industrialize research. It's part of our 
livelihood to take new technologies and find ways to commercialize them 
in the marketplace where they can add value and solve problems for our 
customers.
    When you have a community that is both strong in cultivating and 
developing new ideas and equally effective in achieving an end-result, 
success will be a sure thing. Giving industry an equal seat at the 
table will ensure that promising ideas translate into real commercial 
product solutions.
    GE knows first-hand the value that can be added when you have a 
community of government, industry, academia and other stakeholders all 
working together. It is a key foundation of our ecomagination 
initiative. Ecomagination, first launched in May of 2005, represents 
GE's commitment to drive the development of green products and 
technologies to solve the world's toughest environmental challenges.
    As part of this commitment, GE is doubling its level of investment 
in clean research and development from $700 million in 2005 to more 
than $1.5 billion by the year 2010. Since ecomagination was first 
launched, we have increased the number of green products from 17 to 
more than 60 products today. GE's success has been due, in large part, 
in our ability to coordinate with government, with our customers and 
with other industry partners to promote key technology developments.
    Included within our portfolio of ecomagination products are a dozen 
products related to water treatment and purification. And we have new 
technologies in desalination, wastewater treatment, water re-use and 
advanced membranes at GE's Global Research Center to promote new clean 
water developments for the future.
    In fact, we are currently working with the Federal Government and 
other partners on various clean water projects. For example, scientists 
and engineers at GE Global Research are partnering with the U.S. 
Department of Energy (DOE) on a project to develop new technologies for 
the treatment of impaired water for industrial cooling applications. 
The goal is minimize water discharge and enhance water re-use. We also 
are working with the DOE to optimize a system for wastewater treatment, 
which would help reduce the cost of energy for systems run by 
municipalities and various industries.
    Encouraging more water re-use through the treatment of impaired 
water and improvements to wastewater treatment systems are great 
examples of how we are developing new and better ways to clean water. 
Beyond what industries like GE are doing, we also are seeing innovative 
technology being developed by our universities and National labs to 
maximize the use of our precious water resources.
    Ultimately, it will come down to how these technologies get 
deployed. Are they meeting the proper regulatory requirements? Do they 
measure for impurities in a way that ensures water is safe? Are they 
minimizing energy usage, so that industry can deploy these technologies 
in a cost-effective, environmentally friendly way? This last question 
is especially important. One of the biggest impediments to deploying 
new clean water technologies is the high cost of energy. With GE's 
experience in designing systems, developing technologies and optimizing 
systems for minimized energy usage, this last goal is well within our 
reach. Again, that is why it will take a community.
    In closing, it makes sense that having a fully coordinated strategy 
for addressing our nation's clean water needs will require more direct 
involvement from private industries like GE. We have a robust R&D 
pipeline and a direct path to market for new solutions. Working 
together with Federal Government and the other key stakeholders, we 
will have the community we need to successfully carry out a national 
clean water research and development initiative.
    Chairman Gordon and Members of the Committee, thank you for your 
time and the opportunity to provide our comments and recommendations on 
this bill.

                    Biography for Christine Furstoss
    As General Manager of Technology for GE Water and Process 
Technologies, Christine leads approximately 350 technologists working 
on critical chemical, membrane, device and processing technologies 
aimed at providing water treatment, water re-use and efficient process 
system solutions. Her team is located across North America, Europe, and 
Asia.
    Prior to being named to this position in January 2008, Christine 
held a variety of positions in the technology organizations of GE, 
including materials engineer, product program manager, manager of 
development groups, business program manager, and global technology 
leader. She also was in a leadership position in GE's Six Sigma quality 
initiative. In addition to Water and Process Technologies, Christine 
has worked at GE Energy and GE's Corporate Global Research businesses. 
Christine likes to bring high energy, technical breadth and strong 
customer relationships to her roles to motivate and mentor others, 
build strong, integrated teams, and develop great technology!
    Christine joined GE in 1989 in the Materials and Processes 
Engineering Department of GE Energy. She received her B.S. and M.S. 
degrees in Materials Engineering from Rensselaer Polytechnic Institute 
(RPI). Christine is married and has one son.

                               Discussion

    Chair Gordon. Thank you and for all our panelists for being 
here.
    Now, at this point we will open our first round of 
questions. The Chair recognizes himself for five minutes.
    Dr. Vaux, in your testimony you indicated that the 
importance of obtaining and managing and exchanging data on 
water resources, in addition to my bill H.R. 1145, there is 
legislation pending in the House, S. 22, that authorizes 
additional funds for the USGS Stream Flow Network and for 
expanded monitoring of ground water resources. It seems to me 
that the coordination of agencies' efforts directed by H.R. 
1145 and the expansion of these two key data resources and S. 
22 are complimentary.
    Would you like to make a comment on that by virtue of the 
research you have already done?
    Dr. Vaux. Well, I would agree that they are complimentary, 
and I would agree that they ought to go forward in a fashion 
that is coordinated again and not independently so. The U.S. 
Geological Survey is the agency with the most experience in 
terms of data collection, data management, and making the data 
available to users.
    And one regrettable characteristic of our data acquisition 
program is that there has been a significant disinvestment in 
it over the last two decades. These bills with appropriate 
authorizations and follow-on funding would go some ways toward 
rectifying that disinvestment by investing further. My only 
concern is that it does not proceed independently of what you 
are trying to do, Mr. Chair.
    Chair Gordon. Thank you, Dr. Vaux. Mr. Baird or Dr. Baird 
will be very happy to know that you wanted to include the 
social sciences and the various categories.
    And you had also mentioned additional funding for the 
coordinating agency. What are you envisioning there?
    Dr. Vaux. An off-the-wall estimate would be simply $2 or $3 
million annually to support the efforts of the coordination 
effort. My experience has been or my observation has been when 
you ask the agencies to take the costs of these kinds of 
coordination efforts out of existing funds, they lack 
enthusiasm, and I think by providing a little money one would 
generate more enthusiasm to achieve the goals and objectives of 
the bill. And also there may be a need to provide some 
additional research money along the lines that Dr. Gleick 
suggested.
    Chair Gordon. Thank you. That is very good advice.
    And Mr. Modzelewski, you had mentioned that 30 to 50 
percent savings could be made in water consumption by using IT. 
That is a pretty extraordinary number. Can you go through that 
a little bit more with us?
    Mr. Modzelewski. Sure.
    Chair Gordon. Some examples.
    Mr. Modzelewski. Sure. And some said it is more, some 
certainly said it is less, but that tends to be the range. 
Really right now there is not really a common understanding of 
how to communicate water, communicate about water. Having a 
sensors' network that would be able to give us far more in-
depth understanding of the usage, matched against something 
like a census would allow us to know how much we are using, how 
much we are wasting, and to be able to address those problems 
quickly.
    You have the issues right now with say, a city like 
Chicago, where some of the estimates are that Chicago is losing 
as much as 60 percent of its water before it gets to the 
faucet. If you look at a situation like that where you had a 
smart network and smart grid in place, you would be able to 
assess where you are losing it, what the cost benefit analysis 
is of doing that, and address it. Not to mention usage that is 
going through streams as it is being used in finding beneficial 
uses along those lines.
    Right now from an IT perspective we don't, again, have 
common standards. Often where we are doing readings we have 
different systems doing different readings but yet in the exact 
same place. You can find a box in a stream that maybe five 
communities have put together various water monitoring and 
analysis systems instead of sharing that data. And the ability 
to potentially overlay a smart system where we know where it 
is, be able to speak to each other about it, and be able to 
assess how much damage is being done, how much we are losing, 
and to be able to address those at a pinpoint fashion would 
come from an IT system or, again, using a term that has become 
fanciful right now, a smart-water grid, that overlays.
    Chair Gordon. All right. So are you talking about 
implementing existing technology, or haven't you developed new 
technology?
    Mr. Modzelewski. It wouldn't really need a huge jump from 
technology we currently have available. It would certainly be a 
need to be adapted to a water system, and everyone would have 
to agree upon the measurements and what all the wording means 
and what all the reporting would mean within it. But there is 
nothing about the actual code, if you will, the actual writing 
of this that would be new. The only other thing that would be 
new is actually probably a far more intensive sensor network to 
be, actually take readings far more aggressively throughout a 
system.
    Chair Gordon. Ms. Furstoss, since you have come out of this 
division, do you have a comment on that?
    Ms. Furstoss. The idea of a smart water grid, the idea of 
being able to implement I think is a wonderful idea. It does 
provide challenges as was mentioned in the sensor technology 
and being able to have reliable data. I think the data 
management techniques, the ability to measure for water usage 
is there. The ability to easily implement it, I think, will 
take a much more-coordinated effort.
    Again, as was mentioned, how is it measured, how often, the 
standards, but I do think that the ability to measure water 
usage, the technologies do exist.
    Chair Gordon. My time has expired.
    Mr. Hall, you are recognized for five minutes.
    Mr. Hall. Thank you, Mr. Chair. Mr. Modzelewski, I 
appreciate your concern for amounts of money because that is 
something we have to take into consideration and would pass any 
bill. And it is kind of extraordinary for folks like you to 
come here that are that considerate of our problems.
    You know, we have a present President that is throwing 
money like mad, the stimulus, and the President and my friend 
that just left us is back in Dallas right now with his 
bailouts, you know, bailed $700 or $800 billion and $350 
billion of it just went completely quickly, and where it went 
we don't know or what happened to it, and all they said was uh-
oh, and we don't know, you know, about that.
    So I thank you for being that considerate. I wanted to just 
say that.
    But my question is to Mrs. Furstoss. Legislation was 
introduced and passed in the House, this Congress and last 
Congress, to explore ways to utilize and maybe treat the water 
produced from drilling for oil. That is a big problem for us, 
and we have some legislation. The Chair and this entire 
committee helped us pass those bills, knowing the importance of 
them.
    Has GE done any research in this area?
    Ms. Furstoss. Yes. We have done research and are continuing 
at the moment to do research looking at produced waters from 
the oil industry. We are working with, in addition to our 
research and development center, we are working very closely 
with some of the oil-producing companies to understand how we 
can purify the waters that are being drawn, the oily waters. 
Very difficult technology because of the temperatures that the 
waters are at, because of the consistency when the oil comes 
out of the ground with the water or the water that is used to 
help promote the drilling and really bringing up the oil.
    These waters are very oily. They have a significant amount 
of solids, they have a significant amount of contamination. 
Anything that could be in the ground is going to come up with 
the waters.
    Mr. Hall. Would you feel like they are worth the cleansing 
process?
    Ms. Furstoss. I think that for sustainability we need to. 
We need to figure out how can we clean these waters to be able 
to reduce the water usage, to be able to re-use them, but 
currently with the oil content it is very difficult. It is one 
of our main area of research right now within GE water and 
process technology.
    Mr. Hall. None of these waters have been cleaned enough to 
get to the faucet.
    Ms. Furstoss. Not to get to the----
    Mr. Hall. One of the----
    Ms. Furstoss. Yes. Not to get to the faucet to my 
knowledge. Perhaps in some isolated areas they are. Again, we 
are focusing also on being able to re-use these waters, again, 
so these operations require much less water usage.
    Mr. Hall. So they are generally relegated to re-use in the 
oil patch?
    Ms. Furstoss. Yes.
    Mr. Hall. I thank you. I yield back.
    Chair Gordon. Mr. Miller, I don't see you. Oh. Okay. I 
didn't see--okay. All right. Okay. Ms. Fudge is recognized for 
five minutes.
    Ms. Fudge. Thank you, Mr. Chair.
    I am from Cleveland, Ohio, so I live on one of the Great 
Lakes, Lake Erie. We don't have a problem with access to water. 
What I would like to know, and any of the panelists might 
answer the question for me or a number of you, but as you talk 
about the need to, for the Federal Government to provide more 
money towards water research and you talk about the smart grids 
and how we determine how much water we actually use, if we 
provide these resources and do this research, how do we then 
keep the cost of water usage down? Because in our area where we 
really don't have any problem with access to water, our water 
rates are going up significantly. I don't know if it is the 
technology to read meters. I am not sure about that, but could 
you just give me your thoughts on what we could do over time 
with the research to reduce the cost of providing clean water?
    Dr. Vaux. I will take a first cut at that. I am an 
economist, and the pricing of water is near and dear to my 
heart, and I think that the bad news from the point of view of 
your constituents is that the price of water is likely to rise 
in the coming decades, and there is virtually nothing that can 
be done to make it go down. What can be done is research that 
will attenuate the rate of increase.
    Water is now and has historically been under-priced, and 
one of the things that is going to happen as scarcity 
intensifies is that the price will rise. The price will also 
rise because the cost of securing a clean water supply that is 
safe and healthful will also rise. And I think the fact of the 
matter is that the citizens of the United States have enjoyed a 
healthful water supply for over 200 years at less than full 
cost, and that the reasonable expectation ought to be on the 
part of citizens that costs more nearly approaching the true 
cost of water are going to have to be paid in the future.
    I am sorry I can't be more optimistic.
    Dr. Gleick. If I could add two points to that. One is the 
costs are likely to go up in addition because we expect we are 
going to have to spend more money to provide clean water. That 
is a question of reliability, it is a question of availability, 
and it is a question of quality. There are new contaminants 
that we don't regulate for. There are new contaminants that we 
don't remove, and we are going to have to develop technology 
and apply technology to remove them. And that is going to cost 
more.
    On the other side, though, and some of the other speakers 
have mentioned this, there is a lot of effort going into 
figuring out how to use water more efficiency. We actually use 
less water in the United States today for everything than we 
used 20 years ago. We are becoming more efficient, and as we 
become more efficient, either in the home, through better 
appliances, or in industries with better processes, the cost of 
water can do down, the total cost of water can go down.
    So we have to match this growing cost for improved 
reliability of supply and improved quality with the potential 
to improve the efficiency and reduce our overall demand for 
water.
    Chair Gordon. Thank you, Ms. Fudge, and Mr. Rohrabacher, 
you are recognized for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chair, and 
appreciate you holding this hearing. I come from southern 
California, and we know how important water is. I am very proud 
to say that my own county, Orange County, is on the cutting 
edge of technological development, especially in reclamation of 
water and conservation of water, and I have been very 
supportive of those efforts with earmarks for my district. I 
just wanted to make sure people got that.
    And we also have supported, I have also supported efforts 
there to make sure that we have the reporting of the purity of 
the--or not the purity but the safety of the water which the 
surfers surf in and people have their children swimming in. So 
I am very proud of our local area.
    Let me note, however, just a little slight disagreement. We 
have not had 200 years of water safety in our country. Water 
was really in bad condition up until about 50 years ago. I 
remember when I was young they wouldn't let me put my finger in 
the Potomac because my fingernails would fall out, and I 
remember that song back when I was younger, maybe some of my 
colleagues remember this song. My fellow--or colleague from 
Cleveland may be too young to remember this, but it was, ``burn 
on big river, burn on.'' And so we have a lot to be proud of in 
terms of what we have accomplished for water, and I would 
support the idea of a water census to make sure that we 
understand the overall goals that we should have as a country, 
as well as standards for purity.
    I would like to ask a little bit about some of these other 
things. We do have limited resources, and I think
    Mr.--and I am--how do you pronounce your name?
    Mr. Modzelewski. Modzelewski.
    Mr. Rohrabacher. Modzelewski. Did make a point that maybe 
perhaps investment in technology might be better than just 
putting more money into research. And if you could do new 
technologies, for example, if we could make water 
desalinization a little more efficient. We do have problems in 
the, in our area with water desalinization being opposed by 
environmentalists because the little fishes might be trapped 
and then the pelican might not be able to eat the meal that day 
or something like that. We have to balance those considerations 
off; pure water versus the pelican getting his meal.
    But with that observation could you give me a little bit 
about this? Where would you put, rather than just research into 
water, where would you put the money that would actually start 
making things better? What technologies would you focus on?
    Mr. Modzelewski. Well, rather than necessarily getting 
highly specific on that, what we tend to be doing right now if 
you look at it is the technology portfolio as we tend to figure 
out tweaks. We tend to figure out how to make a little bit 
better membrane, a little bit better type of filtration.
    Mr. Rohrabacher. Yes.
    Mr. Modzelewski. A chemical that might not be as hazardous 
or a means of cutting out something in the system, and it is 
very bizarre compared to other areas of technology where you 
look at a wide range of things. Look at energy, for instance, 
where it is everything from improving how we handle oil to 
doing something like focusing solar cells to work better and 
that kind of thing. And we really don't have that in water.
    There are very few research efforts that are being done on 
mid to long-range, and that ranges from more efficient 
desalinization, which right now there is actually a new 
research effort at Yale on something called forward osmosis, 
which would be less energy intensive than reverse osmosis. 
There is a researcher out of Duke University who is actually 
using biotech techniques for purifying water so you don't have 
to use chemicals, and she is actually using RNAI to actually 
turn off the bacteria and pathogens in water rather than having 
to put chemical treatments in it that would harm, be harmful 
and need other treatments and other energy and other usages to 
get them out.
    A lot of the times what we are doing in water is we are 
actually putting bad things in. It is sort of like 
chemotherapy. You are using something horrible to try and kill 
the disease quicker than the treatment kills you.
    Mr. Rohrabacher. Well, let me note we also not only have to 
develop the technology, we have to provide our businesses with 
the incentive to actually utilize that. I visited a plant just 
two days ago in southern California where the owner of this 
very small company, you know, it was a medium-sized company, 
had invested $800,000 in a piece of equipment that purified the 
water before it went into the, you know, from the plant before 
it went into the system. That was $800,000, but the 
depreciation schedule on that was the same for anything else. 
And we have a depreciation schedule in our country that puts us 
at a disadvantage compared to the Japanese and others.
    Perhaps, Mr. Chair, we could support legislation that would 
say that for water or other environmental technologies that we 
can agree upon, that the depreciation schedule for the actual 
putting of that technology into practice at businesses, that we 
would have an advanced or a shorter depreciation schedule than 
just for other technologies. That might work very well, and 
thank you very much for this hearing.
    And if I could maybe ask on last question, maybe our last 
witness would like to answer the question about what 
technologies we should most focus on.
    Ms. Furstoss. Thank you for the opportunity. I think that 
there are a number of technologies if we step back and per your 
last comment, look at the system level and understand the total 
cost to treat of water. There is amazing work going on at 
institutes, National labs, universities. I am very aware of 
some of the work in forward osmosis and so forth.
    But I think also we need to step back and say how can we 
drive down the total energy need for water purification. There 
has been very minimal investment in energy recovery devices, in 
devices to look at how can we get more water through with less 
energy, whether it be pumps, whether it be devices that can 
take the pressure differential and turn that into energy, or 
whether it be totally new materials that allow the membranes to 
work in a totally different way.
    Mr. Rohrabacher. Thank you very much, and let me note, 
again, with an earmark I provided funds for Long Beach Water 
District to develop a new system that is 25 percent more energy 
efficient.
    Chair Gordon. Thank you, Mr. Rohrabacher. You can be on our 
next panel.
    And Ms. Edwards is recognized.
    Ms. Edwards. Thank you, Mr. Chair, and thanks to the 
panelists. It is really good to see Peter Gleick. I have read 
every one of your bi-annual water reports, so I appreciate 
meeting you.
    About 25 years ago I spent some time at the World Bank, 
really working on tracking the big infrastructure, you know, 
projects, the dam projects, et cetera, that the bank was 
funding at the time, purportedly to make sure that we had a 
world that had a clean water supply. And I don't think we are 
any closer to a clean water supply now with the expenditure of 
billions and billions of dollars across the country.
    One of the questions that I have for you and perhaps from 
Ms. Stoner as well, is to, is about what we might do in our own 
research assessment here in the United States that takes into 
consideration what the impact in the world's water supply is 
and strategies for addressing the world's water supply.
    And I think Dr. Gleick, as you pointed out a number of 
times, you know, the connection between security and water 
supply is really, it is deep. We are seeing that right here in 
our own hemisphere, and so I wonder if you might address ways 
that we can make investments in research that look at things 
like global, like climate change and its impact on water and 
the relationship between neighboring states, and our use of 
water, and if there may be things that we could explore in 
terms of strategies here in the United States that could have a 
positive impact on the world's water supply.
    Dr. Gleick. Congresswoman, thank you very much for that 
question. It is a huge question. I don't expect to be able to 
answer it fully.
    It is long past time that the U.S. reevaluated not just our 
own national water policy but our national water policy in the 
context of international water issues. We have enormous 
resources here, intellectual resources, technological 
resources, financial resources, even given the current 
financial crisis, to help address the billion people worldwide 
that don't have access to safe drinking water. I think there is 
a lot that can be done.
    In my written testimony I recommended expanding perhaps not 
this particular bill but certainly bills in Congress to address 
how the U.S. spends its money and its resources and its efforts 
at the international level as well. I think it is time for, it 
is past time for reassessment, and the good will that we could 
generate internationally with those resources is enormous.
    I am not sure it necessarily requires new technology as 
much as it may require doing more of what we do here in the 
United States in other places; rethinking how we give foreign 
aid. Instead of spending $1 billion at the World Bank on a 
water project, the World Bank and other agencies need to think 
about how to spend $1,000 in a million places. In many parts of 
the world $1,000 can be enormously effective at bringing clean 
water to schools, bringing hygiene education programs, a whole 
set of things that we really know how to do in order to solve 
world water problems but just haven't done yet.
    I would be happy to--I could go on and on about this but 
perhaps another time.
    Ms. Edwards. Thank you, and Ms. Stoner, I am curious as 
well if you could both address this and the relationship 
between what we are doing here on climate change and how that 
impacts what is happening with our water and water supply and 
particularly the management of it.
    Ms. Stoner. I appreciate the opportunity to do that. With 
respect to your first question, one thing that occurs to me is 
the development of decentralized waste water treatment 
technologies. In lots of places, other countries, they don't 
have centralized sewer systems and many, that is why many of 
the people don't have adequate sanitation, and that is, you 
know, why so many people die from drinking polluted water 
overseas.
    And we also about a third of the new buildings, new homes 
built in the United States actually use decentralized waste 
water treatment technologies, and there are lots of benefits to 
doing that in terms of hydrology and so forth, but often those 
technologies are not sufficiently advanced to address the full 
range of water quality issues. For example, nutrient pollution.
    And so if we were to develop those technologies better in 
the United States, we would have markets overseas that we could 
use those for. So we could sort of take advantage of the fact 
that they are looking at those technologies as a resource for 
them as well. So that would be one idea and an area that I 
would like to see research into advanced decentralized waste 
water treatment technologies in the U.S.
    As far as climate change goes, I think that we have a lot 
of good information on impacts of climate change on water 
resources that I referenced in my technology, in my testimony, 
but a lot of it is at a global level. The models are not 
particularly precise as they bring it down to the community 
level where decisions need to be made about infrastructure 
investments and so forth. So that is one area.
    A second area would be in how to adapt to those changes, 
how to have more resilient water resources in the face of 
climate change. That is a new area of research that I would 
urge us to invest in.
    Chair Gordon. Ms. Stoner, if you don't mind, we will let 
you provide the rest of that for the record, because we have a 
lot of folks here, and we would like to try to get them through 
their questions today, too.
    Ms. Stoner. I would be glad to do so.
    Chair Gordon. I will be neutrally discourteous to everybody 
as we try to move a little bit faster.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chair. I'm from Nebraska 
certainly water is important and the economics of water, 
irrigation, municipal and otherwise.
    I know that there is huge costs with many things, but Dr. 
Vaux, if you could elaborate when you say that the price of 
water has not been accurate regarding the cost. What do you 
think has been left out?
    Dr. Vaux. We talk about both urban users and agricultural 
users who typically pay the cost of capturing, transporting, 
and treating the water but not the scarcity value of the water. 
In other words, typically in the United States the scarcity 
value of water is assigned at zero, and the mistake that that 
entails is that it signals to consumers that water is 
plentifully available when all of us know that it isn't.
    So it is the failure of our water pricing structure to 
reflect the scarcity value which is what is missing.
    Mr. Smith. What value would you add to that?
    Dr. Vaux. What would the scarcity value be? It would be 
very location specific. Generally speaking what our studies 
show is that the scarcity value of water, of urban quality, 
would be higher than the scarcity value of water for 
agriculture because it has to be treated to such a high degree, 
and it is, therefore, scarcer, therefore, the price is higher.
    Mr. Smith. But is there a percentage that you would offer?
    Dr. Vaux. No. I am very reluctant to generalize about it 
because it is going to differ as between Orange County and New 
Jersey or Orange County and New York City. I am very reluctant 
to generalize because I think it is going to be a different 
value depending upon where you are.
    Mr. Smith. Okay. Would you agree that many advancements 
have been made, for example, in irrigation techniques, no-till 
farming, and other efforts?
    Dr. Vaux. Absolutely. Absolutely. I mean, agriculture is as 
a generalization a more efficient user of water today than it 
was a decade ago or two decades ago, and I anticipate that it 
will become an even more efficient user of water in the future 
as the competition increases and as farmers figure out ways to 
be more innovative managers of water.
    Mr. Smith. I appreciate that. I concur with that. Just the 
observations, rather anecdotal on my part, I am very impressed 
with the advancements that have been made just with irrigation 
practices alone, not to mention other crop rotation and what 
have you.
    So I appreciate that. I am encouraged and inspired by what 
we can still accomplish, and I appreciate your efforts. Thank 
you. I yield back.
    Chair Gordon. Thank you, Mr. Smith.
    Mr. Tonko, I am not picking on you, but if there is no 
objections, I would like for folks to try to maybe keep it to 
four minutes rather than five minutes so that we can, again, 
try to let everybody have a chance. So, Mr. Tonko, you are 
recognized.
    Mr. Tonko. Thank you, Mr. Chair. I am sorry. My question is 
to Ms. Furstoss.
    As one who represents Schenectady and a lot of GE activity, 
I am interested in the fact that you mentioned being a leader, 
GE being a leading supplier for water treatment, waste water 
treatment, process system solutions. Where are these deliveries 
being made? What countries are we reaching? Is it spread across 
the globe? Is there a concentration in a certain region?
    Ms. Furstoss. It truly is global. We have a significant 
portion of our sales, and I apologize, I don't know the exact 
number but can provide that, in North America, in the United 
States, specifically in the central region, where there is a 
majority of heavy industry, and we look to help them on water 
usage, to minimize their water usage, to purify the waters that 
are used in everything from steel melting to plastic injection 
molding, to help them to purify those waters so they can be 
safety discharged. We do have a large presence also in the 
Canadian areas, and we are global.
    So I believe that the majority is in North America, but I 
would have to be able to get you that exact figure.
    Mr. Tonko. And also I would ask like I believe that the 
President and Congress recently with the passage of the 
Investment and Recovery Act showed great wisdom in investing in 
pure R&D, clean R&D.
    Ms. Furstoss. Yes.
    Mr. Tonko. Can you share with you, you doubled, I believe, 
more than doubled in the last five years at GE----
    Ms. Furstoss. We have more than----
    Mr. Tonko.--investment.
    Ms. Furstoss. Yeah. We have more than doubled our 
investment in what we use as the phrase, eco-imagination. So 
clean technologies, technologies that are focused at energy 
efficiency, at cleaner water. We have doubled that investment 
too, as a company to over 1.5 billion, and we currently have 
over a dozen products in that portfolio that are directly aimed 
at clean water.
    Mr. Tonko. So in terms of the investment in R&D what 
percentage would water be? How--can you guess of the 1.5?
    Ms. Furstoss. It is a very small percentage at this point. 
I, again, don't know the exact number, but it is more on the 
order of about 50 million.
    Mr. Tonko. Would you happen to know how much of all of the 
clean R&D is done here in the United States?
    Ms. Furstoss. The technology development, the R&D done by 
General Electric is done, the vast majority in the United 
States. Well over three quarters.
    Mr. Tonko. Thank you. Mr. Chair, I will yield back my time.
    Chair Gordon. Thank you. And Mr. Inglis is recognized.
    Mr. Inglis. Thank you, Mr. Chair. We in South Carolina are 
becoming more and more acquainted with water shortages with a 
drought and before that we had been, especially in the lower 
part of the state, starting to experience some salt water 
intrusion into the aquifers that we were gathering a lot of 
water for places like Hilton Head's development. And so now in 
the upstate of South Carolina we are becoming more and more 
aware of just how precious the resource is, in part because 
Georgia wants water out of the Chattooga, and so they had a 
little problem down in Atlanta, and I guess that is why they 
want more water out of the Chattooga.
    So the folks at the Strom Thurmond Institute at Clemson are 
looking at preparing a water budget for the state, and I wonder 
if you might comment on whether this bill would, that we are 
discussing here today, would be helpful in that regard, or is 
it, is that a local matter, or is this something that may be 
assisted through this bill?
    Maybe I should ask the Chair about that, but it is a panel. 
The Chair might have an answer. He will yield himself some time 
maybe to answer the question, but anybody on the panel want to 
address local water budgets and whether those might be assisted 
by this bill?
    Dr. Gleick. I will be happy to answer quickly. In general 
water is often a very local issue. If the local expertise is 
available to evaluate the hydrology, to look at the resources 
that are there, to look at water use, do it locally.
    But we need a national assessment everywhere. You don't, 
you are not the only ones with these kinds of problems. These 
kinds of problems are coming up everywhere, even places we 
thought water was plentiful, we realized it no longer is. And 
so we need a comprehensive assessment of water use and water 
availability nationwide, which is what the census calls for.
    The other problem is the political boundaries we have 
rarely match the hydrologic boundaries we have. We have 
watersheds that permit conflicts to arise between Georgia, 
Alabama, and Florida, or Georgia and South Carolina, or Georgia 
and--I am not picking on Georgia. But the hydrologic boundaries 
we have and the political boundaries don't match. And that is 
another reason why it might be useful to get away from local 
assessments to national assessments that really do these kinds 
of things at the watershed boundary so we understand the 
hydrology and then perhaps we combine it with the politics.
    Mr. Inglis. Anyone else want to comment on that?
    Mr. Modzelewski. Actually I will just pick up on that. It 
is, one, it is the actual bodies of water, for instance, in the 
sense of a watershed that you have to look at something like an 
aquifer system in the southwest. It tends to go over many 
states with a level of covenance between them, but they tend to 
have very different laws on how that is operated on. You have a 
riparian system, you have hybrid systems, et cetera, and what 
that really gets down to is each state that is drawing from the 
water has a very different idea of what appropriate use is and 
how to assign that use to people.
    And so the water, as the water moves through that watershed 
you have very different usage levels, very different sense of 
security in the sense of health issues and things along those 
lines. Until a lot of that is understood or codified or 
standardized, you are going to continue to have conflict as 
well.
    Mr. Inglis. Yeah. I suppose one of the outcomes of 
developing a budget or a comprehensive kind of approach like we 
are talking about here would be mostly, well, one of the key 
outcomes would be valuing water highly, and that means not 
wasting it. Right? Which is probably what all of us do a lot. 
So that will be one of the outcomes of this.
    Thank you, Mr. Chair.
    Chair Gordon. Thank you, Mr. Inglis. And there has been a 
couple of members of the panel that have suggested universities 
should be a part of this, and we will look at that if we could 
do it in some way.
    Ms. Kosmas is recognized for five minutes or less.
    Ms. Kosmas. Thank you, Mr. Chair. I think it will be less. 
I want to say that I appreciate the panel's being here today 
and also appreciate this bill that you are moving forward.
    I wanted to ask this question of Ms. Stoner. You stated in 
your testimony that the 1972 Clean Water Act authorized $100 
million in research and that in the '80s, research and 
development was systematically reduced as it was argued that 
the private sector would pick up the slack. In fact, in '84, 
President Reagan stated that it was time for the states and 
private industry to take over the job.
    So my question would be, how has the private sector fared 
in shouldering this burden without significant federal 
assistance?
    Ms. Stoner. Thank you. I noticed that my colleagues had 
some different estimates in terms of the R&D spending over the 
timeframe, so I don't know if we had looked at different types 
of investments or not, but I did notice that they indicated 
that they also thought additional investment was needed, but 
that they didn't think that the absolute number had decreased. 
So I call that to your attention.
    You know, I think that if we had the right markets and 
could help particularly bridge the gaps through a federal 
investment between the development of the technologies and 
their implementation, I think that would help a lot to trigger 
private investment. So the social science research that we 
mentioned earlier identifying how to make the investment 
smarter on a watershed basis so that every dollar is expended 
better and that public support is developed by showing what the 
value of the investments are.
    I think that the needs are out there, so what we need to do 
is to link up the needs with the development of the new 
technologies and bridge those two.
    Ms. Kosmas. Okay. Thank you. And so I guess the bottom-line 
question is do you think that additional federal funding needs 
to be placed in research and development, or do you think then 
that the private sector is doing its share to bridge the gaps 
that you have just described?
    Ms. Stoner. Well, I agree with my colleague, Dr. Gleick, 
that there are things that are done better at the federal 
level.
    Ms. Kosmas. Yes.
    Ms. Stoner. Even though everyone is interested in their own 
local water body, if you don't assess how things can be done on 
a watershed basis and look at a broad, from a broader scope, I 
think you miss synergies also, looking at the energy water 
nexus, other ways of evaluating investments in water that can 
also help with energy, climate change, even air pollution. I 
think those are often things that we miss that can help save 
money in the long run, provide better environmental benefits, 
and provide markets for industry.
    Ms. Kosmas. Thank you very much. I yield back my time, Mr. 
Chair.
    Chair Gordon. Thank you. Since Mr. Rohrabacher double-
dipped last time I am sure he would like to yield to Ms. 
Dahlkemper.
    Mr. Rohrabacher. I would be very happy to, and I apologize 
for hogging that extra minute, knowing we are under a schedule 
problem.
    Ms. Dahlkemper. Thank you, Mr. Chair, and thank you, Mr. 
Rohrabacher. I appreciate this hearing very timely. I, like Ms. 
Fudge, live also on Lake Erie. I am just a little bit further 
to the east in Pennsylvania. Abundance of water. Waste of water 
I would say for many, many years. My neighbors sometimes clean 
their driveways with the hose for over half an hour, and they 
will leave their sprinklers on all night long. So, yeah, we see 
a Great Lake out there, and people don't think about the impact 
that their use is having.
    And so I guess what my question is when it comes to water 
use, you know, what segments of water do you see cause the most 
concern in terms of water use? How would population growth and 
migration impact such water use over time?
    Of course, we think we will become the place where everyone 
wants to live eventually because we have water. But--and also I 
guess tied into that, what portion of the present use or the 
present water waste could be resolved by reasonable household 
conservation?
    And so I guess I just open this up to whoever would like to 
answer.
    Dr. Gleick. Let me take a first crack at that. I would note 
that of all the people who are most concerned about your 
neighbors' use of water and looking out over the Great Lakes 
are probably the Canadians----
    Ms. Dahlkemper. Yes.
    Dr. Gleick.--who worry quite a bit about that, and I know 
there is a new agreement between the U.S. and the Canadians on 
the Great Lakes.
    At the Pacific Institute we have done a lot of work at, on 
this question, specifically on water use efficiency. The quick 
answer is our estimate is that current urban use of water could 
easily be reduced by 30 or 35 percent from today's level with 
existing technology cost effectively. Better toilets, better 
washing machines, better dishwashers, more effective and 
efficient outdoor watering. In many parts of the country 
outdoor watering is the majority of residential use. Better 
industrial use. Thirty to 35 percent.
    In the agricultural sector as we have already heard 
enormous progress has been made, but enormous progress remains 
to be made. We did an estimate for California looking at the 
potential of a five to fifteen percent improvement in 
agricultural water use efficiency, permitting us to grow the 
same amount of food with less water.
    And because agriculture consumes 80 percent of the water 
that is consumed in the U.S., that small percentage of 
improvement is a lot of water. So the potential for efficiency 
improvements is enormous.
    Ms. Dahlkemper. Would anyone else like to comment?
    Dr. Vaux. Let me make one comment about the water quality 
and the preservation of water quality. There has been a lot of 
discussion here about the role of technology and about the 
importance of technology. The missing point has been this one. 
Virtually every economic study shows that it is cheaper to 
prevent water contamination in the first place than it is to 
clean it up once it has occurred.
    And in seeking a balanced approach to our water quality 
problems, which will be important in terms of determining how 
much water supply is available, it will be critical to 
recognize that prevention must play an important role.
    Dr. Gleick. And one thing on the technology front as far as 
that goes is we have to start looking at just our use of water 
differently. I mean, the driveway analogy is a great one. You 
didn't need the top-quality water from the house that was all 
clean and went through all the systems to treat that. If we 
started looking at how we develop technologies where we can re-
use and create gray water within our own homes or within 
neighborhoods or within cities and use another quality of water 
to handle things like watering lawns and cleaning cars and 
things along those lines, we would make a great jump in being 
able to preserve water. And there are other countries who have 
been very aggressive at that; the Israelis, the Swiss, 
Singaporeans have all moved very aggressively on water re-use.
    Ms. Dahlkemper. Thank you. I yield back my time.
    Chair Gordon. Thank you, Ms. Dahlkemper. Okay. Mr. Hall 
passes so Mr. Lujan, you are recognized for five minutes or for 
four minutes.
    Mr. Lujan. Thank you, Mr. Chair. I won't take much time. 
Thank you to each of you who are here today. I know that there 
are at least a few of you who have a lot of familiarity with 
New Mexico and some of the work that has been happening out 
there, and so I would like to, you know, pose my question 
specifically to you.
    With the creation of the Water Resource Research Institutes 
in each of our states and territories across the country, 
specifically the work that is being done in New Mexico or in 
different regions of the country, the importance of supporting 
those institutes, if you could explain that.
    But as well is there coordination that is taking place with 
our universities, our local governments, with those that 
oversee, you know, state engineers that oversee small public 
water utilities as an example, coordination with the League of 
Cities and the National Association of Counties? What 
specifically is working there, and is this a good place to 
target some of the support when we are talking about the 
importance of looking at how we can maximize and localize the 
research and to be able to get the data that we need to be able 
to make good decisions?
    Dr. Vaux. I have been associated with that program in one 
way or another since 1965, and I think the program does not get 
very substantial level of funding, about $6 million annually. 
What it is doing most effectively right now is the 
communications task and keeping the water resources expertise 
at all the colleges and universities in each state knit 
together in ways that I think the Chair envisions for his bill 
here in the Federal Government.
    The research budget is, of course, starved, so that the 
communications task is the primary one that the institutes are 
executing effectively. Not only within the states as I just 
described but among the states because there isn't a national 
association. An institute needs State and the trust territories 
and those people communicate with each other, and there is now 
an annual three-year review of those programs which generates a 
lot of information about what they are contributing.
    So I and my testimony indicates that I think the institute 
program is a useful way to fold in the academic community to 
this initiative and ensure that the portfolio which is out of 
balance with respect to short-term and long-term research gets 
rebalanced, because the academic community is really in a 
better position to do the long-term research.
    Chair Gordon. Mr. Lujan, would you yield to Ms. Giffords 
for our last question, and then we, by House rules, are going 
to have to end this hearing.
    Ms. Giffords. Thank you, Mr. Chair. Thank you for coming to 
testify. I just said earlier this morning in a speech that I 
think the future wars will be fought not over oil but over 
water, and this is a very serious topic, and I am glad that the 
Chair is addressing this.
    Generally, like Mr. Lujan, I come from the west, the State 
of Arizona. We have a booming population. In terms of a 
national water policy, we are, I am not interested in moving to 
Ms. Dahlkemper's district. Those of us that want to stay in the 
west, that like the southwest, realize that we are going to 
have to have different policies that affect us compared to 
different states.
    So, you know, could members of the panel talk about how we 
implement a national water policy when the west is going to be 
disproportionally affected because of climate change?.
    Dr. Gleick. There are things that we have to do at the 
national level, and there are things we have to do at the local 
or regional level. Certainly better management of water in the 
west when you talk about an Integrated Colorado River System, 
for example, which affects Arizona enormously, is a regional 
issue with national pieces to it. But we don't want 50 state 
standards for water quality. We don't want 50 state standards 
for the efficiency of appliances. So the important thing to do 
here, and I think one of the important things this bill tries 
to address, is to decide what needs to be done at the national 
level and to do it as efficiently as possible, to integrate the 
research across the 25 or so federal agencies that do research 
in an appropriate way, and to leave the rest of the stuff for 
the local level and the State level.
    There are things that the western U.S. is going to have to 
do on its own. There are things that the U.S. Government ought 
to do differently in the west as well. It depends on the issue, 
depends on the region. But I think that separation is critical.
    Chair Gordon. Thank you very much. The joint session is 
just about to begin, so I want to thank our witnesses for 
appearing before the Committee this morning. The record will 
remain open for two weeks for additional statements from the 
Members and for answers to all the follow-up questions the 
Committee may ask of the witnesses. You can see this is an 
issue of interest.
    And this committee is now adjourned.
    [Whereupon, at 10:59 a.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Henry Vaux, Jr., Professor Emeritus, University of 
        California, Berkeley; Associate Vice President Emeritus, 
        University of California System

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. Vaux, you contend that the problems associated with the 
current state of federal water research are NOT due to funding, but 
rather a lack of coordination and strategy. If such coordination and 
strategies were instituted, could we get the water research information 
for less than the $700 million we currently spend?

A1. Current levels of spending--$700 million in constant 2000 dollars--
is identical to what the Nation spent on water research in the early 
1970s. Given that the magnitude of our water problems is much greater 
now than it was then, it is hard to argue that we should spend less 
than $700 million. The point that I was trying to make is that the need 
for coordination and a strategic approach is greater than the need for 
additional dollars. Elsewhere in my testimony I suggested that perhaps 
an additional $70 million for water research be authorized to provide 
appropriate incentives for the coordinating and strategic actions that 
are envisioned in the bill.

Q2.  If the interagency committee authorized in the Act is so similar 
to the Water Resources Council authorized by the 1965 Act, how do we 
prevent the same ineffective outcomes and turf battles between agencies 
as we saw in the Council?

A2. As I suggested in my testimony, it might make sense to authorize an 
additional $70 million in appropriations to support additional research 
under the coordinating and strategic activities promoted by the bill. 
This would give the agencies an incentive to improve coordination and 
strategic planning rather than to continue bickering and turf 
protecting.

Q3.  You made several suggestions on the section of the legislation 
that outlines the National Water Availability Research and Assessment 
Plan Outcomes. Given your suggestions, should these outcomes be 
determined by the interagency committee instead of being explicitly 
outlined in the legislation?

A3. The two additional outcomes identified in my testimony should be 
included in the legislative language (or as a last resort, in the 
Committee Report). Research in the social sciences related to water 
have been neglected for the last two decades, Such neglect is likely to 
continue in the absence of Congressional prodding. Research on the 
implications of climate change is simply so important that it needs to 
be mentioned.

Q4.  Are the four broad themes you list in your testimony the only 
modern themes appropriate for federal water research? Can traditional 
research approaches be used in addition to these frameworks? Are there 
likely to be any more themes identified in the future?

A4. Traditional approaches can be used but they should explicitly 
acknowledge and consider modern themes, including the four identified 
in my testimony. It is possible, of course, that new themes will emerge 
with time.

Questions submitted by Representative Bob Inglis

Q1.  Witnesses in our previous hearing state that the improved 
horizontal cooperation among federal agencies should also be coupled 
with vertical coordination at the State, regional and local levels.

Q1a.  Would you recommend that this vertical integration be a part of 
the research strategy? Or would you be concerned that this could bog 
down the effort?

A1a. Vertical integration should be included and acknowledged. It is 
clear, however, that the states, regions and localities are unable to 
support much water research financially. Therefore, they should be 
included in strategic discussions and research agenda setting 
activities as stakeholders. Ultimately, the financial decisions should 
be made by those who pay.

Q1b.  Should the coordination of local and State resources be underway 
before the federal agency coordination in order to better determine the 
structure that responds to the needs of the State and local resources?

A1b. State and local activities are never going to be very well 
coordinated in the absence of leadership at the federal level. 
Leadership at the federal level should acknowledge the importance of 
State and local contributions and incorporate State and local views in 
strategic research planning.

Q2.  You state in your written testimony that Water Resources Research 
Institutes are uniquely situated to assist in the National Water 
Initiative. Do you think that these Institutes should continue under 
their existing mandate as authorized in the Water Resources Research 
Act? Or should their role be expanded under this Initiative due to your 
national reach and State focus?

A2. The significant potential of the Water Resources Research 
Institutes has not been realized in nearly three decades. The 
Institutes are uniquely situated to bring the views and priorities of 
states, regions and localities to bear on an integrated national 
initiative to identify a strategic research agenda. The Institutes are 
also well-situated to bring the considerable research capability of the 
Nation's universities and colleges to bear on the research itself. I 
would suggest that the role of the Institutes be expanded to involve 
them in national agenda setting and in the execution of long-term water 
research and whatever applied research might be appropriately assigned 
to the academic community.
    I would emphasize that the Institutes have a strong record in 
education and public communication about water resources. The fact that 
the Institutes are situated in the U.S. Geologic Survey adds additional 
strength inasmuch as the Survey as extensive education and 
communication programs itself in all of the States and trust 
territories. As one of the two largest water research agencies 
programmatically and in terms of funding makes the combined education 
and communication activities of the Institutes and the Geological 
Survey the strongest available nationally.

Questions submitted by Representative Adrian Smith

Q1.  Would a top-down research agenda meet the needs of local water 
demands? Or, would any research agenda need to be an amalgamation of a 
bottom-up and top-down approach? How would that work?

A1. The research agenda setting would need to be an amalgamation of 
both approaches. One way to ensure that such a approach will work is to 
give states, regions and localities as will as the academic research 
community places as significant stakeholders in the agenda setting 
process. All water problems are inherently local or regional so it 
would be very important to do this.

Questions submitted by Representative Dana Rohrabacher

Q1.  Dr. Vaux, in your testimony you state that there is virtually no 
possibility that water supplies in the future can be made to grow. What 
about technological advancements that allow for previously unusable 
water to be cleaned up and available for new use? Isn't the purpose of 
treating ocean water or brackish water to make it available for some 
future use?

A1. Virtually all of our water supplies are already allocated as among 
municipal, industrial, agricultural and environmental uses. This means 
that there is virtually no surplus that can be allocated to new and 
growing uses. It means that we need to look to reallocation mechanisms 
to ensure that new and growing uses can be served. It is true, as you 
suggest, that wastewater treatment technologies and desalination 
technologies can make additional supplies available. The former do this 
by recycling water that has already been allocated and used while the 
latter truly do bring new water supplies to the scene. The difficulties 
with ocean water desalination have been detailed in a recent report 
from the National Research Council. The two most important potential 
difficulties are the environmental implications of brine water disposal 
and the fact that the technologies are very expenses in comparison with 
the costs of most existing supplies. The fact that desalination and 
wastewater treatment technologies are energy intensive is also cause 
for concern, given that energy prices are likely to rise in the future.
                   Answers to Post-Hearing Questions
Responses by Peter H. Gleick, Co-Founder and President, The Pacific 
        Institute for Studies in Development, Environment, and 
        Security, Oakland, California

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. Gleick, as you may be aware, Dr. Vaux has commented that the 
problems arising from the current state of federal water research are 
due to coordination and strategy issues, and that the level of funding 
is not inadequate. How do you reconcile his position with your 
statement that the federal priorities have already been outlined and 
all we need is the funding and the effort to do the research?

A1. I believe that the lack of coordination among federal agencies on 
water research is well documented and I strongly support improving that 
coordination. I also believe that several very valuable federal 
assessments have been done on federal priorities, including the SWAQ, 
GAO, and National Academy studies. This in no way contradicts Dr. 
Vaux's position, but rather supplements it. Moreover, there is no 
federal funding, or inadequate federal funding, to support all of the 
recommendations in these studies, which suggests the need for 
additional financial support, or at a minimum, a re-allocation among 
priorities.

Q2.  Witnesses in our previous hearing states that the improved 
horizontal cooperation among federal agencies should also be coupled 
with vertical coordination at the State, regional and local levels.

Q2a.  Would you recommend that this vertical integration be a part of 
the research strategy? Or would you be concerned that this could bog 
down the effort?

A2a. I believe this could be a valuable effort, but it must be 
carefully done to avoid duplication of effort and the appropriate 
allocation of cost and responsibility to the appropriate agencies.

Q2b.  Should the coordination of local and State resources be underway 
before the federal agency coordination in order to better determine the 
structure that responds to the needs of the State and local resources?

A2b. I have no strong opinion about how such coordination would be most 
effectively accomplished.

Q3.  Please share any concerns you might have about the advisory board 
that the legislation includes. Would this serve the purpose you 
mentioned in your testimony about bringing outside water experts to the 
table? Why or why not?

A3. I would prefer to see outside water experts directly involved, 
rather than just as an ``advisory board.'' My experience is that such 
boards are often either never consulted, or ignored.

Q4.  One of the recommendations in your testimony is that if there is 
to be a National Water Census it should include comprehensive 
information on water use. Why do you feel such information is vital? Do 
you think such information might lead to restrictions on uses of water?

A4. This is indeed vital: without good information on how we use water 
and what we do with it, it is impossible to formulate good water 
policy. In fact, I believe such information would help reduce the risk 
that there will be inappropriate ``restrictions on water use.'' The 
more we know about how we use water, the more likely it is that we will 
properly prioritize in times of shortage.

Q5.  With the recent passage of the American Recovery and Reinvestment 
Act of 2009 along with the Omnibus and the President's budget, do you 
still fill that new money is necessary for the establishment of a 
coordinating body for national water research? Do you still believe 
that agency budgets remain underfunded and therefore agencies will be 
against diverting funds to a separate interagency committee?

A5. The ARRA of 2009 will only help this problem if (a) agencies choose 
to divert funds committed for other purposes or (b) separate funds are 
specified by Congress. I do not know whether agencies will divert funds 
to the purpose of coordinating national water programs.

Questions submitted by Representative Bob Inglis

Q1.  Your testimony calls for any research on the implications of 
climate change to include ``appropriate strategies for adapting to 
those climate impacts that may be unavoidable.'' Is there currently 
research being done in this area? Which agency would you task with such 
research and how much funding would you dedicate to such research?

A1. In a memo I prepared for the Administration's transition team, I 
recommended an annual budget of only $1 million to conduct a 
comprehensive analysis of climate impact and adaptation, but this must 
be a regular budget for an ongoing program. Such as assessment could be 
done, or at least coordinated, by OSTP or CEQ.

Q2.  Dr. Gleick, you mentioned in your testimony that ``many of our 
water problems are local, and must be resolved at the local and 
regional level.'' Back in my home State of South Carolina, the Strom 
Thurmond Institute is prepared to launch a complete water budget 
analysis of the Upstate of South Carolina. The goal of their efforts is 
to create an analysis prediction tool that will assist people like us 
in understanding the availability of water currently and in the future 
so that local, regional, and federal officials can make better planning 
decisions.

Q2a.  Will H.R. 1145 support these types of regional and local efforts?

A2a. I do not know; I believe that local assessments should be 
conducted locally, perhaps with some federal funds to permit diverse 
local assessments to contribute to a national assessment, such as 
recommended in the Census provisions of H.R. 1145.

Q2b.  Are there changes we could make to improve the bill in this area?

A2b. No answer given.

Questions submitted by Representative Adrian Smith

Q1.  In your testimony you include several suggestions for improving 
H.R. 1145 as introduced. You indicate that you do not endorse the idea 
of a new interagency committee but instead would rather see an 
expansion of the Subcommittee on Water Quality and Availability, which 
would include outside agency experts.

Q1a.  Why do you believe a new committee is unnecessary?

A1a. I believe SWAQ has excellent representation of diverse federal 
agencies; their work has been valuable. Why reinvent the wheel, so to 
speak. The flaw of SWAQ is the lack of outside (non-federal agency) 
representation.

Q1b.  Which outside water experts would you include and how would you 
ensure against conflicts of interest?

A1b. A range of other interests, from research groups, to academics, to 
business groups, to consumer groups, to environmental groups all have 
interests in national water challenges. Standard methods are available 
to prevent conflict of interest.

Q2.  Why do you feel that establishment of a National Water Board is 
more effective at addressing water issues than the entity proposed in 
the bill?

A2. I do not know if it would be more effective. I am arguing, however, 
that the entity proposed in the bill would not address as broad a set 
of problem as a National Commission/Board might be.

Questions submitted by Representative Dana Rohrabacher

Q1.  In your testimony, you state that we do not need a new committee 
to lay out the priorities because the priorities have already been 
established by several other reports.

Q1a.  Do all the reports share the same opinion about what goals need 
to be accomplished and how to best achieve those goals? If not, where 
do they differ and how would you choose which priorities and methods 
were correct?

A1a. There has been remarkably unanimity about the major goals that 
should be tackled. Where there are differences, the Committee can 
choose how to move forward.

Q1b.  Is the technology readily available to accomplish these goals or 
will that require additional research?

A1b. I believe our problem is not lack of technology, for the most 
part. Even with desalination, the National Academy concluded that 
improvements in environmental protection and economics were more 
critical to the success of desalination than improvements in 
technology.
                   Answers to Post-Hearing Questions
Responses by F. Mark Modzelewski, Executive Director, Water Innovations 
        Alliance

Questions submitted by Representative Ralph M. Hall

Q1.  You reference in your testimony utilizing the 21st Century 
Nanotechnology Research and Development Act as a model for interagency 
coordination and public private collaboration on key water technology 
issues. Which elements of the Act do you see as particularly useful in 
addressing key water technology issues?

A1. The National Nanotechnology Initiative (NNI) and its enabling 
legislation positioned the United States as the leader in 
nanotechnology research and development, and kicked off a global 
nanotechnology race. The NNI has been emulated both within the Federal 
Government and in foreign countries that wish to compete with the 
United States. The most useful elements of the bill included the 
following:

        <bullet>  The establishment of the National Nanotechnology 
        Coordination Office, with a director and full-time staff, to 
        ensure that the NNI ran smoothly;

        <bullet>  The active involvement of the business and academic 
        sectors;

        <bullet>  The focus on translational research and applications 
        (including outreach to start-up companies);

        <bullet>  A broad advisory panel that could provide insightful 
        real-world feedback;

        <bullet>  External review;

        <bullet>  The creation of nanotechnology centers throughout the 
        Nation; and

        <bullet>  Adequate funding.

    Finally, although it may seem like a small matter, the symbolism 
involved in a bill that called for ``ensuring United States global 
leadership in the development and application of nanotechnology'' was 
vital. In addition, a large part of the success of the NNI has been due 
to dynamic leadership, something that can't easily be initiated via 
legislative language.

Q2.  Do you regard the investment made by GE in water R&D and 
technological development in the same light as your testimony generally 
states about corporate investment in R&D? Would you consider GE to be a 
leader, the average, or one of those who don't ``put their money where 
their mouth is'' corporations compared with other companies you are 
familiar with?

A2. While I cannot speak definitively about internal GE programs, as an 
outside observer it appears that GE is indeed spending a great deal on 
clean-tech research. However, very little of this appears to be for the 
water category. This is likely due to a few factors. First, GE is new 
to water. They only developed GE Water within the past decade, and that 
division of the company is made up of many recently acquired assets. 
Hence creating a business and culture around these new pieces has 
clearly been--and should be--``Job One.'' I would expect GE's 
investment in water innovation to increase significantly over the 
coming years. Second, the water field as a whole is not very 
innovative, as was repeatedly noted during the hearing. It is focused 
on incremental improvements to pipes, pumps, filters and chemicals, 
rather than large-scale, game-changing innovations. There are 
individual professors at UT, MIT and elsewhere with more patents than 
the world's largest water company, Suez. While there are innovative 
start-ups, mid-sized firms, and even municipal water departments, out 
of the large industry players only Siemens has put a premium on 
developing innovation. Ultimately it would be difficult to point to any 
company as a great role model for innovation and technology development 
in the water industry.

Q3.  In your testimony you stress that nearly all research has been 
focused on little tweaks to make current water processes and 
technologies marginally cleaner and more energy efficient without 
exploring game-changing approaches. Could you please provide us with 
some examples of potential game changing approaches and what elements 
including funding would permit them to develop into common practice?

A3. My vocation in life is as an entrepreneur and investor. I spent the 
past three years looking for a water technology worth developing and 
investing in at university and government labs across America and 
across the world for that matter. I can honestly say I was horrified by 
the utter lack of innovation in this critical field. This finding was a 
key factor that led a group of us to form the Water Innovations 
Alliance.
    I can say without hesitation that Australia, Israel, and Singapore 
are attacking water technology at a rate far surpassing the U.S., as 
are others. The reason is that the U.S. not only lacks research funding 
at the corporate and government level, but also that to date it has 
found other ways of addressing any disasters when they happen. Other 
nations have felt the impact of global water issues sooner. In 
addition, water research in the U.S. is still done by environmental 
engineers and materials scientists working independently, rather than 
as part of cross-disciplinary efforts with biologists, physicists, and 
others.
    That point made, the following are examples of potentially game-
changing innovation:

Forward Osmosis: FO is an osmotic process that, like reverse osmosis, 
uses a semi-permeable membrane to effect separation of water from 
dissolved solutes. The driving force for this separation is an osmotic 
pressure gradient, such that a ``draw'' solution of high concentration 
(relative to that of the feed solution), is used to induce a net flow 
of water through the membrane into the draw solution, thus effectively 
separating the feed water from its solutes. In contrast, the reverse 
osmosis process uses hydraulic pressure as the driving force for 
separation, which serves to counteract the osmotic pressure gradient 
that would otherwise favor water flux from the permeate to the feed. 
The creation of hydraulic pressure for RO requires a lot of energy and 
accounts for about 50 percent of the cost of RO desalination.

RNAi Water Purification: Disclosure, I am assisting the researcher of 
this technology in her efforts to further develop and commercialize it 
some day. Dr. Claudia Gunsch at Duke University is truly one of our 
nation's brightest young researchers. She has little experience setting 
up a company and getting funding or executives in place so I am working 
with her to make this happen as I find her discovery to be nothing 
short of extraordinary. What Dr. Gunsch has done is use RNAi, a biotech 
technique that won the Nobel Prize a few years back, to silence the 
genes in bacteria, viruses and algae in water. What she has effectively 
done is create a ``green'' biocide--no chemicals or extensive energy 
usage.
    The issue with both of these innovative technologies is difficulty 
getting funding to advance them from lab to marketplace. For instance, 
the RNAi research falls between the gaps of biotechnology research and 
environmental engineering. Because grants are awarded through a peer 
review system of leading specialists, and because neither 
biotechnologists nor environmental engineers understand the effort 
enough, the technology has difficulty attracting grant funding. The 
technology is early, so its difficult to get the private sector 
(especially in this economy) involved. These factors could in fact doom 
research in what many people believe to be the most ground-breaking 
discovery in the field in more than 50 years.

Q4.  Is there any movement in the industry to create common IT 
standards? Many of these types of standards have, in the past, come 
from industry collaboration or cooperation; however you suggest that it 
be coordinated by the government? Does the fact that this effort is not 
currently being driven by industry suggest that information technology 
as a tool to monitor and manage is still a nascent concept to those in 
water management?

A4. There was been an organizing effort over the past year lead by IBM, 
SAP, several NGOs and municipal water organizations. It is at a very 
early stage and the Water Innovations Alliance is taking over managing 
this effort this quarter.
    Unlike many other areas in IT, water is closely tied to government. 
From quality standards to municipal waste management, to public lands 
and waterways, government is in charge of the sector. In addition, such 
oversight cuts across Federal, State and local government regimes as 
well as different agencies--even foreign treaties come into play.
    Because of this, while I would note that the government does not 
necessarily have the expertise to develop the standards, government 
needs to be involved front and center. Government also can provide 
incentives to cooperate, which are needed here--as is the government's 
ability to bring people to the table.
    It is my recommendation that the federal water initiative group 
that this legislation develops quickly convenes a working group on 
water IT and that it bring to the table IT leaders, as well as 
traditional water industry players, municipalities, NGOs and of course 
State, federal and government leaders. The group needs to develop a 
scope, measurable goals and timelines for the creation of a common 
standards, measures and reporting using existing infrastructure 
capabilities and lay out a plan for developing out new measurement and 
monitoring systems and linking them together to essentially create a 
national water smart grid.

Q5.  The concept of a national ``smart water grid'' is mentioned in 
your testimony. Could you be more specific about just what such a 
``grid'' would encompass?

A5. I will note that while many people in the water field agree on the 
need to create a water IT system for better management, there are many 
different ideas as to what it means to have a smart grid in place, and 
my vision is merely one of many. In general, everyone agrees that an 
enterprise IT system can help to manage the water supply & demand 
equation (on a local level) because the smart grid sees the whole 
picture of water availability and water demand--including how it 
relates to energy (NOTE: approximately 35 percent of a typical 
municipality's energy budget is allocated to municipal water use and 
treatment--and many times more than this in a place like Los Angeles). 
This implies the need to be able to prioritize and optimize the 
multiple demands (and even to potentially automate some of the 
decisions related to demand). It also implies that information about a 
water system is available, is shared openly and can be analyzed to look 
for patterns. Once we see patterns, we can use the data to look for 
similar trends and create some predictive capability, which means 
potential problems can be anticipated, and maybe even eliminated in 
some cases.
    A smart water grid should have the ability to understand and manage 
an entire water system. At a micro level it would enable managers to 
know the quality, usage levels, breaches, and discharges in clean and 
wastewater running through pipes in a city. At a macro level it would 
allow for modeling against the weather, or for better energy savings in 
processing waste water, or how drought in a watershed two states away 
is affecting river water and what that will ultimately mean for a 
city's water quality, use and even energy production.
    We already have all the technology in place to create a smart water 
grid. What we don't have is a common standard of evaluation or 
reporting. Nor do we have the data-collecting nodes in all the places 
we need them to feed data into systems (EX: a sensor system through out 
a municipal system of pipes). Additional research would be needed to do 
justice to any fiscal estimates.

Questions submitted by Representative Bob Inglis

Q1.  You suggest that a new generation of water monitoring techniques 
and technologies be developed to assist with the creation of a National 
Water Census database. Are you aware of any techniques or technologies 
being developed in other countries that could be readily adopted in the 
U.S. to speed up such an assessment?

A1. Singapore, Israel and Switzerland all have superior systems in 
place when it comes to monitoring, regulating and managing water. None 
of them has a cohesive smart water grid, but they are moving towards 
it.
    For instance Singapore requires the re-use of wastewater. This 
obviously is a tricky business where by constant and accurate quality 
monitoring is needed through a greater system, not just at the plant 
level. In addition Singapore ``imports'' water from Malaysia and that 
effort also requires very specific monitoring to manage cost 
effectively and ensure treaty compliance and ensure human health. To 
make this effort more robust and increase management capabilities, 
Singapore has contracted with MIT for a bold new international research 
program led by MIT's Professor Andrew Whittle that involves several 
dozen researchers from MIT and two Singaporean universities. These 
researchers are developing pervasive environmental sensor networks to 
collect data on water quality from many sources, and use these data to 
provide accurate, real-time monitoring, modeling and control of the 
environment.

Questions submitted by Representative Adrian Smith

Q1.  How does the Water Innovations Alliance work with large scale 
industrial and agricultural users of water? For example, does the Water 
Innovations Alliance work with energy producers, goods manufacturers, 
farmers and ranchers to develop water use and efficiency strategies?

A1. The Water Innovations Alliance is a young organization having 
formed in Q3 2008. We are continuing to refine our mission all the time 
in order to bring real change and innovation to the water sector via 
education, creative partnerships, information gathering, working to 
reduce regulatory barriers to innovation, increasing collaboration and 
raising awareness for cutting-edge water technologies and the problems 
they solve.
    The Alliance serves the entire spectrum of the water sector: 
corporations, investors, engineering firms, start-ups, NGOs, research 
centers, municipalities, and others in the field. Our first big 
initiatives are pushing awareness around the importance of water IT, 
ensuring that research efforts increase around energy efficient 
desalination, and gathering data on where cutting edge water research 
is being done, by whom and linking it to where it is most needed.
    We are looking to tie together working groups and consortiums 
around these issues that will indeed bring together all key 
stakeholders from industrial and agriculture interests, to technology 
providers, invests, NGOs and government as well as users.

Questions submitted by Representative Dana Rohrabacher

Q1.  How would the research centers you advocate in your testimony 
differ from the Water Resources Research Institutes that exist in every 
state and territories? Would the work be so different that we couldn't 
just use the current institutional infrastructure to conduct this 
research? Why should NSF be the agency in charge of these centers as 
opposed to another agency?

A1. The Water Resources Research Institutes program has been a fine 
program. The issue is they tackle a narrow set of tasks much to the 
mission of USGS, such as the environmental monitoring of rivers, 
streams and coastal systems. These Centers have not been places for 
developing technologies for consumer, municipal, agricultural and 
industrial systems--the engineering and management issues if you will. 
For instance they don't work on water filtration systems, the 
membranes, the engineering, or the energy usage methods. For those 
efforts you have just a few water technology research centers, such as 
UC-Irvine, UCLA, CO School of Mines, and the NSF center at U. IL. These 
technology centers are frankly not very well funded when compared to 
other scientific research efforts--especially given the stakes and the 
impact. The NSF Center, in addition, will be sunsetting in just a 
couple of years.

Q2.  I am intrigued by your concept of a National Water Pilot Testing 
Facility.

Q2a.  Do you believe a facility like this would have encouraged faster 
adoption of water technologies than was achieved through local 
ordinances?

Q2b.  Could you provide the Committee with examples of the regulatory 
barriers that hinder innovation and testing of new solutions for the 
water industry?

A2a,b. Yes, mainly because there are so many overlapping jurisdictions 
in water. For example, San Francisco Bay has water regulations from all 
the towns on the Bay, those affected by its waters, a dozen federal and 
State agencies, and special water districts, not to mention issues 
where activists involve the courts. Any attempt to try a new 
purification system technology in say Oakland would lead to years (a 
decade is a reasonable estimate) of paperwork and untold costs with no 
budget to speak of to tackle these burdens. It puts systems in a 
position to always use old ways that are ``good enough.'' And is a big 
reason while a huge number are out of compliance with current federal 
standards.
    Because water has so many human safety impacts, a new technology 
essentially has to be proven before being tested--a paradox that nearly 
eradicates the ability to try any game-changing technologies. Instead, 
municipalities and the companies they contract with make only minor 
tweaks or face the impossible task of getting permission to try the new 
innovation.
    A pilot facility would allow for the testing of drinking and 
wastewater systems that used new methodologies as well as ones that 
allowed for energy savings. It would also allow for simulation of 
multiple conditions and factors so as to ensure human health and 
compliance with federal and State/local regulations.
    In addition, if managed properly, such a facility could indeed 
become self-sustaining financially by charging reasonable fees to 
corporate users.

Q2c.  Could you provide the Committee with examples of the regulatory 
barriers that hinder innovation and testing of new solutions for the 
water industry?

A2c. It is not a case of a single regulation as much as the number of 
regulatory bodies and the different standards for evaluation, 
reporting, compliance and permitting procedures that each jurisdiction 
requires. Some jurisdictions have rules for stormwater, septic tanks, 
nutrients, fertilizer, pet waste, and so on. Others do not. So it's the 
bureaucracy more than this regulatory verbiage versus the next one.
                   Answers to Post-Hearing Questions
Responses by Nancy K. Stoner, Co-Director, Water Program, Natural 
        Resources Defense Council (NRDC)

Questions submitted by Representative Ralph M. Hall

Q1.  Ms. Stoner, you mention in your testimony that many of the 
negative changes to our water are a result of ill-conceived 
agricultural, land development, and energy practices. Is the move 
towards biofuels contributing to these negative impacts to water?

A1. In part to help combat dangerous global warming, policy-makers in 
recent years have become more interested in increasing the degree to 
which U.S. consumers rely upon renewable fuels for their motor 
vehicles. However, policies that simply encourage the use of more 
biofuels such as ethanol from corn could result in an increase in the 
size of the dead zone, because corn cultivation typically involves 
larger amounts of fertilizer than other crops. Experts expect rapid 
growth in grain-based ethanol production in the coming years; this 
potentially will have major implications for the dead zone, unless 
there is a significantly greater focus on conservation practices in 
agriculture in general and the performance of biofuels production 
specifically.
    Corn prices have increased dramatically, driven by energy prices, 
growing international demand, and increasing demand for ethanol. Not 
surprisingly, as prices have gone up, so has the number of acres in 
corn production: ``Corn acreage in the United States rose to nearly 93 
million acres in 2007 (a 17 percent increase), a level not seen since 
1944.'' According to the Renewable Fuels Association, the trade group 
for the ethanol industry, ``ethanol soared to 6.5 billion gallons in 
2007, a 32 percent increase from the 4.9 billion gallons produced in 
2006.'' Looking forward, the Association estimates that the industry's 
production capacity will rise from 7.8 billion gallons in 2007 to 13 
billion gallons once the biorefineries currently being constructed or 
expanded come online. The vast majority of this new ethanol production 
is likely to come from corn.
    Legislation also drives increased corn ethanol production. The 
Energy Independence and Security Act of 2007 will greatly expand 
biofuels production; it sets a target of at least 36 billion gallons of 
biofuels per year by 2022. Although the law states that a minimum of 21 
billion gallons must be ``advanced'' (derived from plants' cellulosic 
material rather than corn grain, for instance), it still leaves room 
for at least 15 billion gallons of corn-based ethanol that year. This 
law does include important minimum global warming pollution standards 
and land use safeguards, but it does not explicitly require better 
fertilizer management or overall water quality or quantity performance 
improvements.
    Last October the National Research Council issued a report titled 
``Water Implications of Biofuels Production in the United States.'' 
This review makes it clear that, without additional safeguards, 
increased biofuels production can be expected to increase water 
pollution from agriculture and intensify many regional and local water 
shortages. It reaffirms that ``[e]xpansion of ethanol production . . . 
will drive increased corn production until marketable future 
alternatives are developed.'' The report even addressed the particular 
concern of the dead zone:

         All else being equal, the conversion of other crops or non-
        crop plants to corn will likely lead to much higher application 
        rates of nitrogen. Given the correlation of nitrogen 
        application rates to stream concentrations of total nitrogen, 
        and of the latter to the increase in hypoxia in the Nation's 
        water bodies, the potential for additional corn-based ethanol 
        production to increase the extent of these hypoxic regions is 
        considerable.

    A recent scientific review reached a similar conclusion. To roughly 
estimate the scale of increased nutrient loading associated with 
ethanol production, the EPA Science Advisory Board used predicted corn 
acreage increases in the next several years and estimated that the 
cultivation of the corn could lead to the increased runoff of 238 
million pounds of nitrogen per year in the Mississippi River Basin.
    These outcomes are not inevitable. Addressing water pollution and 
consumption should be integrated into policies and programs that 
promote biofuels production, such as tax credits and other incentives. 
In particular, management practices that help reduce nutrient pollution 
should be part of a suite of minimum standards applicable to energy 
crop producers. (For NRDC's roadmap to responsible biofuels production, 
see Getting Biofuels Right: Eight Steps for Reaping Real Environmental 
Benefits From Biofuels, available online at www.nrdc.org/air/
transportation/biofuels/right.pdf.) More generally, as pressure builds 
on farmers and foresters to increase output and cut costs, farm bill 
programs to promote soil, water, and wildlife conservation need to grow 
dramatically larger and more effective.

Q2.  Ms. Stoner, in your testimony, you suggest that EPA should be 
appropriated $100 million at a minimum to stimulate both R&D and 
demonstration projects and that another $100 million be appropriated to 
be split among the Departments of Agriculture, Commerce, Defense, 
Energy, HHS, HUD, Interior and Transportation for innovative water 
management research.

        a.  Why do you believe that this funding approach will assist 
        the U.S. in tackling its many water problems?

        b.  Do you believe that EPA is the most qualified to conduct 
        R&D and demonstration projects?

        c.  How does this compare with other issues in which EPA 
        participates in a multi-agency research effort?

A2. My recommendation is that EPA should be funded to do R&D and 
demonstration projects for water, stormwater, and wastewater 
infrastructure, including the integration of these types of 
infrastructure, because EPA has ultimate authority for those systems 
under the Clean Water Act and would best be able to integrate the 
results of such demonstration projects into existing programs. There is 
a tremendous need for innovation in water-related services delivery. 
Most treatment technologies current in use in the U.S. were developed 
in the early 20th century and are no longer adequate for today's 
population or for the stressors affecting water resources today, 
including climate change. The systems themselves are also based on 
antiquated once-through treatment notions and are inconsistent with 
current thinking about maintaining and restoring hydrology. There 
should be funding for other agencies' research as well, however, to 
focus on the particular ways in which the activities they regulate 
affect and are affected by water resources. I know that EPA 
participates in other multi-agency research efforts, but am not 
familiar with the structure of those efforts myself.

Q3.  Your testimony did not include a separate recommendation for 
funding for USGS to conduct the two main water-quality monitoring 
programs it is responsible for. What would be an appropriate funding 
level for those programs?

A3. The most recent information I have been able to find suggests a 
need for a $70 million budget for NAWQA and a $30 million budget for 
the USGS toxics program. The $70 million is essential to restore long-
term trend monitoring at river and stream sites. A letter that NRDC 
recently sent to Congress on the NAWQA budget is attached. This is one 
of the most important projects of NAWQA since most monitoring is not 
long-term and is not systematic enough to provide trend data. 
Similarly, $30 million are needed for the Toxics program to regain the 
strength that it reached in the 1990s. The program investigates 
emerging issues and develops the methods and protocols for sampling and 
analysis for chemicals as they come into use. The program is essential 
to developing the data to investigate new issues and problems that are 
uncovered. I urge you to provide sufficient funding that NAWQA can 
continue both surface and groundwater trend data for as many monitoring 
stations as it has.

Q4.  You mention intense rain events not being of help but rather 
delivering too much water at once. How can we adapt and manage intense 
rain events so as to capture the water for a beneficial purpose? What 
technologies and tools could be developed to farther such a goal?

A4. I recently testified in House Transportation and Infrastructure's 
Subcommittee on Water Resources and Environment concerning ``Efforts to 
Address Urban Stormwater Runoff.'' I have attached excerpts from my 
testimony, which provide a detailed response to your question about 
strategies for managing rainfall.

Background

    Many communities, ranging from highly developed cities to newly 
developing towns, are looking for ways to assure that their rivers, 
streams, lakes, and estuaries are protected from the impacts of 
urbanization and climate change. Traditional development practices 
cover large areas of the ground with impervious surfaces such as roads, 
driveways, and buildings. Once such development occurs, rainwater 
cannot infiltrate into the ground, but rather runs off site at levels 
that are much higher than would naturally occur. The collective force 
of all such rainwater scours streams, erodes stream banks, and causes 
large quantities of sediment and other pollutants to enter the 
waterbody each time it rains.
    The last few decades of wet weather management have resulted in the 
current convention of control and treatment, strategies that are 
largely hard infrastructure engineered, end-of-pipe, and site-focused 
practices concerned primarily with peak flow rate and suspended solids 
concentrations and other pollutant control. Conventional practices, 
however, fail to address the widespread and cumulative hydrologic 
modifications within the watershed, including increased stormwater 
volumes and runoff rates, excessive erosion and stream channel 
degradation, and decreased groundwater recharge.
    While this approach works to drain each site, continued expansion 
of dispersed, low-density developments over the past years means that 
too much water, carrying too much pollution, is flowing into waterways. 
The results are poor water quality, especially at drain outlets, and a 
dramatic drop in the refill rate of aquifers and streams. The 20 
regions in the country that developed the most land over the period 
1982 to 1997 now lose between 300 and 690 billion gallons of water 
annually that would otherwise have filtered through the Earth and been 
captured as groundwater.\1\
---------------------------------------------------------------------------
    \1\ American Rivers, NRDC, and Smart Growth America, Paving Our Way 
to Water Shortages: How Sprawl Aggravates The Effects of Drought (Smart 
Growth America: 2002).
---------------------------------------------------------------------------
    In addition to the problems caused by stormwater and non-point 
source runoff, many older cities (including many of the largest cities 
in the United States), have combined sewage and stormwater pipes which 
periodically and in some cases frequently overflow due to precipitation 
events. In the late 20th century, most cities that attempted to reduce 
sewer overflows did so by separating combined sewers, expanding 
treatment capacity or storage within the sewer system, or by replacing 
broken or decaying pipes. However, these traditional practices can be 
enormously expensive and take decades to implement. Moreover, piped 
stormwater and combined sewer overflows (``CSOs'') may also in some 
cases have the adverse effects of upsetting the hydrological balance by 
moving water out of the watershed, thus bypassing local streams and 
groundwater. Many of these events also have adverse impacts and costs 
on source water for municipal drinking water utilities.
    Climate change is already stressing aquatic ecosystems, 
infrastructure, and water supplies. While impacts vary regionally, in 
much of the U.S., more frequent heavy rainfall events overload the 
capacity of sewer systems and water and wastewater treatment plants, as 
well as result in more stormwater runoff, exacerbating water pollution 
from sediments, nutrients, pathogens, pesticides, and other pollutants. 
In addition, decreased summer precipitation and other changes to the 
volume and timing of flows reduce stored water in reservoirs and reduce 
groundwater levels. Sea-level rise will adversely affect groundwater by 
causing an increase in the intrusion of salt water into coastal 
aquifers. All of these impacts will make less freshwater available for 
human use.
    To ameliorate these problems, a set of techniques, approaches and 
practices can be used to eliminate or reduce the amount of water and 
pollutants that run off a site and ultimately are discharged into 
adjacent waterbodies. We refer to these collectively as ``green 
infrastructure.'' As cities move towards sustainable infrastructure, 
green infrastructure can be a valuable approach.
    ``Green infrastructure'' is a relatively new and flexible term, and 
it has been used differently in different contexts. Thus, to date, 
there is no universally established definition of the term. For 
example, some writers have defined it broadly as ``an interconnected 
system of natural areas and other open spaces that conserves natural 
ecosystem values and functions, sustains clean air and water, and 
provides a wide array of benefits to people and wildlife.'' \2\ The 
Green Infrastructure Statement of Intent signed by U.S. EPA, NRDC, the 
Low Impact Development Center, the National Association of Clean Water 
Agencies (NACWA) and the Association of State and Interstate Water 
Pollution Control Administrators (ASWIPCA) uses the term ``green 
infrastructure'' to generally refer to systems and practices that use 
or mimic natural processes to infiltrate, evapotranspirate (the return 
of water to the atmosphere either through evaporation or by plants), or 
re-use stormwater or runoff on the site where it is generated.\3\
---------------------------------------------------------------------------
    \2\ Benedict and McMahon, Green Infrastructure (2006).
    \3\ http://cfpub.epa.gov/npdes/greeninfrastructure/gisupport.cfm

What Is Green Infrastructure?

    Green infrastructure involves management approaches and 
technologies that utilize, enhance and/or mimic the natural hydrologic 
cycle processes of infiltration, evapotranspiration and re-use. Green 
infrastructure is the use of soil, trees, vegetation, and wetlands and 
open space (either preserved or created) in urban areas to capture rain 
while enhancing wastewater and stormwater treatment. Green 
infrastructure approaches currently in use include green roofs, trees 
and tree boxes, rain gardens, vegetated swales, pocket wetlands, 
infiltration planters, porous and permeable pavements, vegetated median 
strips, reforestation/revegetation, and protection and enhancement of 
riparian buffers and floodplains. Green infrastructure can be used 
almost anywhere soil and vegetation can be harnessed or worked into the 
urban or suburban landscape. Green infrastructure also includes 
decentralized rainwater harvesting approaches, such as the use of rain 
barrels and cisterns to capture and re-use rainfall for watering plants 
or flushing toilets. These approaches can be used to keep rainwater out 
of the sewer system so that it does not contribute to a sewer overflow 
and also to reduce the amount of untreated runoff discharging to 
surface waters. Green infrastructure also allows stormwater to be 
absorbed and cleansed by soil and vegetation and either re-used or 
allowed to flow back into groundwater or surface water resources.

Green Infrastructure Benefits\4\
---------------------------------------------------------------------------

    \4\ http://www.nrdc.org/water/pollution/rooftops/contents.asp
---------------------------------------------------------------------------
    Green infrastructure has a number of environmental and economic 
benefits in addition to reducing sewer overflows and stormwater 
discharges, including:

        <bullet>  Cleaner Water--Vegetation, green space and water re-
        use reduce the volumes of stormwater runoff and, in combined 
        systems, the volume of combined sewer overflows, as well as 
        reduce concentrations of pollutants in those discharges.

        <bullet>  Enhanced Water Supplies--Most green infiltration 
        approaches involve allowing stormwater to percolate through the 
        soil where it recharges the groundwater and the base flow for 
        streams, thus ensuring adequate water supplies for humans and 
        more stable aquatic ecosystems. In addition, capturing and 
        using stormwater conserves water supplies.

        <bullet>  Reduced fooding--Green infrastructure both controls 
        surface flooding and stabilizes the hydrology so that peak 
        stream flows are reduced.

        <bullet>  Cleaner Air--Trees and vegetation improve air quality 
        by filtering many airborne pollutants and can help reduce the 
        amount of respiratory illness. Green infrastructure approaches 
        that facilitate shorter commute distances and the ability to 
        walk to destinations also reduce vehicle emissions.

        <bullet>  Reduced Urban Temperatures--Summer city temperatures 
        can average 10<SUP>+</SUP>F higher than nearby suburban 
        temperatures. High temperatures are also linked to higher 
        ground level ozone concentrations. Vegetation creates shade, 
        reduces the amount of heat absorbing materials and emits water 
        vapor--all of which cool hot air. Limiting impervious surface, 
        using light colored impervious surfaces (e.g., porous 
        concrete), and vegetating roofs also mitigate urban 
        temperatures.

        <bullet>  Moderated Impacts of Climate Change--Climate change 
        impacts and effects vary regionally, but green infrastructure 
        techniques provide adaptation benefits for a wide array of 
        circumstances, by conserving and re-using water, promoting 
        groundwater recharge, reducing surface water discharges that 
        could contribute to flooding. In addition, there are mitigation 
        benefits such as reduced energy demands and carbon 
        sequestration by vegetation.

        <bullet>  Increased Energy Efficiency--Green space helps lower 
        ambient temperatures and, when incorporated on and around 
        buildings, helps shade and insulate buildings from wide 
        temperature swings, decreasing the energy needed for heating 
        and cooling. Also energy use associated with pumping and 
        treating is reduced as stormwater is diverted from wastewater 
        collection, conveyance and treatment systems. Energy efficiency 
        not only reduces costs, but also reduces generation of 
        greenhouse gases.

        <bullet>  Source Water Protection--Green infrastructure 
        practices provide pollutant removal benefits, thereby providing 
        some protection for both ground water and surface water sources 
        of drinking water. In addition, green infrastructure provides 
        groundwater recharge benefits by putting stormwater back into 
        the ground and enhances surface water quality by redirecting 
        the high volume and velocity flows that scour streams and muddy 
        drinking water sources.

        <bullet>  Wildlife Habitat--Stream buffers, wetlands, parks, 
        meadows, green roofs, and rain gardens increase biodiversity 
        within the urban environment.

        <bullet>  Community Benefits--Trees and plants improve urban 
        aesthetics and community livability by providing recreational 
        and wildlife areas. Studies show that property values are 
        higher, homes, sells faster, and crime is reduced when trees 
        and other vegetation are present.

        <bullet>  Health Benefits--Studies show that people who have 
        access to green infrastructure in their communities get more 
        exercise, live longer, and report better health in general. 
        Exposure to green infrastructure (even through a window) 
        improves mental functioning, reduces stress, and reduces 
        recovery time from surgery.

        <bullet>  Green Jobs--Designing, installing, and maintaining 
        green infrastructure creates new jobs for architects, 
        designers, engineers, construction workers, maintenance 
        workers, plumbers, landscapers, nurseries, etc.

        <bullet>  Cost Savings--Green infrastructure saves capital 
        costs associated with paving, curb and gutter, building large 
        collection and conveyance systems, and digging big tunnels and 
        centralized stormwater ponds; operations and maintenance 
        expenses for treatment plants, pumping stations, pipes, and 
        other hard infrastructure; energy costs for pumping water 
        around; cost of treatment during wet weather; and costs of 
        repairing the damage caused by stormwater, such as streambank 
        restoration.

    In terms of the technologies and tools that need to be developed, 
there are several very important areas for federal investment in my 
view. First, I'd suggest funding watershed, sub-watershed, or sewershed 
level investment in green infrastructure with monitoring to evaluate 
results. Most of the performance data is at the site level, not 
aggregated at the watershed or sewershed level. There are models 
available to predict results in an aggregated fashion, but those models 
need both refinement and validation with actual monitoring results. 
Second, we need investment in alternative ways to use water. All water 
is valuable. None of it is really ``wastewater,'' as it has been called 
in the past, but waters of differing qualities are needed for different 
uses. More research is needed into the alternative methods of 
delivering water for beneficial use/re-use. and the associated risks 
and environmental and economic benefits (hydrology, cost savings, 
energy, greenhouse gas emissions, etc.) that can be achieved.

Questions by Representative Bob Inglis

Q1.  Based on our experiences in the last l0 years or so, there is a 
growing concern about the effectiveness of interagency collaborative 
efforts. Although some have been successful situations such as the one 
we have been witnessing in the multi-agency satellite programs with 
NOAA, Air Force and NASA had made us a little wary of such endeavors. 
Does the NRDC have any recommendations that would help us strengthen 
this legislation such that the National Water Research initiative does 
not devolve into another turf war?

A1. Legislating culture is very difficult as your question suggests. I 
would urge you to consider structures that enable agencies to advocate 
for good research topics and specific projects irrespective of whether 
they are housed in that agency. My understanding is that DOD and the VA 
have a Joint Incentive Fund that follows this approach. Each agency 
contributes a specified amount of funding to the joint fund each year, 
then a committee consisting of members of both agencies select the 
projects to be funded. While nothing is perfect, a similar structure 
would be beneficial in providing agency representatives with incentives 
to think big picture about what research is really needed. Another 
possibility would be to have a standing Federal Advisory Committee to 
provide recommendations to the Federal Government about research needs.

Q2.  Do you believe that the Office of Science and Technology Policy is 
best suited to lead this interagency effort or would another agency, 
such as EPA, be better situated based on their past work in water 
research?

A2. It is preferable to have the White House chair an interagency 
effort such as this one to provide oversight and management. Either CEQ 
or OST could provide such oversight, and I am not sure which would be 
better in thisinstance.
                   Answers to Post-Hearing Questions
Responses by Christine Furstoss, General Manager of Technology, GE 
        Water and Process Technologies, General Electric Company

Questions submitted by Representative Ralph M. Hall

Q1.  Ms. Furstoss, we have heard in previous hearings that water-
related R&D can lead to new opportunities for U.S. companies instead of 
foreign ones.

Q1a.  Would you regard this as an accurate statement?

A1a. Yes.

Q1b.  Would foreign companies' access to U.S. research through 
databases such as RADIUS negate this advantage?

A1b. My personal opinion is that there can be many levels of databases. 
While a community of global innovators should have access to 
fundamental information to promote sharing and collaboration, access to 
databases containing detailed information on U.S. research and 
development priorities and results does have the potential to reduce 
domestic competitiveness. By knowing specifics behind what is being 
worked, and, very importantly, what areas may not be competitive and/or 
what major issues are in approaches, then an open database containing 
that information would allow any company to know where they can focus 
and who the major players are.

Q1c.  Do you gain new opportunities by research conducted in other 
countries, such as Israel?

A1c. GE believes, that when appropriate, partnering with organizations 
that are leaders in technology is beneficial to both sides. When 
countries, either through initiatives, incentives, or priorities, 
encourages research of its companies, research institutes and 
universities to be focused in a particular area, then it is natural 
that the likelihood of increased innovation and breakthrough technology 
is increased. We have seen such an example in Israel, where many small 
companies have made large strides in thinking about water treatment and 
re-use in new ways. Interactions with such companies have been 
beneficial, not only from a potential partnership opportunity, but also 
in making us think differently about approaches.

Q1d.  In GE's experience, how would you define the efforts of other 
industrialized countries in the area of water research?

A1d. In my experience and knowledge, efforts of other industrialized 
countries in water research is by-and-large in its infancy relative to 
other technical fields. While some countries such as Singapore, Israel, 
western Canada and various entities across the Middle East have made 
water research a priority, others are still looking to universities, 
research organizations and private industry to lead the charge. I have 
not encountered any entities that have discouraged this area of 
research; it is more a matter of priority and focus to drive rapid 
advancement. That is why I am encouraged by this bill, and the 
discussion of including multiple types of organizations to participate 
as part of it. In that way, a community with shared goals and 
priorities, as well as increased sharing and speed of discovery will 
emerge.

Q1e.  Does GE participate in collaborative efforts with either foreign 
companies or other governments in order to develop the appropriate or 
necessary water research? How about for development of technologies?

A1e. GE has participated in efforts ranging from advisory discussions 
on broad councils sponsored by governments, to partnering with 
government agencies and country university systems on water treatment 
research and technology development. GE Water is also working with 
several large multinational companies to help address water issues and 
reduce their water footprint; one example is GE's relationship with 
ConocoPhillips in developing a Water Sustainability Center in Doha, 
Qatar. Similarly, we have relationships with major corporate multi-
nationals in the food processing area, and large power companies where 
we are working to reduce their water consumption and help re-use their 
waste water.

Q2.  How would you address the assertion by Mr. Modzelewski that 
corporate R&D investment is low despite the importance of water to 
life?

A2. I would agree with that statement, but have been encouraged over 
the past year in the attention being paid in this area. There are many 
small companies and start-up companies that have good ideas to help 
reduce the cost of water treatment, and treat more water problems.

Q3.  The legislation before us today calls for an establishment of an 
interagency committee as well as an advisory board to such committee to 
work on water resource issues including technology and research. What 
role would you envision for the private sector in working with these 
entities? How would an Interagency Committee use the knowledge and 
expertise residing in American industry groups and non-governmental 
organizations?

A3. These groups should be smaller and focused on the task at-hand. If 
the panels become too large, they can have difficulty rapidly 
developing and deploying technology. Industry focuses on the ``voice of 
the customer'' every day, understanding how to bring technology to the 
market effectively and efficiently.

Q4.  The legislation includes an advisory board for the interagency 
committee on water resources. Who would you recommend be included on 
such a board?

A4. In addition to government officials, industry groups and academia, 
I would recommend a Chief Technology Officer from industry, as well as 
industry representatives who are used to rapidly developing and 
deploying technology.

Q5.  There has been a great deal of discussion in the past few years 
regarding effects of climate change on water supplies. Is GE exploring 
any adaptation strategies to address these effects?

A5. GE is investing in technologies that will assist in water-stressed 
areas, such as brackish water treatment/desalination and advanced 
technologies to enable significant increases in water re-use and 
recycling.

Q6.  What improvements could be made to this legislation to ensure it 
results in the research and development necessary for technology 
development? What areas of water R&D are most in need of further 
attention that would allow industry to develop new types of 
technologies? Are there any technology pathways right now that are 
closed off due to the lack of basic R&D?

A6. In my opinion, there are several companies with good viable 
products that can help reduce the cost of water treatment. These 
companies can make impact on energy costs, operational costs, and 
capital costs. The risk and cost to bring a technology from lab to 
industrial application can be very prohibitive. I feel that government 
support or center(s) that focused on scale-up of technologies and field 
testing with representative water chemistries, flows and variability 
would greatly enhance the state of the industry development. While 
difficult to single out any one technology area most in need or closed 
off, the difficulty in taking innovations from lab to application is 
currently a bottleneck in fast-tracking the application of novel 
technologies.

Q7.  Has GE done any comprehensive mapping of available water resources 
in the U.S. or other countries?

A7. GE has contributed to, and utilized, water availability and quality 
maps that have been produced and published by global research and 
consulting entities. We have not done exhaustive mapping on our own.

Questions submitted by Representative Adrian Smith

Q1.  How much interaction does GE have with local and regional managers 
and decision-makers? Has this type of interaction driven technology 
development to address particular concerns?

A1. I believe that we have a great deal of interaction; we have been 
working with local and regional decision-makers at the State level on a 
state-by-state basis, as well as regional water authorities. GE 
believes that this type of engagement is essential to understanding the 
types of challenges that communities are facing across the Nation. GE 
is also open to working with communities to collaboratively develop 
solutions that meet both their treatment and cost needs. Collaborations 
that we have with entities such as New Mexico State University, which 
is intimately tied to many decision-makers, are key to both our 
understanding of not only the needs, but how communities need to make 
decisions (their drivers, priorities, and critically, their 
``boundaries''--what they can and can't do and afford). This greatly 
helps us prioritize and more fully understand technology needs.

Questions submitted by Representative Dana Rohrabacher

Q1.  In your testimony, you indicate that GE scientists and researchers 
have been at the forefront of developing many new technologies in the 
areas of water conservation and use as well as a number of other areas. 
What incentives exist for GE to continue to explore these areas? Are 
there any additional incentives you believe would encourage companies 
to explore these areas?

A1. As regulations on water quality, discharge and re-use emerge, GE 
feels that being able to provide a portfolio of solutions for customers 
to choose from to meet their complex needs is a sound strategy. To my 
knowledge, there are no direct incentives directly related to 
technology investment. There are multiple funding agencies with water 
programs, and GE is participating in a few of them. These programs 
greatly help us accelerate our activities, as well as explore more 
approaches and areas. Going forward, in my opinion, having a more 
unified set of priorities across agencies with larger programs 
available for participation, will allow more companies to participate, 
or participate at an enhanced level, for they will understand how these 
activities fit into policy and future directions. I also personally 
feel that having more focus on industry standards on measurements for 
regulatory requirements on water quality is a wise investment--many 
contaminants and discharge limits can be measured in a variety of ways 
(or not measured reliably today). Clarity in this area will help all.

Q2.  GE is a global company and as such must be aware of global trends 
in research and development. Which countries do you believe are ahead 
of the US in this area? What steps have these countries taken to 
improve water quality or be more efficient in their use of water? Can 
any of these strategies be adapted for use in the United States?

A2. I feel that Israel has encouraged companies to invest in water 
technologies, and that has led to some unique innovation. Singapore 
encourages water research to be conducted there, and initiatives to 
develop fundamental technologies to reduce energy consumption in water 
treatment and also reduce the cost of water treatment. Various entities 
in the Middle East are encouraging companies to work with them on 
systems and pilots that are novel in their approach to working with 
impaired waters. Finally, the Alberta government, due to their water 
challenges, is sponsoring joint industry-university-agency research 
that includes pilot testing. These entities have clearly identified 
their priorities and participated in forming relationships to help 
drive technology in focused areas. I personally feel that a prioritized 
agenda that all parties can work toward, as well as support of scale-
up/piloting facilities would be beneficial for the water community.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Section-by-Section Analysis of
               H.R. 1145, the National Water Research and
                       Development Initiative Act

Title: National Water Research and Development Initiative Act

Purpose: To improve the Federal Government's role in water research, 
development, demonstration, data collection, education, and technology 
transfer activities to address changes in water use, supply, and demand 
in the United States.

Section 1: Short Title

    The National Water Research and Development Initiative Act of 2009

Section 2: National Water Research and Development Initiative

    Section 2 directs the President to implement a National Water 
Research and Development Initiative to improve federal activities on 
water, including: research, development, demonstration, data collection 
and dissemination, education, and technology transfer. As part of the 
Initiative, the President shall establish or designate an Interagency 
Committee with representation from all federal agencies dealing with 
water and the Office of Management and Budget. The Office of Science 
and Technology Policy will chair the Committee.
    The Committee is charged with developing a National Water 
Availability Research and Assessment Plan, coordinating all federal 
activities on water that include research, development, demonstration, 
data collection and dissemination, education, and technology transfer, 
and promoting cooperation among agencies with respect to water 
research. The Committee is also responsible for facilitating technology 
transfer, communication, and opportunities for exchange with non-
governmental organizations.
    The President is directed to create a National Water Initiative 
Coordination Office to provide technical and administrative support to 
the Committee. The Office will disseminate information to the public 
and serve as a point of contact for the Initiative.
    The National Water Research and Assessment Plan establishes 
priorities for federal water research and assessment and shall utilize 
the recommendation from a 2007 Report issued by SWAQ (Subcommittee on 
Water Availability and Quality of the National Science and Technology 
Council) and recommendations by the National Academy of Sciences. This 
section also identifies required elements of the Plan. The Plan lists a 
number of water research outcomes to be achieved by the agencies 
participating in the Initiative.
    The Plan will be subject to a 90-day public comment period and must 
be submitted to Congress within one year of enactment.
    Section 2 also requires the President to establish or designate an 
advisory committee including non-governmental experts to provide 
guidance and recommendations to the interagency committee governing the 
Initiative.

Section 3: Budget Coordination

    Section 3 directs the President to provide guidance to each federal 
agency in the Initiative with respect to the President's annual budget 
request. The President is required to describe and list the items in 
the request that are intended to achieve the outcomes of the Plan.

Section 4: Annual Report

    Section 4 directs the President submit an annual report to Congress 
describing the activities and results of the Initiative.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
